NO. __________
IN THE

Supreme Court of the United States
CHIKE UZUEGBUNAM AND JOSEPH BRADFORD,
Petitioners,
v.
STANLEY C. PRECZEWSKI, JANN L. JOSEPH, LOIS C.
RICHARDSON, JIM B. FATZINGER, TOMAS JIMINEZ,
AILEEN C. DOWELL, GENE RUFFIN, CATHERINE
JANNICK DOWNEY, TERRANCE SCHNEIDER, COREY
HUGHES, REBECCA A. LAWLER, AND SHENNA PERRY,
Respondents.
On Petition for Writ of Certiorari to the
United States Court of Appeals for the Eleventh Circuit
PETITION FOR A WRIT OF CERTIORARI
DAVID A. CORTMAN
TRAVIS C. BARHAM
ALLIANCE DEFENDING
FREEDOM
1000 Hurricane Shoals Rd.
N.E., Suite D-1100
Lawrenceville, GA 30043
(770) 339–0774

KRISTEN K. WAGGONER
JOHN J. BURSCH
Counsel of Record
TYSON C. LANGHOFER
ALLIANCE DEFENDING
FREEDOM
440 First Street, N.W.
Suite 600
Washington, D.C. 20001
(616) 450–4235
jbursch@ADFlegal.org

Counsel for Petitioners

i
QUESTION PRESENTED
While a student at Georgia Gwinnett College,
Petitioner Chike Uzuegbunam began distributing
religious literature on campus. College officials
stopped him because he was outside the 0.0015% of
campus where “free speech expression” was allowed.
When Chike reserved a free-speech space and again
tried to evangelize, officials stopped him because
someone complained which, under College policy, converted Chike’s speech to “disorderly conduct” (i.e.,
“disturb[ing] the peace and/or comfort of person(s)”).
Facing discipline if he continued, Chike sued. Another
student, Petitioner Joseph Bradford, self-censored
after hearing how officials mistreated Chike.
Chike and Joseph raised constitutional claims
against Respondents’ enforcement of their policies,
seeking damages and prospective equitable relief to
remedy the censorship and chill. After Respondents
changed their speech policies post-filing, mooting all
equitable claims, the lower courts held that Chike and
Joseph did not adequately plead compensatory damages, and their nominal-damages claims were moot.
Six circuits hold that a government’s policy change
does not moot nominal-damages claims. Two circuits
hold such claims moot if the government changes a
policy it has never enforced against the plaintiff. The
Eleventh Circuit alone holds that, absent compensatory damages, government officials are never liable
for violating constitutional rights if they change their
policy after being sued. The question presented is:
Whether a government’s post-filing change of an
unconstitutional policy moots nominal-damages
claims that vindicate the government’s past, completed violation of a plaintiff’s constitutional right.

ii
PARTIES TO THE PROCEEDING &
CORPORATE DISCLOSURE
Petitioners are Chike Uzuegbunam (pronounced
“CHEE’-kay Oo-zah-BUN’-um”) and Joseph Bradford.
When this case began, both were students at Georgia
Gwinnett College. Both are individual persons.
Respondents are Stanley C. Preczewski, Lois C.
Richardson, Jim B. Fatzinger, Tomas Jiminez, Aileen
C. Dowell, Gene Ruffin, Catherine Jannick Downey,
Terrance Schneider, Corey Hughes, Rebecca A.
Lawler, and Shenna Perry. All are or were officials at
Georgia Gwinnett College involved in enforcing the
challenged policies, and Chike and Joseph sued them
in their official and individual capacities. During this
lawsuit, Respondent Preczewski left the employ of
Georgia Gwinnett College, and Respondent Jann L.
Joseph took his place as president. Under FED. R. CIV.
P. 25(d), Respondent Joseph is automatically substituted for the official capacity claims against Respondent Preczweski. The individual capacity claims
against Respondent Preczewski remain.
LIST OF ALL PROCEEDINGS
U.S. Court of Appeals for the Eleventh Circuit, No.
18-12676, Uzuegbunam v. Preczewski, judgment entered July 1, 2019, rehearing en banc denied September 4, 2019, mandate issued September 12, 2019.
U.S. Court of Appeals for the Eleventh Circuit, No.
18-12676, Uzuegbunam v. Preczewski, initial hearing
en banc denied February 21, 2019.
U.S. District Court for the Northern District of
Georgia, No. 1:16-cv-04658-ELR, Uzuegbunam v.
Preczewski, final judgment entered May 25, 2018.

iii
TABLE OF CONTENTS
QUESTION PRESENTED ......................................... i
PARTIES TO THE PROCEEDING &
CORPORATE DISCLOSURE .............................. ii
LIST OF ALL PROCEEDINGS ................................. ii
TABLE OF AUTHORITIES .................................... vii
DECISIONS BELOW................................................. 1
STATEMENT OF JURISDICTION .......................... 1
PERTINENT CONSTITUTIONAL PROVISIONS ... 1
INTRODUCTION ...................................................... 2
STATEMENT OF THE CASE ................................... 3
I.

Censorship through Speech Policies ............ 3
A. Censorship by Speech Zones .................... 3
B. Censorship by Speech Codes ................... 4

II.

Lower Court Proceedings ............................. 5

REASONS FOR GRANTING THE WRIT................. 8
I.

The Eleventh Circuit’s decision
exacerbates a circuit conflict. ..................... 10
A. The Second, Fifth, Sixth, Seventh,
Ninth, and Tenth Circuits hold that
standalone nominal-damages claims
avoid mootness. ..................................... 11

iv
B. The Fourth and Eighth Circuits hold
that standalone nominal-damages
claims avoid mootness unless the
challenged policy was never enforced
against the plaintiff. .............................. 17
C. The Eleventh Circuit’s outlier view
holds that standalone nominal-damages
claims do not prevent mootness, even in
a challenge to past enforcement of a
policy against the plaintiff. ..................... 20
II.

The Eleventh Circuit’s ruling conflicts
with this Court’s precedent on nominal
damages. ...................................................... 22
A. Unlike the Eleventh Circuit, this
Court has ruled that nominal damages
have significant practical effects. .......... 23
B. Unlike the Eleventh Circuit, this
Court has ruled that nominal-damages
claims vindicate priceless freedoms....... 26

III. This case is an ideal vehicle to address
the relationship between nominal
damages and mootness, an issue with
serious ramifications for students and
other civil rights plaintiffs.......................... 28
CONCLUSION ......................................................... 31

v
APPENDIX TABLE OF CONTENTS
United States Court of Appeals for the
Eleventh Circuit,
Opinion in 18-12676
Issued July 1, 2019 .................................................. 1a
United States District Court for the
Northern District of Georgia,
Judgment in 1:16-cv-04658
Issued May 25, 2018 .............................................. 20a
United States District Court for the
Northern District of Georgia,
Order Granting Motions to Dismiss
in 1:16-cv-04658
Issued May 25, 2018 .............................................. 22a
United States Court of Appeals for the
Eleventh Circuit,
Order Denying Petition for Rehearing En Banc
in 18-12676
Issued September 4, 2019 ...................................... 47a
United States Court of Appeals for the
Eleventh Circuit,
Order Denying Initial Hearing En Banc
in 18-12676
Issued February 21, 2019 ...................................... 50a
United States Court of Appeals for the
Eleventh Circuit,
Mandate in 18-12676
Issued September 12, 2019 .................................... 53a
U.S. Constitutional Provisions .............................. 55a

vi
United States District Court for the
Northern District of Georgia,
First Amended Verified Complaint
in 1:16-cv-04658
Filed February 15, 2017 ......................................... 56a
Excerpts from Georgia Gwinnett College’s
“At a Glance” Website, Containing the
College’s Speech Zone Policies
Filed as an Exhibit to the First Amended
Complaint on February 15, 2017 ......................... 137a
Georgia Gwinnett College’s
“Free Speech Area Request Form”
Filed as an Exhibit to the First Amended
Complaint on February 15, 2017 ......................... 142a
Excerpts from Georgia Gwinnett College’s
2016–2017 Student Handbook, Containing the
College’s Speech Zone and Speech Code Policies
Filed as an Exhibit to the First Amended
Complaint on February 15, 2017 ......................... 145a
Excerpts from Defendants’ Memorandum of Law
in Support of Motion to Dismiss
Filed in 1:16-cv-04658 on February 1, 2017........ 152a
Excerpts from U.S. District Court Docket
Northern District of Georgia
Case No. 1:16-cv-04658 ........................................ 157a

vii
TABLE OF AUTHORITIES
Cases
Advantage Media, LLC v. City of Eden Prairie,
456 F.3d 793 (8th Cir. 2006)............................... 19
American Humanist Association v.
Greenville County School District,
652 F. App’x 224 (4th Cir. 2016) ......................... 18
Baca v. Colorado Department of State,
935 F.3d 887 (10th Cir. 2019),
cert. granted, __ S. Ct. __, 2020 WL 254162
(Jan. 17, 2020) (No. 19-518) ............................... 15
Bernhardt v. County of Los Angeles,
279 F.3d 862 (9th Cir. 2002)............................... 15
Brinsdon v. McAllen Independent School District,
863 F.3d 338 (5th Cir. 2017)............................... 12
C.F. ex rel. Farnan v.
Capistrano Unified School District,
654 F.3d 975 (9th Cir. 2011)............................... 14
Carey v. Piphus,
435 U.S. 247 (1978) ...................................... passim
Carver Middle School Gay-Straight Alliance v.
School Board of Lake County,
842 F.3d 1324 (11th Cir. 2016)........................... 20
Central Radio Co. v. City of Norfolk,
811 F.3d 625 (4th Cir. 2016)............................... 18

viii
Chapin Furniture Outlet Inc. v. Town of Chapin,
252 F. App’x 566 (4th Cir. 2007) ........................ 19
Committee for First Amendment v. Campbell,
962 F.2d 1517 (10th Cir. 1992)..................... 15, 16
Coral Springs Street Systems, Inc. v.
City of Sunrise,
371 F.3d 1320 (11th Cir. 2004)............................. 8
Corder v. Lewis Palmer School District No. 38,
566 F.3d 1219 (10th Cir. 2009)........................... 16
Covenant Christian Ministries, Inc. v.
City of Marietta,
654 F.3d 1231 (11th Cir. 2011)........................... 20
Crue v. Aiken,
370 F.3d 668 (7th Cir. 2004)............................... 14
Davis v. Village Park II Realty Co.,
578 F.2d 461 (2d Cir. 1978) ................................ 11
Doe v. Delie,
257 F.3d 309 (3d Cir. 2001) ................................ 17
Ellis v. Brotherhood of Railway, Airline &
Steamship Clerks, Freight Handlers, Express
& Station Employees,
466 U.S. 435 (1984) ............................................. 28
Farrar v. Hobby,
506 U.S. 103 (1992) ..............................9, 24, 25, 27
Flanigan’s Enterprises, Inc. v.
City of Sandy Springs,
868 F.3d 1248 (11th Cir. 2017) (en banc).... passim

ix
Henson v. Honor Committee of the
University of Virginia,
719 F.2d 69 (4th Cir. 1983)................................. 18
Husain v. Springer,
494 F.3d 108 (2d Cir. 2007) ................................ 11
Jacobs v. Clark County School District,
526 F.3d 419 (9th Cir. 2008)............................... 14
Jacobs v. Tempur-Pedic International, Inc.,
626 F.3d 1327 (11th Cir. 2010)............................. 6
Keup v. Hopkins,
596 F.3d 899 (8th Cir. 2010)............................... 19
Koger v. Bryan,
523 F.3d 789 (7th Cir. 2008)............................... 14
Mellen v. Bunting,
327 F.3d 355 (4th Cir. 2003)............................... 18
Memphis Community School District v. Stachura,
477 U.S. 299 (1986) ....................................... 23, 26
Miller v. City of Cincinnati,
622 F.3d 524 (6th Cir. 2010)............................... 13
Morgan v. Plano Independent School District,
589 F.3d 740 (5th Cir. 2009)............................... 12
Morrison v. Board of Education of Boyd County,
521 F.3d 602 (6th Cir. 2008)............................... 13
Mosley v. Hairston,
920 F.2d 409 (6th Cir. 1990)................................. 8

x
Murray v. Board of Trustees,
University of Louisville,
659 F.2d 77 (6th Cir. 1981)................................. 13
O’Connor v. City & County of Denver,
894 F.2d 1210 (10th Cir. 1990)........................... 16
O’Connor v. Washburn University,
416 F.3d 1216 (10th Cir. 2005)........................... 16
Phelps-Roper v. City of Manchester,
697 F.3d 678 (8th Cir. 2012)............................... 20
Praise Christian Center v.
City of Huntington Beach,
352 F. App’x 196 (9th Cir. 2009) ........................ 15
Robinson v. Lord Byron,
2 Cox 4, 30 Eng. Rep. 3 (1788) ........................... 23
Rock for Life-UMBC v. Hrabowski,
411 F. App’x 541 (4th Cir. 2010) ......................... 18
Shelton v. Tucker,
364 U.S. 479 (1960) ............................................... 3
United States v. Students Challenging Regulatory
Agency Procedures,
412 U.S. 669 (1973) ............................................. 28
Utah Animal Rights Coalition v.
Salt Lake City Corp.,
371 F.3d 1248 (10th Cir. 2004)..................... 16, 17
Uzuegbunam v. Preczewski,
781 F. App’x 824 (11th Cir. 2019) ........................ 1

xi
Uzuegbunam v. Prezewski,
378 F. Supp. 3d 1195 (N.D. Ga. 2018) ................. 1
Van Wie v. Pataki,
267 F.3d 109 (2d Cir. 2001) ................................ 11
Ward v. Santa Fe Independent School District,
2002 WL 494510 (5th Cir. Mar. 14, 2002) ......... 12
Ward v. Santa Fe Independent School District,
2002 WL 753502 (5th Cir. Apr. 9, 2002) ............ 12
Ward v. Santa Fe Independent School District,
393 F.3d 599 (5th Cir. 2004)............................... 12
Webb v. Portland Manufacturing,
29 F. Cas. 506 (Story, Circuit Justice, C.C.D.
Me. 1838) (No. 17,322) ........................................ 23
Yniguez v. Arizona,
975 F.2d 646 (9th Cir. 1992)............................... 15
Statutes
28 U.S.C. 1254(1) ....................................................... 1
42 U.S.C. 1983 .......................................................... 11
Other Authorities
United States’ Statement of Interest,
No. 1:16-cv-04658, Sept. 26, 2017,
ECF No. 37 ...................................................... 5, 29
Rules
FED. R. CIV. P. 25(d) ................................................... ii

xii
Treatises
1 J.G. SUTHERLAND,
A TREATISE ON THE LAW OF DAMAGES §§ 9–10
(John R. Berryman ed., 4th ed. 1916) ................ 23
13C WRIGHT & MILLER,
FEDERAL PRACTICE & PROCEDURE
JURISDICTION § 3533.3 (3d ed. 2018)................... 11

1
DECISIONS BELOW
The Eleventh Circuit’s unpublished decision
affirming judgment for Respondents is reported at
781 F. App’x 824 (11th Cir. 2019), and reprinted at
App.1a–19a. Its orders denying en banc review are
reprinted at App.47a–49a and App.50a–52a.
The district court’s decision granting Respondents’
motion to dismiss is reported at 378 F. Supp. 3d 1195
(N.D. Ga. 2018), and reprinted at App.22a–46a.
STATEMENT OF JURISDICTION
On July 1, 2019, the Eleventh Circuit entered its
judgment. On September 4, it denied rehearing en
banc. On October 29, Justice Thomas extended the
time to file this petition until January 31, 2020. This
Court has jurisdiction under 28 U.S.C. 1254(1).
PERTINENT CONSTITUTIONAL PROVISIONS
Relevant portions of Article III and the First and
Fourteenth Amendments to the United States Constitution are reprinted at App.55a.

2
INTRODUCTION
Two students, Chike Uzuegbunam and Joseph
Bradford, sought to exercise free speech rights on
their college campus—the quintessential marketplace
of ideas. Chike was silenced twice; both were chilled,
entitling the students to nominal damages. But they
were never given a chance to prove the constitutional
violations. The lower courts held that once College
officials changed their unconstitutional policies, they
mooted not only the students’ request for prospective
equitable relief, but also their nominal-damages
claims for past, completed constitutional violations.
Six circuits hold that nominal-damages claims
challenging the past enforcement of unconstitutional
laws or policies present justiciable controversies. Two
circuits agree, unless the policies have not been
applied against the plaintiff. Only the Eleventh Circuit—which admits that all “the circuit courts that
have reached this issue have taken a position contrary” to its own—declares nominal-damages claims
moot, closing the courthouse to plaintiffs whose constitutional rights have been violated. Flanigan’s
Enters., Inc. v. City of Sandy Springs, 868 F.3d 1248,
1267 n.19 (11th Cir. 2017) (en banc).
This is not the first time the Eleventh Circuit has
applied its novel rule, but it is the most troublesome.
In Flanigan’s, the en banc Eleventh Circuit held that
the government’s repeal of an ordinance it never
enforced mooted plaintiffs’ requests for prospective
equitable relief and nominal damages. Now, the Eleventh Circuit extended its rule to moot nominaldamages claims involving a policy that College officials enforced repeatedly against two students to
censor them, a clear First Amendment violation.

3
Nominal damages hold government officials
accountable when constitutional violations occur but
do not inflict compensable injuries. The Eleventh
Circuit should not treat nominal damages—and the
violations they vindicate—as worthless.
The “vigilant protection of constitutional freedoms
is nowhere more vital” than at public colleges. Shelton
v. Tucker, 364 U.S. 479, 487 (1960). Yet the Eleventh
Circuit’s outlier view allows these institutions to
violate constitutional rights with impunity—avoiding
judicial review through a well-timed policy shift. This
rule sends a clear message to students when school
officials trample their freedoms: “Don’t bother retaining counsel; we know how to game the legal system.”
And it signals that colleges can censor students without consequence, without clarifying the law, and with
the cover of qualified immunity. This Court should
intervene and declare that federal courts remain open
when colleges violate students’ constitutional rights.
STATEMENT OF THE CASE
I.

Censorship through Speech Policies
A. Censorship by Speech Zones

In 2016, Chike was sharing his Christian faith by
leafleting and conversing outdoors on campus.
App.90a–92a. Respondents stopped him for violating
their Speech Zone Policy. App.92a. Under that policy,
expressive activities could occur by “reserving” one of
two speech zones. App.75a, 79a–80a, 138a, 146a–47a.
Open about 10% of the week, the zones comprised one
patio and one sidewalk—0.0015% of campus.
App.76a–78a, 138a, 146a. To speak their views at all
other times or places, inside or outside the speech
zones, students needed a “permit.” App.78a–79a.

4
To reserve the zones, students had to submit a
form and any leaflets three business days in advance.
App.79a–80a, 138a, 142a–44a, 147a. Four officials
reviewed them with no limits on their discretion to
approve or deny. App.81a–82a, 139a, 147a–48a. The
policy listed 15 criteria all speakers “must meet.”
App.81a, 138a–41a, 147a–50a. But it never said that
officials must grant requests satisfying every requirement; even those requests could be denied. App.81a.
College officials also prohibited Chike from discussing his faith orally outside the speech zones.
App.93a–94a. Given these threats, he stopped any
such expression anywhere on campus. App.94a.
B. Censorship by Speech Codes
Chike later reserved a speech zone to speak
publicly about his faith. App.94a–96a. But College
officials, including campus police, stopped him yet
again, saying that because someone had complained,
his expression constituted “disorderly conduct.”
App.96a–97a, 99a–101a. Under the College’s Speech
Code, “disorderly conduct” included anything that
“disturbs the peace and/or comfort of person(s).”
App.84a, 151a. These officials threatened to punish
Chike if he kept speaking, enforcing a heckler’s veto
that silenced Chike. App.100a–03a.
This left Chike unable to speak about his faith
anywhere on campus. Without a permit, he was
banned from speaking in the over 99.99% of campus
outside the speech zones. Even with a reservation in
the zones, open only about 10% of the time, he could
avoid discipline if he said only those things that made
no one uncomfortable.

5
II.

Lower Court Proceedings

In December 2016, Chike sued, seeking prospective equitable relief and damages. App.157a–58a.
Respondents moved to dismiss, defending their
speech policies, invoking qualified immunity, and
claiming that Chike’s speech—the basic tenets of the
Christian faith—“arguably rose to the level of
‘fighting words.’” App.155a. Petitioners then filed an
amended complaint that added Joseph as a plaintiff,
since he also desired to discuss his faith and Respondents’ policies and actions chilled his speech.
App.158a–59a; App.56a–136a.
Respondents again moved to dismiss, raising
nearly identical arguments. App.159a–60a. Then
they eliminated their Speech Code, revised their
Speech Zone Policy, and moved to dismiss Petitioners’
requests for injunctive and declaratory relief as moot.
App.160a. Three months later, the en banc Eleventh
Circuit decided Flanigan’s, which held that the government’s repeal of an ordinance it never enforced
mooted the plaintiffs’ nominal-damages claims. 868
F.3d at 1263–70. (The majority noted that its holding
conflicted with other circuits, id. at 1267 n.19, and a
five-judge dissent reiterated the same, citing contrary
cases from seven circuits, id. at 1271 (Wilson, J. dissenting).) Meanwhile, the U.S. Department of Justice
filed a statement of interest in this case, noting its
satisfaction “that Plaintiffs have stated claims for
violations of the First and Fourteenth Amendments.”
United States’ Statement of Interest at 9, No. 1:16-cv04658, Sept. 26, 2017, ECF No. 37; App.162a.
Eight months after Flanigan’s, Respondents
argued that it mooted Chike’s and Joseph’s nominaldamages claims. App.163a. In response, Petitioners

6
explained why Flanigan’s neither controlled nor
required dismissal of their claims. App.163a.
The court waited to rule until May 2018, more
than a year after briefing was complete and also after
Chike graduated. App.163a. It held that Chike’s graduation mooted his request for prospective relief, and
that Respondents’ policy changes mooted Joseph’s.
App.26a–40a. In support, the court explained that the
students’ amended complaint did not request compensatory damages, and their nominal-damages claims
were moot under Flanigan’s, even though College
officials had actually enforced their unconstitutional
policies against Chike. App.40a–46a. The court
rejected Chike and Joseph’s request in their briefing
to amend the complaint to clarify that they also
sought compensatory damages, faulting them for not
moving to amend, as if they should have anticipated
their compensatory-damages argument would be
rejected and their nominal-damages claim would be
mooted. App.45a n.11. The court dismissed the case
without prejudice, then entered judgment minutes
later, App.20a, 163a, preventing Petitioners from
filing a motion to amend. Jacobs v. Tempur-Pedic
Int’l, Inc., 626 F.3d 1327, 1344 (11th Cir. 2010) (Rule
15(a), authorizing motions to amend, has “no application” after final judgment).
After denying initial hearing en banc, App.50a–
52a, the Eleventh Circuit affirmed, relying on Flanigan’s to declare the case moot. App.12a–16a. Chike’s
and Joseph’s nominal-damages claims, the panel
reasoned, could not keep the case alive because
nominal damages would not “have a practical effect
on the parties’ rights or obligations.” App.13a, 15a–
16a. Chike and Joseph argued that nominal damages
would lead to a determination whether their rights

7
had been violated. App.14a–15a. But per the panel,
Flanigan’s categorically established that nominal
damages have no practical effect absent “a well-pled
request for compensatory damages.” App.15a.
Flanigan’s had included a caveat that courts have
“Article III powers to award nominal damages” when
they “determine[ ] that a constitutional violation
occurred, but that no actual damages were proven.”
App.13a. But the panel here went much further, holding that Flanigan’s “limited” its caveat “to cases in
which both compensatory and nominal damages were
pled.” App.13a. According to the panel, nominaldamages claims are useless unless combined with a
request for compensatory damages. App.13a–16a.
The Eleventh Circuit also eliminated any nominaldamages distinction between claims based on unconstitutional policies that have been enforced and those
that have not. (As noted above, Flanigan’s involved a
policy that had not been enforced. 868 F.3d at 1262–
65.) Chike’s “right to receive nominal damages as the
result of any unconstitutional conduct . . . would
[still] have to flow from a well-pled request for
compensatory damages,” said the panel. App.15a.
In sum, the Eleventh Circuit’s decision below
renders standalone nominal-damages claims—those
unaccompanied by requests for compensatory
damages—worthless in maintaining a case once
prospective injunctive relief is unavailable. According
to the Eleventh Circuit, requests for nominal
damages do not prevent a case from becoming moot
even when the government has already enforced a
challenged policy and violated the plaintiffs’ rights.
Chike and Joseph sought rehearing en banc, a
request the Eleventh Circuit denied. App.47a–49a.

8
REASONS FOR GRANTING THE WRIT
Nominal damages are critical to ensure that
federal courts remain open to litigants, especially in
civil-rights cases. That is because constitutional
violations often do not inflict financial injuries, and
governments often moot equitable claims by changing
unconstitutional policies. Many circuits review these
mid-litigation tweaks with “more solicitude” than a
private defendant’s, as if politicians and bureaucrats
were somehow less inclined to dodge accountability by
manipulating jurisdiction than anyone else.1 Without
nominal damages, bureaucrats can trample constitutional freedoms, then deprive citizens of a way to
vindicate their rights. The Eleventh Circuit’s rule
slams the door on many civil-rights plaintiffs and
makes future challenges less likely.
This is particularly true for college students. At
graduation, their equitable claims evaporate, giving
them four to five years (at most) to obtain relief. And
when courts, like the district court, take more than a
year to rule on a motion to dismiss, that narrow
window of opportunity closes rapidly. Without
nominal damages, universities and schools can violate
students’ rights with impunity, without clarifying the
law, and with the cover of qualified immunity. This
Court should not allow that. Review is warranted for
three reasons.
E.g., Mosley v. Hairston, 920 F.2d 409, 415 (6th Cir. 1990)
(“[C]essation of . . . allegedly illegal conduct by government officials has been treated with more solicitude by the courts than
similar action by private parties.”); Coral Springs St. Sys., Inc.
v. City of Sunrise, 371 F.3d 1320, 1328–29 (11th Cir. 2004)
(“[G]overnmental entities and officials have been given considerably more leeway than private parties in the presumption that
they are unlikely to resume illegal activities.”).
1

9
First, the circuits are now split into three camps
over whether standalone nominal-damages claims
preserve an ongoing controversy once later events
moot a plaintiff’s request for prospective equitable
relief. Six circuits—the Second, Fifth, Sixth, Seventh,
Ninth, and Tenth Circuits—hold that nominaldamages claims preserve a controversy. Two more,
the Fourth and Eighth, agree but also recognize a
limited exception: when the government changes an
unconstitutional policy before enforcing it against the
plaintiffs. The Eleventh Circuit alone holds that
plaintiffs can never pursue a standalone nominaldamages claim, even when an unconstitutional policy
has been enforced against them. Litigants in the
Eleventh Circuit have no way to adjudicate past
constitutional violations unless they can prove
compensatory damages.
Second, the Eleventh Circuit’s outlier rule conflicts with this Court’s precedent. According to the
Eleventh Circuit, nominal damages have no “practical
effect” on parties’ rights and obligations. But this
Court, when concluding that a nominal-damages
award confers prevailing-party status, has held that
nominal damages “materially alter[ ] the legal relationship between the parties by modifying the defendant’s behavior in a way that directly benefits the
plaintiff,” Farrar v. Hobby, 506 U.S. 103, 111–12
(1992), deterring colleges from recycling bad policies.
And this Court has also recognized the important
power to “vindicate[ ] deprivations of certain ‘absolute’ rights . . . through the award of a nominal sum
of money.” Carey v. Piphus, 435 U.S. 247, 266 (1978).
The Eleventh Circuit’s nominal-damages rule diminishes constitutional rights and cannot be squared
with this Court’s precedents.

10
Third, this case is an excellent vehicle to affirm the
indispensable role of nominal damages. The facts are
undisputed, and the legal issue is cleanly presented.
The university speech context—where nominal
damages play an essential role because of student
graduations, frequent policy changes, and the all-toocommon absence of financial loss—is an ideal backdrop for resolving the question presented. And the
error below is especially troubling because the Eleventh Circuit has done what no other circuit has:
declared that a standalone nominal-damages claim
cannot preserve a challenge to the past unconstitutional enforcement of a government policy. Review is
warranted.
I.

The Eleventh Circuit’s decision exacerbates a circuit conflict.

The Eleventh Circuit’s ruling deepens an existing
circuit split. When the en banc Eleventh Circuit
decided Flanigan’s, it recognized that its holding
created a split with many other circuits over whether
a nominal-damages claim saves a case from mootness.
868 F.3d at 1265, 1267 n.19. Accord id. at 1271
(Wilson, J. dissenting). But Flanigan’s involved an
unconstitutional policy that government officials
changed (in response to litigation) without ever
having enforced it against the plaintiff or anyone else.
The Eleventh Circuit here went further and held that
even when bureaucrats have applied a policy and
violated a plaintiff’s constitutional rights, a nominaldamages claim is insufficient for the plaintiff to
vindicate the violation with a court ruling. In so holding, the Eleventh Circuit transformed what had been
a 6–3 circuit split, after Flanigan’s, into a 6–2–1 split,
with the Eleventh Circuit standing alone.

11
A. The Second, Fifth, Sixth, Seventh, Ninth,
and Tenth Circuits hold that standalone
nominal-damages claims avoid mootness.
Following the view of distinguished scholars, six
circuits hold that nominal-damages claims preserve a
live case or controversy once claims for prospective
equitable relief are moot. 13C WRIGHT & MILLER, FED.
PRAC. & PROC. JURIS. § 3533.3 (3d ed. 2018) (“Nominal
damages . . . suffice to deflect mootness.”).
Second Circuit. In a constitutional challenge to an
election law, the Second Circuit explained that “for
suits alleging constitutional violations under 42
U.S.C. § 1983, it is enough [to preclude mootness] that
the parties merely request nominal damages.” Van
Wie v. Pataki, 267 F.3d 109, 115 n.4 (2d Cir. 2001). In
fact, that court encouraged plaintiffs to “avoid the
potential for mootness by . . . expressly pleading . . .
nominal money damages.” Ibid. Accord Davis v. Vill.
Park II Realty Co., 578 F.2d 461, 463 (2d Cir. 1978)
(“The availability of . . . nominal . . . damages is
sufficient to prevent this case from becoming moot.”);
Flanigan’s, 868 F.3d at 1265 n.17 (en banc) (recognizing its decision conflicts with the Second Circuit).
The Second Circuit applies these principles to
college students. When students challenged restrictions on the student newspaper and interference in
student elections, the district court held their equitable claims moot. Husain v. Springer, 494 F.3d 108,
120 (2d Cir. 2007). On appeal, the students waived
those equitable claims, id. at 121 n.10, and sought
“only . . . nominal damages.” Id. at 135 n.17. The
Second Circuit entertained the claim and denied
defendants qualified immunity. Id. at 134.

12
Fifth Circuit. The Fifth Circuit agrees with the
Second. It reversed a district-court ruling dismissing
as moot a student’s case against her high school
because the school altered a challenged policy.
Morgan v. Plano Indep. Sch. Dist., 589 F.3d 740, 744
(5th Cir. 2009). The court agreed the equitable claims
were moot, but it faulted the district court for ignoring
nominal damages. Id. at 748. After all, the Fifth
Circuit and its “sister circuits” have “consistently held
that a claim for nominal damages avoids mootness.”
Id. at 748 & n.32 (collecting cases). Accord Flanigan’s,
868 F.3d at 1265 n.17 (en banc) (recognizing its decision conflicts with the Fifth Circuit).
Similarly, the Fifth Circuit held that a student’s
graduation mooted her equitable claims against her
school, but not her claim for nominal damages—the
only kind of damages she sought. Brinsdon v. McAllen
Indep. Sch. Dist., 863 F.3d 338, 345 (5th Cir. 2017).
“The mootness doctrine,” the court explained, “will
not bar any claim for . . . nominal damages.” Ibid.
And after a Fifth Circuit decision mooted a high
school graduate’s nominal-damages claim contesting
a later-rescinded policy, Ward v. Santa Fe Indep. Sch.
Dist., 2002 WL 494510, *1 (5th Cir. Mar. 14, 2002)
(per curiam), the panel promptly corrected itself,
Ward v. Santa Fe Indep. Sch. Dist., 2002 WL 753502,
*1 (5th Cir. Apr. 9, 2002) (per curiam). Fifth Circuit
law authorizing plaintiffs to “seek nominal damages
for [constitutional] violation[s] in the absence of other
damages” “necessarily implie[s] that a case is not
moot so long as the plaintiff seeks to vindicate his
constitutional rights through a claim for nominal
damages.” Ibid. Accord Ward v. Santa Fe Indep. Sch.
Dist., 393 F.3d 599, 601–02 (5th Cir. 2004).

13
Sixth Circuit. In Murray v. Board of Trustees,
University of Louisville, 659 F.2d 77 (6th Cir. 1981), a
fired student-newspaper editor sued his university,
raising First Amendment claims and seeking “injunctive relief and money damages.” Id. at 78. The district
court dismissed the case after the request for injunctive relief became moot and the plaintiff failed to
prove “actual damages for the firing.” Ibid. On appeal,
the Sixth Circuit agreed that the injunctive claim was
moot and that the “plaintiff failed to prove actual
damages.” Id. at 78–79. But the Sixth Circuit
reversed the dismissal of the “entire” case “as moot”
because the district court still needed to resolve
“plaintiff’s claims for nominal damages.” Id. at 79.
The court remanded for consideration of the nominaldamages claim. Ibid.
The Sixth Circuit has created some ambiguity
about nominal damages and standing. It once found
no standing for a plaintiff challenging a high school
speech policy when the government had not enforced
the policy against him, and the only alleged injury
was subjective chill. Morrison v. Bd. of Educ. of Boyd
Cty., 521 F.3d 602, 608 (6th Cir. 2008). But shifting
from standing to mootness, the court clarified that its
circuit precedent allows “nominal-damages claim[s] to
go forward in . . . otherwise-moot case[s].” Id. at 611.
Since then, the Sixth Circuit has reiterated that
nominal-damages claims for past constitutional violations are not moot, even when the challenged policy
changes. E.g., Miller v. City of Cincinnati, 622 F.3d
524, 533 (6th Cir. 2010) (“[P]laintiffs’ claims remain
viable to the extent that they seek nominal damages
as a remedy for past wrongs.”).

14
Seventh Circuit. The Seventh Circuit also allows
plaintiffs to litigate standalone nominal-damages
claims after injunctive relief is no longer available. In
Crue v. Aiken, 370 F.3d 668, 674 (7th Cir. 2004), the
district court awarded declaratory relief and nominal
damages to professors and a graduate teaching assistant who challenged restrictions on their speech. Id.
at 677. On appeal, the Seventh Circuit ruled that the
school’s removal of the speech restraints mooted
injunctive relief, but that “the requests for declaratory relief and for [nominal] damages remain,” keeping the case alive. Ibid. And in another case, the
Seventh Circuit ruled for a prisoner plaintiff because
nominal damages remained available even though
injunctive relief was “rendered moot by his release
from prison” and governing statutes foreclosed
compensatory and punitive damages. Koger v. Bryan,
523 F.3d 789, 803–04 (7th Cir. 2008).
Ninth Circuit. The Ninth Circuit also embraces
the rule that a nominal-damages claim alone avoids
mootness. In C.F. ex rel. Farnan v. Capistrano Unified
School District, 654 F.3d 975, 982–84 (9th Cir. 2011),
a student challenged his high school teacher’s in-class
comments. While the student’s graduation mooted his
claims for equitable relief, the Ninth Circuit ruled
that his nominal-damages claim was viable because a
“live claim for even nominal damages will prevent
dismissal for mootness.” Id. at 983 (cleaned up).
Accord Jacobs v. Clark Cty. Sch. Dist., 526 F.3d 419,
425–27 (9th Cir. 2008) (although students challenging a school policy “may be entitled to collect only
nominal damages were they to succeed on their free
speech claims, they nonetheless present[ed] justiciable challenges” to the policy).

15
The Ninth Circuit similarly allowed a state
employee who brought constitutional claims against a
workplace speech policy to continue her case even
after she left state employment. Yniguez v. Arizona,
975 F.2d 646, 647 (9th Cir. 1992) (per curiam).
“Although the plaintiff may no longer be affected by
the [policy],” said the court, “that d[id] not render her
action moot.” Ibid. Her “constitutional claims may
entitle her to an award of nominal damages,” and the
“pursuit of nominal damages . . . prevents mootness.”
Ibid. Accord Bernhardt v. Cty. of L.A., 279 F.3d 862,
871–73 (9th Cir. 2002) (while plaintiff’s “claims for
prospective relief” against a challenged government
policy “are moot,” “her possible entitlement to nominal damages creates a continuing live controversy”);
Flanigan’s, 868 F.3d at 1265 n.17 (en banc) (acknowledging its decision conflicts with the Ninth Circuit).
Like the Fifth Circuit, the Ninth has rejected
Flanigan’s nominal damages rule as error. A panel
once dismissed a RLUIPA appeal as moot after the
plaintiff church moved. Praise Christian Ctr. v. City
of Huntington Beach, 352 F. App’x 196, 198 (9th Cir.
2009). On rehearing, the court corrected itself, holding that a “claim for nominal damages creates the
requisite personal interest necessary to maintain a
claim’s justiciability.” Ibid.
Tenth Circuit. The Tenth Circuit confirms that “a
complaint for nominal damages survives mootness
even where prospective relief is no longer available.”
Baca v. Colo. Dep’t of State, 935 F.3d 887, 924 (10th
Cir. 2019), cert. granted, __ S. Ct. __, 2020 WL 254162
(Jan. 17, 2020) (No. 19-518). Consider Committee for
First Amendment v. Campbell, 962 F.2d 1517 (10th
Cir. 1992), where an association of students requested
damages and equitable relief when challenging a

16
university’s decision to censor a controversial film. Id.
at 1519–20. The university later changed course,
allowed the film, and adopted new policies, mooting
equitable relief. Id. at 1524–26. Those actions did not
“erase[ ] the slate” of “alleged First Amendment
violations in connection with the film.” Id. at 1526.
“[T]he district court erred in dismissing the nominal
damages claim which relates to past (not future)
conduct.” Id. at 1526–27.
In another case, the Tenth Circuit held that
removing an allegedly unconstitutional statue from
campus mooted the plaintiffs’ equitable claims, but
not their request for nominal damages. O’Connor v.
Washburn Univ., 416 F.3d 1216, 1221–22 (10th Cir.
2005). “Unlike the claims for injunctive and declaratory relief,” the nominal-damages claim—the only
remaining claim in the case—was “not mooted by the
removal of the statue from campus.” Id. at 1222. Similarly, the Tenth Circuit adjudicated the free-speech
claims of a high school valedictorian, though her graduation speech was completed and “[o]nly [her] claim
for nominal damages . . . remain[ed].” Corder v.
Lewis Palmer Sch. Dist. No. 38, 566 F.3d 1219, 1225
(10th Cir. 2009). Accord O’Connor v. City & Cty. of
Denver, 894 F.2d 1210, 1216 (10th Cir. 1990) (nominal
damages—the only relief still available—“were past
damages not affected by any changes in the [law]”).
While the Tenth Circuit’s rule on nominal damages and mootness is unambiguous and unbroken, it
has sparked debate among some on that court.
Compare Utah Animal Rights Coal. v. Salt Lake City
Corp., 371 F.3d 1248, 1262–71 (10th Cir. 2004)
(McConnell, J., concurring) (questioning the Tenth
Circuit’s rule while recognizing its consistency with
“the views of a distinguished commentator”), with id.

17
at 1271–75 (Henry, J., concurring) (defending the
rule). In fact, one (now former) Tenth Circuit judge
called for this Court to “examine the question”
whether nominal-damages claims, by themselves,
prevent a case from becoming moot. Id. at 1271
(McConnell, J., concurring). This Court should grant
the petition and provide the guidance lower courts are
seeking in situations where government officials
change a policy to avoid liability, and the plaintiff
continues to pursue a ruling vindicating the violation
of constitutional rights.2
B. The Fourth and Eighth Circuits hold that
standalone nominal-damages claims
avoid mootness unless the challenged
policy was never enforced against the
plaintiff.
The Fourth and Eighth Circuits agree with the
general rule that a standalone nominal-damages
claim keeps a case alive once prospective equitable
relief is no longer available. But those circuits have
recognized a narrow exception: nominal damages
alone cannot preserve a challenge to a rescinded law
or policy when the government never enforced it
against the plaintiffs.

It does not appear that the Third Circuit has squarely
addressed whether a nominal-damages request—standing
alone—can preserve a case once equitable relief is moot. The
closest that court came to addressing that issue was when it held
that even though later events mooted a prisoner’s “claims for
declaratory and injunctive relief,” his remaining claims for
nominal and punitive damages kept the case alive. Doe v. Delie,
257 F.3d 309, 314 & n.3 (3d Cir. 2001).
2

18
Fourth Circuit. The Fourth Circuit generally
allows a standalone nominal-damages claim to preserve justiciability. In a case reminiscent of this one,
that court relied on a nominal-damages claim in
allowing two students to continue their challenge to
university policies after the policies changed and the
students graduated. Mellen v. Bunting, 327 F.3d 355,
363–65 (4th Cir. 2003). The Fourth Circuit ruled that
the students’ standalone nominal-damages claim
“continue[d] to present a live controversy,” id. at 365,
and considered the merits, id. at 365–77. Accord
Henson v. Honor Comm. of Univ. of Va., 719 F.2d 69,
72 n.5 (4th Cir. 1983) (expelled student’s case
“remained a live controversy even after the disciplinary proceedings were dropped” because he had a
“right to seek . . . nominal damages”).3
The Fourth Circuit applied these principles when
commercial property owners brought free-speech
claims against a sign ordinance. Cent. Radio Co. v.
City of Norfolk, 811 F.3d 625, 631–32 (4th Cir. 2016).
Although the city’s changes to its ordinance mooted
an injunction request, the “request for retrospective
relief in the form of nominal damages, based on an
alleged unconstitutional . . . restriction on speech”—
the only remaining relief that the plaintiffs
requested—was “not moot.” Id. at 632.
Accord Am. Humanist Ass’n v. Greenville Cty. Sch. Dist., 652 F.
App’x 224, 228, 231 (4th Cir. 2016) (graduate “typically continues
to have a live claim for damages against a school for a past constitutional violation” and “claim for nominal damages based on a
prior constitutional violation is not moot because the plaintiffs’
injury was complete at the time the violation occurred”); Rock for
Life-UMBC v. Hrabowski, 411 F. App’x 541, 550 (4th Cir. 2010)
(“[E]ven permanent remedial measures will not moot the [student
organization’s compensatory or nominal damages] claim.”).

3

19
The Fourth Circuit, in an unpublished decision,
has recognized a narrow exception to the general rule.
Chapin Furniture Outlet Inc. v. Town of Chapin, 252
F. App’x 566, 571–72 (4th Cir. 2007) (per curiam).
Ruling on a store’s free-speech challenge to a sign
ordinance, the court started with the “normal[ ]” rule
that “a defendant’s change in conduct will not moot
the case” “so long as the plaintiff has a cause of action
for damages,” even just “nominal damages.” Id. at
571. But the Fourth Circuit held that the plaintiff’s
“assertion of a nominal damages claim alone is insufficient to preserve a live controversy” because “the
[o]rdinance was never enforced against it.” Ibid.
Eighth Circuit. The Eighth Circuit follows that
same approach. When the government “remedie[s]”
flaws in its policies after suit is filed, those remedial
efforts “moot any claim for injunctive relief,” but the
entire case is “not moot” if the plaintiff maintains a
claim for “nominal damages.” Advantage Media, LLC
v. City of Eden Prairie, 456 F.3d 793, 803 (8th Cir.
2006). Accord Flanigan’s, 868 F.3d at 1265 n.17 (en
banc) (recognizing that its decision conflicts with the
Eighth Circuit).
And in another case, the Eighth Circuit ruled that
while a policy change mooted a prisoner’s request for
prospective equitable relief, it “did not deprive [him]
of the opportunity to seek monetary damages for prior
violations of his constitutional rights.” Keup v. Hopkins, 596 F.3d 899, 904 (8th Cir. 2010). Although the
plaintiff there at first sought compensatory and punitive damages, id. at 902, the district court awarded
only nominal damages, id. at 903. Because the plaintiff did not appeal the denial of compensatory and punitive damages, only nominal damages were at issue
on appeal.

20
But the Eight Circuit, like the Fourth, has recognized that nominal damages do not prevent mootness
when the government defendants have never enforced
the challenged law against the plaintiff. For example,
the Eighth Circuit held that a request for nominal
damages did not allow protesters to contest the prior
version of a speech ordinance in a city where they
never engaged in their protest activities and were
never prosecuted. Phelps-Roper v. City of Manchester,
697 F.3d 678, 684, 687 (8th Cir. 2012).
C. The Eleventh Circuit’s outlier view
holds that standalone nominal-damages
claims do not prevent mootness, even in
a challenge to past enforcement of a
policy against the plaintiff.
Eleventh Circuit law on nominal damages and
mootness has morphed. With each step, its position
becomes more extreme, and it closes the door on more
plaintiffs seeking to vindicate their constitutional
rights. This Court should use this case to realign not
only the Eleventh, but all the courts of appeal.
Just a few years ago, the Eleventh Circuit followed
the prevailing view. In Carver Middle School GayStraight Alliance v. School Board of Lake County, 842
F.3d 1324 (11th Cir. 2016), after a middle school
denied a student’s request to form an LGBT group,
the student and group sued seeking equitable relief
and nominal damages. Id. at 1328, 1330. When the
student left the school, his equitable claims became
moot, but his “demands for nominal damages” did not.
Id. at 1330. Accord Covenant Christian Ministries,
Inc. v. City of Marietta, 654 F.3d 1231, 1244 (11th Cir.
2011) (though injunctive relief was moot, case was not
because plaintiffs requested nominal damages).

21
The year after, the en banc Eleventh Circuit in
Flanigan’s drastically shifted the circuit’s default
rule. There, businesses challenged an ordinance
prohibiting the sale of sexual devices, before the law
was enforced against them. Flanigan’s, 868 F.3d at
1253 (en banc). After an Eleventh Circuit panel ruled
for the city, the court granted en banc review, putting
the city on the defensive and prompting it to repeal
the ordinance. Id. at 1254. The city then argued the
case was moot, and the court agreed. Id. at 1253–54.
After concluding that the plaintiffs’ requests for
equitable relief were moot, id. at 1255–63, the court
held that their nominal-damages claim was of no
effect, id. at 1263–70. No longer a well-accepted
remedy that preserves justiciability when government defendants change contested laws or policies, “a
prayer for nominal damages will not save [such a]
case from dismissal,” the Eleventh Circuit held. Id. at
1264. The Eleventh Circuit admitted that “the circuit
courts that have reached this issue have taken a position contrary to” what Flanigan’s announced, id. at
1267 n.19, citing cases from five circuits to show the
conflict, id. at 1265 n.17.
Judge Wilson penned a five-judge dissent. Id. at
1271–75. He began by citing case law from seven
circuits whose views contradicted the majority’s new
rule. Id. at 1271. He then explained that the majority’s holding conflicts with this Court’s precedent, id.
at 1272–73; is “unworkable” in that it undermines the
purpose of nominal damages, id. at 1272–74; and
ignores the “practical effect” that nominal damages
have “on the parties’ rights [and] obligations,” id. at
1274–75. “Under the majority opinion,” “the government gets one free pass at violating your constitutional rights.” Id. at 1275.

22
Any hope that the Eleventh Circuit would quickly
cabin or correct Flanigan’s vanished here. While the
government defendants in Flanigan’s never enforced
the law against the plaintiffs, Respondents have twice
enforced the challenged policies against Chike. Had
the Eleventh Circuit held that Chike’s and Joseph’s
nominal-damages claims preserve their challenge to
Respondents’ past enforcement of the policies, the
court could have at least aligned itself with the
Fourth and Eighth Circuits. It could have limited
Flanigan’s rule to cases in which government defendants have never enforced the challenged law or policy
against the plaintiffs. Instead, the Eleventh Circuit
adopted an extreme position that leaves no judicial
forum for many plaintiffs, such as the college students
here, who have suffered an actual violation of their
constitutional rights.
In sum, the Eleventh Circuit is the lone outlier in
a deep, three-way circuit conflict over an important
issue about access to justice. In eight circuits, Chike’s
and Joseph’s nominal-damages claims would have
kept this case alive. Only the Eleventh Circuit maintains a position that allows government officials to
evade accountability for their misconduct and closes
federal courts to many citizens who seek to vindicate
their priceless constitutional rights. This Court
should grant review and resolve the circuit conflict.
II.

The Eleventh Circuit’s ruling conflicts with
this Court’s precedent on nominal damages.

For over four decades, this Court has affirmed the
importance, role, and effect of nominal damages. The
Eleventh Circuit has sidestepped and diminished
these rulings. Because that court’s position conflicts
with this Court’s precedent, review is needed.

23
A. Unlike the Eleventh Circuit, this Court
has ruled that nominal damages have
significant practical effects.
Courts have long recognized the importance of
awarding nominal damages for the violation of
private legal rights. E.g., Robinson v. Lord Byron, 2
Cox 4, 30 Eng. Rep. 3, 3 (1788) (awarding nominal
damages where plaintiff provided invasion of riparian
rights but did not offer proof of damages); Webb v.
Portland Mfg., 29 F. Cas. 506, 508 (Story, Circuit
Justice, C.C.D. Me. 1838) (No. 17,322) (if there has
been a violation of a right, “the party injured is entitled to maintain his action for nominal damages, in
vindication of his right, if no other damages are fit
and proper to remunerate him.”); 1 J.G. SUTHERLAND,
A TREATISE ON THE LAW OF DAMAGES §§ 9–10 (John R.
Berryman ed., 4th ed. 1916) (collecting hundreds of
cases awarding nominal damages in response to a
violation of rights).
Thus, in Carey v. Piphus, 435 U.S. 247 (1978), this
Court held that plaintiff students pursuing a § 1983
action after a school suspension could pursue a
nominal-damages claim for the deprivation of their
constitutional rights “[e]ven if [the] suspensions were
justified, and even if [plaintiffs] did not suffer any
other actual injury.” Id. at 266–67. “By making the
deprivation of [absolute] rights actionable for nominal
damages without proof of actual injury, the law recognizes the importance to organized society that those
rights be scrupulously observed.” Id. at 266. Later,
the Court held that the same reasoning applies to
other individual constitutional rights, including those
in the First Amendment. E.g., Memphis Cmty. Sch.
Dist. v. Stachura, 477 U.S. 299, 305–08 & n.11 (1986)
(free speech).

24
So when the Eleventh Circuit held that the “right
to a single dollar in nominal damages is not the type
of ‘practical effect’ that should, standing alone,” keep
a case from becoming moot, Flanigan’s, 868 F.3d at
1270 (en banc), the dissent said this conclusion was
“difficult, if not impossible, to square with” Farrar v.
Hobby, 506 U.S. 103 (1992), Flanigan’s, 868 F.3d at
1274 n.4 (Wilson, J., dissenting). In Farrar, a jury
found that a government official violated a citizen’s
rights but awarded him no relief. 506 U.S. at 106–07.
The Fifth Circuit remanded for entry of a nominaldamages award. Id. at 107. After the district court did
that and granted attorney fees to plaintiffs, the Fifth
Circuit held that the plaintiffs did not prevail because
“the jury gave them nothing. No money damages. No
declaratory relief. No injunctive relief.” Ibid. In its
view, the “nominal award of one dollar . . . did not in
any meaningful sense change the legal relationship”
between the parties. Ibid. It was too “technical” and
“insignificant” a victory “to support prevailing party
status.” Id. at 108.
This Court reversed, holding that “a plaintiff who
wins nominal damages is a prevailing party.” Id. at
112. That is, such a plaintiff obtains “actual relief on
the merits of his claim materially alter[ing] the legal
relationship between the parties by modifying the defendant’s behavior in a way that directly benefits the
plaintiff.” Id. at 111–12. “A judgment for damages in
any amount, whether compensatory or nominal, modifies the defendant’s behavior for the plaintiff’s benefit
by forcing the defendant to pay an amount of money he
otherwise would not pay.” Id. at 113 (emphasis
added). Unlike the Eleventh Circuit, this Court recognized the importance—and deterrent effect—of judgments awarding nominal damages.

25
The Eleventh Circuit would have resolved Farrar
the opposite way. After the jury verdict, the Eleventh
Circuit would have mooted the case because only
nominal damages remained. Yet the Fifth Circuit and
this Court exercised jurisdiction over the standalone
nominal-damages claim in Farrar. Likewise, the
Eleventh Circuit would have withheld prevailingparty status because nominal damages have no “practical effect.” Flanigan’s, 868 F.3d at 1269–70 (en
banc). But this Court conferred that status because
nominal damages have the practical effect of
“modif[ying] the defendant’s behavior for the plaintiff’s benefit by forcing the defendant to pay” and—as
in Carey—upholding the “scrupulous[ ]” observance
of constitutional rights so “importan[t] to organized
society.” Farrar, 506 U.S. at 112–13.
Citing Flanigan’s, the Eleventh Circuit here
denied that a nominal-damages award would have “a
practical effect on” Chike’s or Joseph’s “rights or obligations.” App.19–21a. But as Farrar recognized,
nominal damages would have modified Respondents’
behavior by forcing them to pay money to the
students. 506 U.S. at 113. And a nominal-damages
award—with its accompanying judgment holding that
Respondents violated Chike’s and Joseph’s First
Amendment rights—would prevent Respondents
from “reenacting” the policies and enforcing them as
they did here. Flanigan’s, 868 F.3d at 1275 (Wilson,
J., dissenting). “That is a practical effect on [Respondents’] obligations sufficient to save the case from
mootness,” ibid., one that flows from a formal recognition that the College wronged Chike and Joseph.
Nominal-damages claims are critical to protect
constitutional freedoms and to confer prevailingparty status. They must be justiciable.

26
B. Unlike the Eleventh Circuit, this Court
has ruled that nominal-damages claims
vindicate priceless freedoms.
This Court has recognized that under both the
common law and our constitutional traditions, nominal damages ensure that government officials respect
priceless freedoms, even when their violation does not
inflict financial injury. In stark contrast, the Eleventh
Circuit sees no value in nominal-damages claims,
rending those claims worthless.
When the students in Carey challenged the lack of
due process their school provided them before imposing discipline, this Court confirmed that “[c]ommonlaw courts traditionally have vindicated deprivations
of certain ‘absolute’ rights,” including constitutional
rights, “through the award of a nominal sum of
money.” Carey, 435 U.S. at 266 & n.24.
Nearly ten years later, in another school case, this
Court reiterated that while compensatory damages
require “proof of actual injury,” “nominal damages . . .
are the appropriate means of ‘vindicating’ [constitutional] rights whose deprivation has not caused
actual, provable injury.” Stachura, 477 U.S. at 308 &
n.11. Awarding nominal damages when a plaintiff
suffers no monetary loss is essential to “recognize[ ]
the importance to organized society that those rights
be scrupulously observed.” Id. at 308 n.11.
The Eleventh Circuit tries to sidestep these cases
by saying they involved “a live claim for actual
damages,” Flanigan’s, 868 F.3d at 1265–66 & n.18—
as though actual damages are a necessary predicate
to make constitutional freedoms meaningful. But that
reading does not square with what this Court said in
Carey and Stachura. While the plaintiffs in those

27
cases did seek compensatory damages with nominal
damages, nowhere in the opinions did this Court even
hint that nominal damages remained live only
because compensatory claims were also sought. To the
contrary, this Court instructed in Carey that “if, upon
remand, the District Court determines that [the
plaintiffs’] suspensions were justified, [they] nevertheless will be entitled to recover nominal damages”
even if they fail to prove their compensatory damages.
435 U.S. at 267. Accord Farrar, 506 U.S. at 105.
The Eleventh Circuit’s novel approach also invites
“jurisdictional manipulation.” Flanigan’s, 868 F.3d at
1272 (Wilson, J., dissenting). If the Carey plaintiffs
could not prove compensatory damages, they could
have pled them anyway to bootstrap their nominaldamages claim. Or if a plaintiff seeks injunctive relief
and nominal damages against a government defendant, the government can escape liability simply by
changing an unconstitutional policy.
The Eleventh Circuit’s rule also creates unjustifiable inconsistencies. A student who suffers a constitutional violation but cannot in good faith allege any
compensable loss could not litigate a nominaldamages claim. But a student who endures the same
constitutional violation may raise a nominal-damages
claim if he experienced any economic injury, no
matter how trifling.
So if a university violates the free-speech rights of
two similarly-situated students by unconstitutionally
forcing them into a speech zone, the one who paid a
few dollars in gas to drive to the zone can seek vindication through a court judgment while the one who
walked to the zone cannot. Cf. United States v.
Students Challenging Regulatory Agency Procedures,

28
412 U.S. 669, 689 n.14 (1973) (“[A]n identifiable
trifle,” such as a $1.50 tax or $5.00 fine, “is enough for
standing to fight out a question of principle”).
The Eleventh Circuit suggests that a standalone
request for nominal damages cannot preserve justiciability because nominal damages are so small. Flanigan’s, 868 F.3d at 1270. But this Court has held that
even when plaintiffs’ claims for injunctive relief are
moot, their right to recover a “minute” amount of
compensatory damages keeps the case alive. Ellis v.
Bhd. of Ry., Airline & S.S. Clerks, Freight Handlers,
Express & Station Emps., 466 U.S. 435, 442 (1984).
Courts should treat a nominal-damages award no
differently. Indeed, the priceless constitutional freedoms at issue here are far more valuable than the
“undeniably minute” dollar damages that the plaintiffs recovered in Ellis. Ibid.
III. This case is an ideal vehicle to address the
relationship between nominal damages
and mootness, an issue with serious ramifications for students and other civil rights
plaintiffs.
This case is an excellent vehicle to decide whether
a standalone nominal-damages claim keeps a case
alive after later events moot a plaintiff’s request for
prospective equitable relief. Six factors highlight this.

29
First, the record cleanly frames the question
presented. The facts are not disputed because the
district court ruled on a motion to dismiss. All the
facts in the complaint must be accepted as true, and
those facts state a claim for constitutional violations.
United States’ Statement of Interest at 9, No. 1:16-cv04658, Sept. 26, 2017, ECF No. 37 (“[T]he United
States is satisfied . . . that Plaintiffs have stated
claims for violations of the First and Fourteenth
Amendments.”); App.162a. No one disputes that
Chike and Joseph seek nominal damages. App.15a;
App.133a. And they have not appealed the ruling that
their request for prospective equitable relief is moot.
Nor are Chike and Joseph contesting the lower court’s
determination that they did not request compensatory damages. The only question is clean and purely
legal: Are standalone nominal-damages claims moot?
Second, a lawsuit against a college’s policy abridging free speech is an ideal context to consider the
mootness of nominal-damages claims. Student plaintiffs are particularly vulnerable under the Eleventh
Circuit’s rule. Their claims for prospective equitable
relief are highly susceptible to mootness because students graduate and colleges often change offending
policies when sued. Nor are students likely to suffer
compensable harm from speech-suppressing policies,
so they must rely on nominal-damages claims. If
standalone nominal-damages claims cannot keep a
case like this alive, students will be all too often left
with no way to challenge violations of their First
Amendment rights on campus. That will lead to fewer
suits and more frequent constitutional violations.
Allowing standalone nominal-damages claims is the
only way to ensure that constitutional rights are
“scrupulously observed.” Carey, 435 U.S. at 266.

30
Third, the College officials’ actual enforcement of
the challenged policies against these students makes
this case an especially suitable vehicle. The ordinance
in Flanigan’s was never enforced, and the Fourth and
Eighth Circuits agree that nominal-damages do not
preserve justiciability under those circumstances. But
no circuit—save the Eleventh Circuit here—has held
that nominal-damages claims are moot even when
government defendants have already enforced a
contested law or policy against the plaintiff. The need
for nominal-damages claims is obvious in that context
because, without them, government defendants can
insulate already-completed constitutional violations
from judicial review. Facing this harsh consequence
head on is the best way to explore nominal damages’
crucial role in preserving justiciability.
Fourth, the facts involving Chike and Joseph are
different, which expands the options for deciding this
case and the guidance afforded lower courts. College
officials silenced Chike by enforcing their speech
policies against him; their actions chilled Joseph’s
speech. Addressing the nominal-damages claims of
both students—and their slightly different circumstances—will broaden the counsel that this Court gives
lower courts, making this a choice vehicle for review.
Fifth, the issue presented is not one where the
Court will benefit from further percolation. The en
banc Eleventh Circuit in Flanigan’s already chose to
set itself apart from other circuits, acknowledging
that it was creating a circuit conflict in so doing. By
denying en banc review here, the Eleventh Circuit
ensured that its nominal-damages approach would
not only remain in the minority, but would stand
apart even from the Fourth and the Eighth Circuits.

31
Last, this Court should act to prevent the Eleventh
Circuit’s rule from spreading. If students sue for
constitutional violations, officials can quickly tweak
their policies, mooting both prospective relief and
retrospective nominal damages. As a result, the law
is never clarified, and the cycle can repeat itself, both
on that campus and others. Should something interrupt this cycle, officials can still say the law was never
clear, giving them enough plausible deniability to
invoke qualified immunity. Immediate review is
needed.
CONCLUSION
The petition for a writ of certiorari should be
granted.
Respectfully submitted,
KRISTEN K. WAGGONER
JOHN J. BURSCH
Counsel of Record
TYSON C. LANGHOFER
ALLIANCE DEFENDING FREEDOM
440 First Street, N.W., Ste. 600
Washington, D.C. 20001
(616) 450–4235
jbursch@ADFlegal.org
DAVID A. CORTMAN
TRAVIS C. BARHAM
ALLIANCE DEFENDING FREEDOM
1000 Hurricane Shoals Rd. N.E.,
Ste. D-1100
Lawrenceville, GA 30043
(770) 339–0774
JANUARY 2020

Counsel for Petitioners

APPENDIX

ia
APPENDIX TABLE OF CONTENTS
United States Court of Appeals for the
Eleventh Circuit,
Opinion in 18-12676
Issued July 1, 2019 .................................................. 1a
United States District Court for the
Northern District of Georgia,
Judgment in 1:16-cv-04658
Issued May 25, 2018 .............................................. 20a
United States District Court for the
Northern District of Georgia,
Order Granting Motions to Dismiss
in 1:16-cv-04658
Issued May 25, 2018 .............................................. 22a
United States Court of Appeals for the
Eleventh Circuit,
Order Denying Petition for Rehearing En Banc
in 18-12676
Issued September 4, 2019 ...................................... 47a
United States Court of Appeals for the
Eleventh Circuit,
Order Denying Initial Hearing En Banc
in 18-12676
Issued February 21, 2019 ...................................... 50a
United States Court of Appeals for the
Eleventh Circuit,
Mandate in 18-12676
Issued September 12, 2019 .................................... 53a
U.S. Constitutional Provisions .............................. 55a

iia
United States District Court for the
Northern District of Georgia,
First Amended Verified Complaint
in 1:16-cv-04658
Filed February 15, 2017 ......................................... 56a
Excerpts from Georgia Gwinnett College’s
“At a Glance” Website, Containing the
College’s Speech Zone Policies
Filed as an Exhibit to the First Amended
Complaint on February 15, 2017 ......................... 137a
Georgia Gwinnett College’s
“Free Speech Area Request Form”
Filed as an Exhibit to the First Amended
Complaint on February 15, 2017 ......................... 142a
Excerpts from Georgia Gwinnett College’s
2016–2017 Student Handbook, Containing the
College’s Speech Zone and Speech Code Policies
Filed as an Exhibit to the First Amended
Complaint on February 15, 2017 ......................... 145a
Excerpts from Defendants’ Memorandum of Law
in Support of Motion to Dismiss
Filed in 1:16-cv-04658 on February 1, 2017........ 152a
Excerpts from U.S. District Court Docket
Northern District of Georgia
Case No. 1:16-cv-04658 ........................................ 157a

1a
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
______________
No. 18-12676
______________
D.C. Docket No. 1:16-cv-04658-ELR
CHIKE UZUEGBUNAM,
JOSEPH BRADFORD,
Plaintiffs–Appellants,
versus
STANLEY C. PRECZEWSKI,
President of Georgia Gwinnett College, in
his official and individual capacities,
LOIS C. RICHARDSON,
Acting Senior Vice President of Academic
and Student Affairs and Provost at Georgia
Gwinnett College, in her official and
individual capacities,
JIM B. FATZINGER,
Senior Associate Provost for Student Affairs
for Georgia Gwinnett College, in his official
and individual capacities,
TOMAS JIMINEZ,
Dean of Students at Georgia Gwinnett
College, in his official and individual
capacities,
AILEEN C. DOWELL,
Director of the Office of Student Integrity at
Georgia Gwinnett College, in her official
and individual capacities,

2a
GENE RUFFIN,
Dean of Library Services at Georgia
Gwinnett College, in his official and
individual capacities,
CATHERINE JANNICK DOWNEY,
Head of Access Services and Information
Commons, in her official and individual
capacities,
TERRANCE SCHNEIDER,
Associate Vice President of Public Safety
and Emergency Preparedness/Chief of
Police at Georgia Gwinnett College, in his
official and individual capacities,
COREY HUGHES,
Campus Police Lieutenant at Georgia
Gwinnett College, in his official and
individual capacities,
REBECCA A. LAWLER,
Community Outreach and Crime
Prevention Sergeant at Georgia Gwinnett
College, in her official and individual
capacities,
SHENNA PERRY, Campus Safety/Security
Officer at Georgia Gwinnett College, in her
official and individual capacities,
Defendants–Appellees.
__________________________________________
Appeal from the United States District Court
for the Northern District of Georgia
__________________________________________
(July 1, 2019)
Before MARCUS and BLACK, Circuit Judges, and

3a
RESTANI,* Judge.
PER CURIAM:
Appellants Chike Uzuegbunam and Joseph
Bradford, both students at Georgia Gwinnett College
(GGC) at the time they filed this lawsuit, sued multiple GGC officials, pursuant to 42 U.S.C. § 1983, asserting facial and as-applied challenges to the constitutionality of two policies included in GGC’s Student
Handbook: the “Freedom of Expression Policy” and
the “Student Code of Conduct” (the Prior Policies).
While the case was pending before the district court,
GGC revised both policies and Uzuegbunam graduated, rendering the claims for declaratory and injunctive relief moot. The district court dismissed the case
as moot, concluding Appellants’ claims for nominal
damages could not save their otherwise moot constitutional challenges to the Prior Policies. After review,
and with the benefit of oral argument, we affirm.
I. BACKGROUND
A. Factual Allegations in the First Amended
Complaint
In July 2016, Uzuegbunam began distributing religious literature in an open, outdoor plaza on GGC’s
campus. Shortly after he began these activities, he
was stopped by a member of Campus Police who explained Uzuegbunam was not allowed to distribute
religious literature (or any literature) at that location,
in accordance with GGC’s “Freedom of Expression
Policy.” Specifically, the policy stated students were
generally permitted to engage in expressive activities
Honorable Jane A. Restani, Judge for the United States
Court of International Trade, sitting by designation.
*

4a
only in two designated speech zones and often only after reserving them.
Some time later, Uzuegbunam reserved one of the
designated speech zones in order to distribute religious literature and speak to students about his religious beliefs. However, soon after Uzuegbunam began
speaking, a member of Campus Police approached
him and asked him to stop, explaining they had received “some calls” complaining about his speech. The
officer informed Uzuegbunam he had only reserved
the speech zone for certain specific purposes, not including “open-air speaking,” and that he was in
violation of GGC’s “Student Code of Conduct” because
his speech constituted “disorderly conduct.”
Given the warnings from GGC Campus Police and
the threat of disciplinary action, Uzuegbunam elected
to stop speaking entirely and leave the designated
speech zone. After this incident, neither Uzuegbunam
nor Bradford—another GGC student who shares
Uzuegbunam’s religious beliefs and desire to speak
publicly concerning those beliefs—have attempted to
speak publicly or distribute literature in any open,
outdoor, generally accessible areas of the GGC campus outside the two speech zones, nor have they engaged in any “open-air speaking” or other expressive
activities in the speech zones.
B. Requests for Relief in the First Amended
Complaint
In the section of the complaint entitled “Prayer for
Relief,” Appellants requested: (1) a declaratory judgment that the Speech Zone and Speech Code Policies,
facially and as-applied, violated their First and Fourteenth Amendment rights; (2) a declaratory judgment

5a
that Appellees’ restriction of their literature distribution violated their First and Fourteenth Amendment
rights; (3) a declaratory judgment that Appellees’ restriction of their open-air speaking violated their First
and Fourteenth Amendment rights; (4) a preliminary
and permanent injunction prohibiting Appellees from
enforcing the challenged policies; (5) nominal damages;
(6) reasonable costs and attorneys’ fees; and (7) “[a]ll
other further relief to which [they] may be entitled.”
Additionally, at the end of each of the four sections
describing the individual causes of action, Appellants
asserted “they [were] entitled to an award of monetary damages and equitable relief.” They also stated
they were “entitled to damages in an amount to be determined by the evidence and this Court.”
C. The Motions to Dismiss
Appellees filed a motion, pursuant to Fed. R. Civ.
P. 12(b)(6), to dismiss the First Amended Complaint
for failure to state a claim. While that motion was
pending, GGC revised its “Freedom of Expression Policy” such that students would be permitted to speak
anywhere on campus without having to obtain a permit except in certain limited circumstances. GGC also
removed the challenged portion of its “Student Code
of Conduct.” Both revised policies superseded the
Prior Policies and have been in full force and effect
since February 28, 2017.
As a result of these changes to the Prior Policies,
Appellees filed a motion to dismiss the First Amended
Complaint as moot. Approximately one year later, the
district court having taken no action on the pending
motions, Appellees filed a supplemental brief on the issue of mootness. Specifically, Appellees apprised the
district court of two significant developments: (1)

6a
Uzuegbunam’s graduation from GGC; and (2) this
Court’s decision in Flanigan’s Enterprises, Inc. of Georgia v. City of Sandy Springs, 868 F.3d 1248 (11th Cir.
2017) (en banc), in which we held a prayer for nominal
damages generally will not save an otherwise moot
challenge to an allegedly unconstitutional policy or law.
In their response to Appellees’ supplemental brief,
Appellants insisted that, even assuming their claims
for declaratory and injunctive relief were moot, a live
controversy remained ongoing, in part because the
First Amended Complaint, properly construed in
their favor, in fact included a request for compensatory damages. At the end of their response, they indicated that, if the district court disagreed, they should
be permitted to amend their complaint to “clarify[]”
their request for damages. Such a clarification, they
assured the court, “would be simple, would pose no
prejudice, and would allow this dispute to be decided
on the merits, rather than technicalities.”
D. The District Court’s Order
The district court granted both of Appellees’ motions to dismiss, though it based its decision entirely
on mootness and did not address whether the First
Amended Complaint otherwise stated a claim on
which relief could be granted. The court concluded
Uzuegbunam’s graduation had mooted his claims for
declaratory and injunctive relief, and GGC’s revised
policies mooted Bradford’s claims. Specifically, the
court concluded GGC had “unambiguously terminated the Prior Policies and there is no reasonable basis to expect that it will return to them.”1
The district court engaged in a lengthy analysis concerning
whether GGC’s change in its policies in fact rendered Bradford’s
1

7a
The court then turned to whether the remaining
damages claim was “sufficient to support standing and
save this case.” The court ultimately concluded Appellants sought only nominal damages, rejecting what it
characterized as their “after-the-fact contentions” that
they in fact sought compensatory damages. Applying
Flanigan’s, the district court then concluded such a
claim for nominal damages could not save the otherwise moot complaint, rejecting Appellants’ contentions
that their case was distinguishable from Flanigan’s or
fell within any of the exceptions discussed in, or contemplated by, our opinion in that case.
Finally, the court denied Appellants’ request for
leave to amend their complaint on the ground it was
not procedurally proper to seek leave to amend
through a response to a motion to dismiss. The court
agreed to dismiss the claims without prejudice, but it
declined to “go as far as to direct the [Appellants] to
file a motion for leave to amend,” noting it was “up to
[Appellants] to decide how to litigate their case.”
On the same day the district court entered its order, the clerk entered judgment in favor of Appellees,
dismissing the action without prejudice. The instant
appeal followed.
II. DISCUSSION
We review the dismissal of a case for mootness de
claims for declaratory and injunctive relief moot, applying the
three-part test this Court identified in Flanigan’s. Appellants do
not challenge this portion of the district court’s analysis on appeal. That is, they do not contest the district court’s conclusion
that their claims for injunctive and declaratory relief are moot.
As such, we will not address this portion of the district court’s
analysis here.

8a
novo. Flanigan’s, 868 F.3d at 1255. Appellants raise
three issues on appeal concerning the district court’s
dismissal of the First Amended Complaint. First, they
argue the district court erred in concluding the First
Amended Complaint did not include a request for
compensatory damages. Second, they argue that,
even assuming the First Amended Complaint included only a request for nominal damages, this case
is distinguishable from Flanigan’s and dismissal was
not required. Finally, they argue we should reverse
the district court’s dismissal on the ground it abused
its discretion when it denied them the opportunity to
amend their complaint to add an explicit request for
compensatory damages.2 We will address each argument in turn.
A. Damages Allegations in the First Amended
Complaint
Appellants assert the district court erred in concluding their amended complaint did not request compensatory damages because the court (1) construed
the complaint against them, and (2) focused solely on
the prayer for relief, rather than considering the complaint as a whole.
As Appellants note, at the motion to dismiss stage,
the district court was required to “accept[] the complaint’s allegations as true and constru[e] them in the
2 Appellants also argue extensively that Flanigan’s was
wrongly decided. However, “[u]nder the prior precedent rule, we
are bound to follow a prior binding precedent ‘unless and until it
is overruled by this Court en banc or by the Supreme Court.’”
United States v. Vega-Castillo, 540 F.3d 1235, 1236 (11th Cir.
2008) (quoting United States v. Brown, 342 F.3d 1245, 1246
(11th Cir. 2003)). Accordingly, we limit our review to whether
the district court properly applied Flanigan’s when it dismissed
the First Amended Complaint as moot.

9a
light most favorable to [Appellants].” Chaparro v. Carnival Corp., 693 F.3d 1333, 1335 (11th Cir. 2012) (internal quotation marks omitted). They contend the
district court failed to do so when it construed the allegations that they were entitled to “monetary damages” and “damages in an amount to be determined by
the evidence and this Court” against them by concluding those phrases referred solely to nominal damages.
The district court did, as Appellants note, acknowledge the somewhat ambiguous nature of the term
“monetary damages” and of Appellants’ requests for
“damages in an amount to be determined by the evidence and this Court” and “[a]ll other further relief to
which [they] may be entitled.” But the court did not
then, as Appellants contend, arbitrarily construe
those admittedly ambiguous phrases against them.
Instead, it viewed the allegations in the context of the
rest of the complaint and concluded Appellants could
not have been requesting compensatory damages. We
agree with that assessment.
In particular, the district court looked to the
prayer for relief—which requested only nominal damages in addition to injunctive and declaratory relief—
and to the factual allegations in the complaint. As to
the latter, the court correctly noted that “compensatory damages in a § 1983 suit [must] be based on actual injury caused by the defendant rather than on
the ‘abstract value’ of the constitutional rights that
may have been violated.” Slicker v. Jackson, 215 F.3d
1225, 1230 (11th Cir. 2000). Such “actual injury” can
include monetary loss, physical pain and suffering,
mental and emotional distress, impairment of reputation, and personal humiliation. Id. at 1231.

10a
But Appellants did not allege they suffered any actual injury, instead resting their complaint—and request for damages—on the abstract injury suffered as
the result of the violation of their constitutional rights.
In fact, the First Amended Complaint mentions “injury” only twice, and in neither instance does it specify
what the injury was. It also states, at the conclusion
of each cause of action, that Appellants “suffered, and
continue to suffer, irreparable harm,” though, again,
without specifying what that harm was.
On appeal, Appellants insist, largely through oral
argument, that Uzuegbunam, at least, suffered any
number of concrete injuries as a result of Appellees’
enforcement of the Prior Policies, including loss of
time and money traveling to GGC’s campus to speak,
as well as harm to his reputation and personal humiliation stemming from the actions taken by GGC officials to stop him from speaking. However, Appellants
never identified these injuries to the district court,
resting instead on their argument that the district
court should broadly construe their vague requests for
monetary damages as including unspecified compensatory damages, and they make only passing reference in their brief on appeal to the reputational harm
suffered by Uzuegbunam. As a result, these arguments are not properly before us, as they were not
raised in the district court or, indeed, properly briefed
on appeal. See Hurley v. Moore, 233 F.3d 1295, 1297
(11th Cir. 2000) (“Arguments raised for the first time
on appeal are not properly before this Court.”). Because these injuries were not specifically pled in the
complaint or articulated to the district court, we cannot fault the court for failing to infer these injuries
from the other allegations in the complaint.
Thus, this is not a case in which the court took

11a
phrases susceptible to more than one interpretation—
e.g., “monetary damages”—and construed them
against Appellants. Rather, the district court simply
read those phrases in context and concluded they
could have only one meaning: nominal damages.
Appellants further assert the district court erroneously focused “solely on the prayer for relief” in concluding the First Amended Complaint did not include
a well-pled request for compensatory damages. They
claim this was inconsistent with Fed. R. Civ. P. 54(c),
which states federal courts “should grant the relief to
which each party is entitled, even if the party has not
demanded that relief in its pleadings.”
The Supreme Court has instructed federal courts
not to “dismiss a meritorious constitutional claim because the complaint seeks one remedy rather than another plainly appropriate one.” Holt Civic Club v. City
of Tuscaloosa, 439 U.S. 60, 65 (1978). It has further
reminded those courts that “although the prayer for
relief may be looked to for illumination when there is
doubt as to the substantive theory under which a
plaintiff is proceeding, its omissions are not in and of
themselves a barrier to redress of a meritorious
claim.” Id. at 66.
Here, contrary to Appellants’ assertions, the district court did not “solely” look to the prayer for relief.
Instead, it did what Holt expressly permits: it “looked
to [the prayer for relief] for illumination” because Appellants’ other vague requests for “monetary” and
other appropriate damages created “doubt as to the
substantive theory under which [they were] proceeding.” Id. There was no other “plainly appropriate”
remedy available here beyond the injunctive relief
and nominal damages Appellants expressly requested

12a
because, as previously discussed, the allegations in
the complaint simply did not support a claim for compensatory damages.
B. Applying Flanigan’s
Appellants further argue that, even assuming the
First Amended Complaint cannot be read to include
an implicit request for compensatory damages, their
nominal damages claim presents an ongoing case or
controversy notwithstanding our decision in Flanigan’s. They argue the district court ignored portions
of Flanigan’s suggesting not all claims for nominal
damages are necessarily moot.
Briefly, Flanigan’s involved a challenge to a municipal ordinance that prohibited the sale of sexual
devices. 868 F.3d at 1253-54. The plaintiffs alleged
the ordinance violated their rights under the Fourteenth Amendment. Id. Though the challenged
ordinance was never actually enforced against any of
the plaintiffs, they nonetheless preemptively challenged the constitutionality of the ordinance, seeking
injunctive and declaratory relief and asking the district court to strike down the ordinance as unconstitutional and permanently enjoin its enforcement. Id.
at 1254. Two of the plaintiffs also sought an award of
nominal damages but did not seek compensatory
damages. Id. at 1254, 1265. While the case was pending before this Court, the city repealed the challenged
ordinance, mooting the claims for declaratory and injunctive relief and leaving nominal damages as the
only requested relief. Id. at 1254, 1263.
Turning to “whether a prayer for nominal damages . . . is sufficient to save [an] otherwise moot constitutional challenge,” we first acknowledged there
were certain cases in which a claim solely for nominal

13a
damages would present a live case or controversy:
To be sure, there are cases in which a judgment
in favor of a plaintiff requesting only nominal
damages would have a practical effect on the
parties’ rights or obligations. Likewise, there
are situations in which nominal damages will
be the only appropriate remedy to be awarded
to a victorious plaintiff in a live case or controversy. In such circumstances, the exercise of jurisdiction is plainly proper.
Id. at 1263-64 (footnotes omitted). We juxtaposed
those cases with those in which an award of nominal
damages “would serve no purpose other than to affix
a judicial seal of approval to an outcome that has already been realized.” Id. at 1264. We concluded the
plaintiffs’ case fell decidedly in the latter category because they, in effect, had “already won” by “reciev[ing]
all the relief they requested.” Id.
We reiterated our holding “does not imply that a
case in which nominal damages are the only available
remedy is always or necessarily moot,” and we noted
that where a “court determines that a constitutional
violation occurred, but that no actual damages were
proven, it is within Article III powers to award nominal damages.” Id. at 1270 n.23. Notably, we limited our
discussion in this regard to cases in which both
compensatory and nominal damages were pled, but the
only available remedy was nominal damages. See id.
Appellants argue the district court ignored this apparent limitation on the core holding of Flanigan’s,
“brushing aside the portions of Flanigan’s that show
that nominal damages claims are not automatically
moot.” Specifically, Appellants take issue with the

14a
district court’s conclusions that there was no live controversy regarding compensatory damages and that
nominal damages would have no practical effect on
the parties’ rights or obligations. Appellants insist the
district court was wrong in both respects.
First, they insist a live dispute about compensatory damages remains ongoing as to Uzuegbunam’s
challenges to the “enforcement” of the policies against
him, noting that if the specific “conduct” of the GGC
officials were found to be illegal, Uzuegbunam “could
be entitled to compensatory damages.” This appears
to concern the “as-applied” portion of Uzuegbunam’s
challenge to the Prior Policies. However, as discussed
above, the First Amended Complaint did not include
a well-pled request for compensatory damages, in
part because it failed to allege any concrete injuries
arising from the allegedly unconstitutional conduct of
the GGC officials.
Second, Appellants argue that, in any case, awarding nominal damages here “would have a practical effect on the parties’ rights or obligations.” They identify two such “practical effects”: (1) “determin[ing] the
disputed boundary over how public colleges can restrict student expression”; and (2) answering the “important question” of whether “GGC officials violate[d]
Mr. Uzuegbunam’s rights when they censored him.”
The first of these is plainly at odds with Flanigan’s,
as any opinion we or the district court issued that did
little more than delineate the “boundar[ies]” around
public colleges’ regulation of student speech would
constitute exactly the sort of impermissible advisory
opinion Flanigan’s sought to avoid. See Flanigan’s,
868 F.3d at 1269-70.

15a
As to the second “practical effect” Appellants identify, they again focus on the allegedly unconstitutional actions GGC officials took in enforcing the policies, as distinct from the facial challenge to the policies themselves, asserting it would be appropriate for
a court to adjudicate whether and to what extent the
specific actions taken by GGC officials violated
Uzuegbunam’s constitutional rights. But under the
explicit exception in Flanigan’s implicated by Appellants’ argument, Appellants’ right to receive nominal
damages as the result of any unconstitutional conduct
on the part of GGC officials would have to flow from a
well-pled request for compensatory damages. The
cases we sought to distinguish from Flanigan’s—
cases in which a claim for nominal damages was adequate, on its own, to sustain an action—involved an
ongoing controversy regarding compensatory damages throughout the entire litigation. See id. at 126467 & n.18, 1270 n.23. In other words, they all involved
a well-pled complaint for compensatory damages,
though no actual damages were ultimately proven.
See id. at 1270 n.23 (“This Court has long recognized
that ‘[n]ominal damages are appropriate if a plaintiff
establishes a violation of a fundamental constitutional right, even if he cannot prove actual injury sufficient to entitle him to compensatory damages.’” (alteration in original) (emphasis added) (quoting KH
Outdoor, LLC v. City of Trussville, 465 F.3d 1256,
1260 (11th Cir. 2006))).
Here, in contrast, the only relief Appellants actually requested, other than declaratory and injunctive
relief, was nominal damages, and there has never
been any controversy over compensatory damages.
While Flanigan’s contemplates a class of cases in

16a
which a claim for nominal damages would be sufficient to maintain a case or controversy, this is not that
case, and we decline to carve out any new exception
here.3 Accordingly, we agree with the district court
that this case is “strikingly similar” to Flanigan’s and
apply our precedent to conclude Appellants’ claim for
nominal damages cannot save their otherwise moot
constitutional challenge to the Prior Policies.
C. Leave to Amend
Notwithstanding the above mootness analysis, Appellants insist that, even if we agree with the district
court’s application of Flanigan’s, we should reverse
the district court’s dismissal of their complaint on the
ground it improperly denied them the opportunity to
amend their complaint to add an explicit request for
compensatory damages. We review a district court’s
decision to deny leave to amend for abuse of discretion. See Santiago v. Wood, 904 F.2d 673, 675 (11th
Notably, Appellants do not explicitly request we carve out
any new exception here for cases involving an as-applied challenge to an allegedly unconstitutional law or policy that has been
enforced against a plaintiff, instead arguing their case falls
within the category of cases Flanigan’s explicitly distinguishes.
To the extent it would be appropriate for us to identify such an
exception, this is not the case to do so. The issue is not well-developed in the record below, as Appellants never presented the
district court with the argument that their case was distinguishable from Flanigan’s on the ground it involved an as-applied—
as opposed to solely a facial—challenge to the Prior Policies.
Moreover, in accordance with our description of Flanigan’s, their
argument to the district court that their case falls within the category of cases distinguished in Flanigan’s presumes their complaint included a well-pled request for compensatory damages,
insisting they could recover nominal damages whether or not
“they ultimately receive compensatory damages.”
3

17a
Cir. 1990).
On appeal, Appellants primarily take issue with
the district court’s assertion that it was not procedurally proper for them to seek leave to amend via a response to Appellees’ motion to dismiss. However, as
our precedent makes clear, the district court was
right to be concerned about the procedural mechanism by which Appellants sought to amend their
complaint. See, e.g., Cita Tr. Co. AG v. Fifth Third
Bank, 879 F.3d 1151, 1157 (11th Cir. 2018) (“[T]his
Court has clearly held that ‘[w]here a request for
leave to file an amended complaint simply is imbedded within an opposition memorandum, the issue has
not been raised properly.’” (second alteration in original) (quoting Rosenberg v. Gould, 554 F.3d 962, 967
(11th Cir. 2009))).
As they did in the district court, Appellants continue to focus on the simplicity of the proposed
amendment, noting it would have involved simply
“adding ‘compensatory and’ to the prayer for relief
and a paragraph describing [their] financial injuries.”
But even assuming the relative complexity of the proposed amendment would have any bearing on Appellants’ responsibility to seek amendment via a
properly filed motion, they failed to specifically inform
the district court of the substance of their proposed
amendment, other than to indicate they would “clarify” that they sought compensatory damages. See
Newton v. Duke Energy Fla., LLC, 895 F.3d 1270,
1277 (11th Cir. 2018) (“When moving the district
court for leave to amend its complaint, the plaintiff
must ‘set forth the substance of the proposed amendment or attach a copy of the proposed amendment’ to
its motion.” (quoting Cita Tr., 879 F.3d at 1157)).

18a
They did not, for example, specify what additional factual allegations they would have included to support
their request for compensatory damages.
To the extent that Appellants argue the district
court abused its discretion when it entered judgment
so soon after issuing its order dismissing the First
Amended Complaint as moot, we find such an argument unavailing. Appellants contend they were deprived of the ability to file a procedurally proper motion to amend “[a]fter the district court entered judgment immediately.” But even assuming they were
precluded from proceeding under Rule 15, see Jacobs
v. Tempur-Pedic Int’l, Inc., 626 F.3d 1327, 1344 (11th
Cir. 2010) (noting that Fed. R. Civ. P. 15(a)(2)
“governs amendment of pleadings before judgment is
entered; it has no application after judgment is entered”), Appellants could still have moved under Rule
60(b) or 59(e) on the ground they could rectify the
pleading issues in the First Amendment Complaint
through further proposed amendments. Czeremcha v.
Int’l Ass’n of Machinists & Aerospace Workers, AFLCIO, 724 F.2d 1552, 1556 (11th Cir. 1984).
[A]fter a complaint is dismissed the right to
amend under Rule 15(a) terminates; the plaintiff, however, may still move the court for leave
to amend, and such amendments should be
granted liberally. The plaintiff may also move
for relief under Rules 59(e) or 60(b) on the basis
of proposed amendments even after the action
is dismissed and final judgment is entered.
Id. (footnotes and citation omitted). The district court
never acted to prevent Appellants from seeking leave
to amend following its dismissal of the First Amended
Complaint without prejudice, expressly leaving that

19a
decision in the hands of Appellants. Accordingly, we
can discern no abuse of discretion by the district court
in its handing of Appellants’ request to amend—a request they only expressed in response to a motion to
dismiss.
III. CONCLUSION
For the reasons discussed above, we affirm the district court’s dismissal of the First Amended Complaint as moot.
AFFIRMED.

20a
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION
CHIKE UZUEGBUNAM and
JOSEPH BRADFORD,
Plaintiffs,

CIVIL ACTION
FILE

STANLEY C. PRECZEWSKI,
President of Georgia
Gwinnett College, in his
official and individual
capacities, et al.,

NO. 1:6-CV-04658ELR

v.

Defendants.
JUDGMENT
This action having come before the Court, Honorable Eleanor L. Ross, United States District Judge,
and the Court having granted Defendants’ [18] Motion to Dismiss and [21] Motion to Dismiss for Mootness, it is hereby
ORDERED AND ADJUDGED that this action
be DISMISSED WITHOUT PREJUDICE.
Dated at Atlanta, Georgia this 25th day of May, 2018.
JAMES N. HATTEN
CLERK OF COURT
By: s/ Charlotte Diggs
Deputy Clerk

21a
Prepared, Filed and Entered
In the Clerk’s Office
May 25, 2018
James N. Hatten
Clerk of Court
By: s/ Charlotte Diggs
Deputy Clerk

22a
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF
GEORGIA
ATLANTA DIVISION
CHIKE UZUEGBUNAM and
JOSEPH BRADFORD,
Plaintiffs,
v.

*
*
*
*

STANLEY C. PRECZEWSKI,
President of Georgia
Gwinnett College, in his
official and individual
capacities, et al.,
Defendants.

1:16-CV-04658ELR

*
*
*
*
*

______________________
ORDER
______________________
Presently before the Court are Defendants’ Motion
to Dismiss and Motion to Dismiss for Mootness. As
explained below, because the Court finds that this
case is now moot, the Court grants both of Defendants’ Motions and dismisses this case.
I. Background
Plaintiffs Chike Uzuegbunam and Joseph Bradford
bring this suit against Defendants Stanley C. Preczewski, Lois C. Richardson, Jim B. Fatzinger, Tomas
Jiminez, Aileen C. Dowell, Gene Ruffin, Catherine
Jannick Downey, Terrance Schneider, Corey Hughes,
Rebecca A. Lawler, and Shenna Perry (collectively,
“Defendants”) in their individual and official capacities

23a
pursuant to 42 U.S.C. § 1983 for violation of Plaintiffs’
constitutional rights. As alleged in the 83-page, 470paragraph First Amended Complaint, at the time of filing this suit, Plaintiffs were students at Georgia Gwinnett College (“GGC”). [Doc. 13]. Defendants each have
official roles at GGC; for example, Defendant Preczewski is the President and Defendant Dowell is the
Director of the Office of Student Integrity.1
As alleged in the First Amended Complaint, in
July 2016, Plaintiff Uzuegbunam, while a student at
GGC, began distributing religious literature (or leafleting) in a plaza on the GGC campus, and a short
time later, Defendant Perry, a Campus Safety/ Security Officer for Campus Police, stopped Plaintiff
Uzuegbunam and explained that he was not allowed
to distribute literature at that location. Upon Plaintiff
Uzuegbunam’s inquiry, Defendant Downey, the Head
of Access Services and Information Commons at GGC,
later explained to Plaintiff Uzuegbunam that he could
not distribute written materials outside of GGC’s two
speech areas and that he would need to reserve a
speech area before he could distribute his literature.
In August 2016, Plaintiff Uzuegbunam applied for,
and was granted, a reservation of the speech area for
three separate dates, including August 25, 2016.
Thereafter, on August 25, 2016, Plaintiff Uzuegbunam went to the reserved speech area, stood on a
stool, verbally shared his religious views, and distributed his religious literature. After approximately
thirty minutes, Defendant Hughes, a Lieutenant for
Campus Police, informed Plaintiff Uzuegbunam that
While the parties debate whether some Defendants can be held
liable in this case, the Court need not address this issue because
the case is moot.

1

24a
he could not speak publicly in the area because GGC
had received calls from people complaining about
Plaintiff Uzuegbunam’s expression. Defendant
Hughes further explained that Plaintiff Uzuegbunam’s speaking constituted “disorderly conduct”
because it was disturbing the peace and tranquility of
individuals in the area, was in violation of GGC policy, and that if Plaintiff Uzuegbunam continued to
speak, he could be prosecuted. Plaintiff Uzuegbunam
stopped speaking publicly and left the area.
Plaintiff Bradford desires to engage in similar·expressive activities on campus like Plaintiff
Uzuegbunam, including literature distribution and
public speaking, but claims that Defendants’ policies
and practices prevent him from doing so.
There were two GGC policies at the time that
these events occurred: (1) Prior Speech Zone Policy
and (2) Prior Speech Code Policy (collectively, “Prior
Policies”).2 These Prior Policies are discussed in detail
below, but for background, the Court summarizes the
Prior Policies here. The Prior Speech Zone Policy limited public speech to speech zones on campus, which
were available only on certain days and times. The
Prior Speech Zone Policy did not allow public speech
on campus, including leafleting, unless the speaker
applied for a reservation with GGC and received permission from GGC to speak in the speech zone. If GGC
granted permission, then the speech was regulated to
the speech zone at a specific date and time. The Prior

These Prior Policies are titled, “GGC Freedom of Expression
Policy” and “Student Code of Conduct” respectively. However, for
consistency, the Court has referred to the Prior Policies using
the same language as Plaintiffs.

2

25a
Speech Code Policy prohibited behavior which disturbed the peace and/or comfort of persons.
Plaintiffs bring facial and as applied challenges to
the Prior Policies, alleging that the Prior Policies violate their freedom of speech and exercise of religion
under the First Amendment to the United States Constitution and due process and equal protection under
the Fourteenth Amendment. Plaintiffs seek declaratory and injunctive relief as well as damages, as discussed more fully infra.
Importantly, after Plaintiffs filed suit against
Defendants, GGC amended its Speech Zone and
Speech Code Policies. The Court will refer to these
amended policies collectively as “Amended Policies”
and individually as the “Amended Speech Zone Policy” and “Amended Speech Code Policy.”
Defendants move to dismiss Plaintiffs’ claims pursuant to Fed. R. Civ. P. 12(b)(6). Defendants also
move to dismiss Plaintiffs’ claims due to mootness.3
II. Discussion
It is well established that “[u]nder Article
III of the Constitution, federal courts may adjudicate only actual, ongoing cases or controversies.” Lewis v. Cont’l Bank Corp., 494 U.S.
472, 477, 110 S.Ct. 1249, 1253, 108 L.Ed.2d 400
(1990). At a minimum, this requirement means
that “a litigant must have suffered, or be
threatened with, an actual injury traceable to
The United States filed a Statement of Interest arguing that
the Prior Policies violated Plaintiffs’ constitutional rights. [Doc.
37]. Importantly, however, the United States specifically stated
that it “does not advance any position as to whether Plaintiffs’
claims are moot,” on which the Court’s opinion turns. [Id. at 9].

3

26a
the defendant and likely to be redressed by a
favorable judicial decision.” Id. at 477, 110
S.Ct. at 1253. Moreover, this “actual controversy must be extant at all stages of review, not
merely at the time the complaint is filed.” Arizonans for Official English v. Arizona, 520 U.S.
43, 67, 117 S.Ct. 1055, 1068, 137 L.Ed.2d 170
(1997) (quoting Preiser v. Newkirk, 422 U.S.
395, 401, 95 S.Ct. 2330, 2334, 45 L.Ed.2d 272
(1975)). As a result, the Supreme Court has
routinely cautioned that a case becomes moot
“if an event occurs while a case is pending on
appeal that makes it impossible for the court to
grant ‘any effectual relief whatever’ to a prevailing party.” Church of Scientology of Cal. v.
United States, 506 U.S. 9, 12, 113 S.Ct. 447,
449, 121 L.Ed.2d 313 (1992) (quoting Mills v.
Green, 159 U.S. 651, 653, 16 S.Ct. 132, 133, 40
L.Ed. 293 (1895)). Thus, even a once-justiciable
case becomes moot and must be dismissed
“when the issues presented are no longer ‘live’
or the parties lack a legally cognizable interest
in the outcome.” Powell v. McCormack, 395
U.S. 486, 496, 89 S.Ct. 1944, 1951, 23 L.Ed.2d
491 (1969).
Flanigan’s Enters. Inc. of Georgia v. City of Sandy
Springs, Ga., 868 F.3d 1248, 1255 (11th Cir. 2017)
(hereinafter “Flanigan’s”).
In supplemental responses filed by the parties,
there is no dispute that Plaintiff Uzuegbunam graduated from GGC in August 2017. Therefore, there is no
reasonable expectation that he will be subjected to the
same alleged injury again, such that the Court could
grant him declaratory or injunctive relief, and as a result, his claims for declaratory and injunctive relief

27a
are moot. Adler v. Duval Cty. Sch. Bd., 112 F.3d 1475,
1478 (11th Cir. 1997) (upon graduation from high
school, students’ claims for a violation of their First
and Fourteenth Amendment rights became moot).
Plaintiffs acknowledge as much. Pls.’ Resp. in Opp’n
to Defs’ Suppl. Br. at 1 [Doc. 40].
Therefore, as to Plaintiff Bradford only, first, the
Court must determine whether GGC’s amendments
to the Prior Speech Zone and Prior Speech Code Policies have rendered Plaintiff Bradford’s claims for declaratory judgment and injunctive relief moot. See
Flanigan’s, 868 F.3d at 1255. Then, if these claims are
moot, the Court must determine whether Plaintiffs’
claim for damages will save this case. See id.
A. Declaratory and Injunctive Relief
As noted above, a case generally becomes moot
when the issues are no longer “live or the parties lack
a legally cognizable interest in the outcome.” Id. (quotation omitted). This may result when “subsequent
events made it absolutely clear that the allegedly
wrongful behavior could not reasonably be expected
to recur.” Id. (quotation omitted). “[I]ntervening
events will render a case moot only when [the Court
has] ‘no reasonable expectation that the challenged
practice will resume after the lawsuit is dismissed.’”
Id. at 1255-56 (quoting Jews for Jesus, Inc. v. Hillsborough Cty. Aviation Auth., 162 F.3d 627, 629 (11th
Cir. 1998)) (further quotation omitted). “The key inquiry in this mootness analysis therefore is whether
the evidence leads [the Court] to a reasonable expectation that [Defendants] will reverse course and reenact the allegedly offensive portion of its [Prior Policies] should this Court grant [Defendants’] motion to
dismiss.” Id. at 1256.

28a
In conducting this mootness analysis, the Court
considers three broad factors as follows:
First, [the Court] ask[s] whether the change in
conduct resulted from substantial deliberation
or is merely an attempt to manipulate [the
Court’s] jurisdiction. Thus [the Court] will examine the timing of the repeal, the procedures
used in enacting it, and any explanations independent of this litigation which may have motivated it. Second, [the Court] ask[s] whether
the government’s decision to terminate the
challenged conduct was “unambiguous.” This
requires [the Court] to consider whether the actions that have been taken to allegedly moot
the case reflect a rejection of the challenged
conduct that is both permanent and complete.
Third, [the Court] ask[s] whether the government has consistently maintained its commitment to the new policy or legislative scheme.
When considering a full legislative repeal of a
challenged law—or an amendment to remove
portions thereof—these factors should not be
viewed as exclusive nor should any single factor be viewed as dispositive. Rather, the entirety of the relevant circumstances should be
considered and a mootness finding should follow when the totality of those circumstances
persuades the court that there is no reasonable
expectation that the government entity will
reenact the challenged legislation.
Id. at 1257 (citation omitted).4
The parties debate who has the burden of proof in this analysis.
The Court need not decide this issue because even if Defendants
have the burden, they have met it.

4

29a
While some of the language quoted above refers
specifically to government legislation, which is not at
issue here, intervening governmental action need not
rise to the level of legislation for this mootness analysis
to apply. Id. at 1256. “Indeed, even where the intervening governmental action does not rise to the level of a
full legislative repeal,” court have held that “‘a challenge to a government policy that has been unambiguously terminated will be moot in the absence of some
reasonable basis to believe that the policy will be reinstated if the suit is terminated.’” Id. (quoting Troiano
v. Supervisor of Elections, 382 F.3d 1276, 1285 (11th
Cir. 2004) (emphasis added)); see Harrell v. The Fla.
Bar, 608 F.3d 1241, 1266 (11th Cir. 2010) (applying the
same reasonable basis standard even where the government action at issue falls “short of so weighty a legislative act”); Students for Life USA v. Waldrop, 90 F.
Supp. 3d 1265, 1271 (S.D. Ala. 2015) (applying this
mootness analysis to a state university policy).
The Court now turns to apply these foregoing principles to the facts of this case to determine whether
the totality of the circumstances indicates that there
is a reasonable expectation that GGC will reenact or
reinforce the Prior Speech Zone and Prior Speech
Code Policies. In conducting this analysis, the Court
will rely on two affidavits presented by Defendants.
First is the Affidavit of Defendant Dowell, who is the
Director of Student Integrity at GGC. Dowell Aff. at ¶
2 [Doc. 21-2]. Defendant Dowell is “responsible for implementing programmatic and policy changes, supervising the Office of Student Integrity staff, and adjudicating all disciplinary and non-disciplinary infractions for GGC, including academic integrity
violations, disorderly conduct, etc.” Id. at ¶ 3. Second

30a
is the Affidavit of Marc Cadinalli, who is the Executive Director of Legal Affairs at GGC. Cardinalli Aff.
at ¶ 2 [Doc. 21-3].
1. Substantial Deliberation
As for the first factor, substantial deliberation,
both Defendant Dowell and Mr. Cardinalli state in
their affidavits that “[o]n February 28, 2017, the GGC
Cabinet approved revisions to GGC’s Freedom of Expression Policy [Prior Speech Zone Policy], as well as
revisions to the Student Code of Conduct Section
[Prior Speech Code Policy] in the GGC Student Handbook for 2016-2017.” Dowell Aff. at ¶ 4; Cardinalli Aff.
at ¶ 3. While these statements at a minimum inform
the Court that there is a GGC Cabinet and the revisions to the Prior Policies were approved by that Cabinet, it is unclear what deliberation may have occurred. Importantly, however, there is no allegation
or evidence to suggest that GGC acted in secrecy or
departed from its own procedures, such that the Court
has “pause about the level of deliberation attending a
change in policy.” Flanigan’s, 868 F.3d at 1260 (citing
to cases where policy was changed in secrecy behind
closed doors and where the governmental actors departed from their own procedures).
The Court also considers the timing of the changes
to the Prior Policies. Plaintiffs filed suit on December
19, 2016. GGC changed the Prior Policies on February
28, 2017, or approximately 10 weeks later. Such a
quick change to the Prior Policies, while not dispositive, counts in Defendants’ favor.5 See id. at 1259-60
Plaintiffs argue that the delay was actually much longer because GGC was aware at least in 2013 that its Prior Policies
were unconstitutional, having received a letter from Plaintiffs’
counsel at that time. As Defendants argue, this may have been

5

31a
(timing was not dispositive but finding case was moot
when repeal occurred three years into the litigation
after the appellate court agreed to hear the case en
banc); Nat’l Advert. Co. v. City of Miami, 402 F.3d
1329, 1331 (11th Cir. 2005) (finding controversy was
moot where city began process of amending its regulations ten months after litigation began); Jews for Jesus, Inc., 162 F.3d at 629 (finding case was moot
where policy was changed one month after the commencement of the lawsuit).
The motivation for GGC’s changes to its Prior Policies is unclear. While motivation is a consideration,
it is not dispositive nor the Court’s focus. Nat’l Advert.
Co., 402 F.3d at 1334. Rather, the most important inquiry is whether the Court believes that GGC will
reenact the Prior Policies. Id. Because the Court ultimately concludes based on the totality of the circumstances that GGC will not reenact these Prior Policies, discussed infra, the Court need not dwell on
GGC’s motivation. Id. at 1331 n.3.
2. Unambiguous Change to Prior Policies
Next, the Court considers whether GGC’s changes
to its Prior Policies are “plainly an unambiguous termination of the challenged conduct.” Flanigan’s, 868
F.3d at 1261.

a routine letter from Plaintiffs’ counsel, evidenced by the fact
that it refers to “ABAC,” an acronym for Abraham Baldwin Agricultural College, rather than GGC. [Doc. 1-16, at 3]. Moreover,
under Plaintiffs’ theory, anytime counsel sends a demand letter
suggesting that policies are unconstitutional, the recipient
would be required to change its policies immediately.

32a
i. Termination of Challenged Conduct
[W]hen an ordinance is repealed by the enactment of a superseding statute, then the ‘superseding statute or regulation moots a case
only to the extent that it removes challenged
features of the prior law. To the extent that
those features remain in place, and changes in
the law have not so fundamentally altered the
statutory framework as to render the ·original
controversy a mere abstraction, the case [is]
not moot.’
Coal. for the Abolition of Marijuana Prohibition v.
City of Atlanta, 219 F.3d 1301, 1310 (11th Cir. 2000)
(quoting Naturist Soc., Inc. v. Fillyaw, 958 F.2d 1515,
1520 (11th Cir. 1992)). “If the repeal is such that the
allegedly unconstitutional portions of the [challenged]
ordinance no longer exist, the appeal is rendered moot
because any decision [the Court] would render would
clearly constitute an impermissible advisory opinion.”
Tanner Advert. Grp., L.L.C. v. Fayette Cty., GA, 451
F.3d 777, 790 (11th Cir. 2006) (quotation omitted) (alteration in original). Therefore, the Court must examine whether the features of the Prior Policies – challenged by Plaintiffs – have been substantially altered
by the Amended Policies. Coal. for the Abolition of
Marijuana Prohibition, 219 F.3d at 1312. In other
words, the Court examines whether the alleged constitutional violations of which Plaintiffs originally
complained in the Prior Policies will continue with the
enforcement of the Amended Policies. Id. at 1315.
1. Speech Zone Policy
The Prior Speech Zone Policy applied to students,
like Plaintiffs, and the non-GGC community. Prior
Speech Zone Policy at 1 [Doc. 13-3]. It identified “free

33a
speech expression areas” on campus and limited the
availability of these areas to certain hours and days.
Id. at 2. GGC reserved the right to modify the speech
areas, and the Policy allowed for other areas and
times to be authorized, upon written request. Id. A
designated GGC official was responsible for authorizing the use of the free speech expression area and the
reservation. Id. The Prior Speech Zone Policy set forth
a reservation procedure. Id. An individual was required to submit to a GGC official a specific form at
least three business days prior to the requested use of
the area and attach any publicity materials to their
form. Id. The Prior Speech Zone Policy then listed fifteen criteria that must be met for GGC to authorize
the speech, event, or demonstration. Id. at 3-5. An individual could also appeal the GGC official’s decision
regarding authorization to the Dean of Students. Id.
at 2. Individuals “failing to comply with the [Prior
Speech Zone Policy] may be asked to leave.” Id. at 5.
In short, if individuals wanted to engage in public
speech on campus, including leafleting, they had to
receive authorization from GGC, and upon approval,
their speech would then be limited to the assigned
speech area at a certain time of day.
The Amended Speech Zone Policy provides as follows:
This policy in no way prohibits members of the
GGC community from engaging in conversations on campus and does not apply to Collegesponsored activities or classroom instruction or
participation, but rather only establishes as
designated public forums certain outdoor areas
of GGC’s campus and sets forth requirements
for forum reservations in the following limited

34a
circumstances: (1) members of the GGC community who plan an event with 30 or more persons; and, (2) individuals or groups who are not
members of the GGC community who wish to
speak on GGC’s campus. By placing reasonable
limitations on time, place, and manner of
speech, GGC does not take a position on the
content or viewpoint of the expression, but allows for a diversity of viewpoints to be expressed in an academic setting.
Amended Speech Zone Policy at 1 [Doc. 21-2].
The Amended Speech Zone Policy further provides
that for GGC community members “who plan to engage in expressive activity on campus in a group that
is expected to consist of 30 or more persons” or individuals who are not enrolled or employed at GGC, individuals are required to submit a reservation request
form to GGC two business days prior to the speech.
Id. at 2. GGC officials must respond to the request
within one business day of receipt of the request. Id.
at 2-3. A denial of the request is appealable to GGC’s
Senior Vice President for Academic and Student
Affairs and Provost, and these officials or their designee must respond to the appeal within one business day. Id. at 3. The individual must attach any
written materials in connection with the speech to the
reservation request form. Id. The Amended Speech
Zone Policy provides that GGC “may not deny any request to distribute written materials based on the
content or viewpoint of the expression.” Id. The
Amended Speech Zone Policy further states that a
GGC official may only deny a reservation request for
seven specific reasons, summarized as follows: (1) the
form is not fully completed; (2) the form contains a
material falsehood or misrepresentation; (3) the area

35a
has been previously reserved, in which case, an alternate location, date or time will be provided; (4) the
speech would conflict or disturb previously planned
programs by GGC; (5) the area is not large enough to
accommodate the group, in which case GGC will provide an alternate location to safely accommodate the
applicant if the applicant is a member of the GGC
community; (6) the speech intended would present a
danger to the applicant, GGC community, or the public; and (7) the speech is prohibited by law or GGC
policy. Id. at 3-4. The Amended Speech Zone Policy
further provides that “[w]hen assessing a reservation
request, the Student Affairs official must not consider
or impose restrictions based on the content or viewpoint of the expression.” Id. at 4. If the reservation request is granted, the Amended Speech Zone designates two zones as the GGC public forums, and makes
these areas available from 9:00 a.m. to 7:00 p.m.,
Monday through Friday, provided that the area is not
already reserved. Id. at 1.
Additionally, the Amended Speech Zone Policy sets
forth that if a GGC community member attracts a
group of 30 or more persons while engaged in the expressive activity, a representative from the group is to
provide GGC with as much notice as possible. Id. at 2.
GGC reserves the right to direct the group to an available area of campus to provide for safety and crowd
control and limit disruption to GGC operations. Id.
The Amended Speech Zone Policy specifically
states that GGC community members may distribute
non-commercial pamphlets and other written materials “on a person-to-person basis in open outdoor areas
of the campus.” Id. at 4. In short, the Amended Speech
Zone Policy provides that students may speak on campus and distribute literature on a person-to-person

36a
basis in open outdoor areas of the campus. Prior reservations to speak and the limiting of that speech to
the speech areas are only required for GGC community members who plan to speak in a group expected
to consist of 30 or more persons or by non-GGC community members.
In order for the changes to the Prior Policies to
moot the issues presented by Plaintiffs, the “‘gravamen of [Plaintiffs’] complaint’ must have been
changed in some fundamental respect.” Coal. for the
Abolition of Marijuana Prohibition, 219 F.3d at 1311
(quoting Ne. Fla. Chapter of Associated Gen. Contractors of Am. v. City of Jacksonville, Fla., 508 U.S. 656,
662 (1993)). The gravamen of Plaintiffs’ First
Amended Complaint is that Plaintiffs want to distribute religious literature and exclaim their religious beliefs anywhere on campus at any time, without first
having to obtain a permit. See Pls.’ First Am. Compl.
at ¶ 2 (Prior Policies restrict all speech to two small
areas of campus, prohibit students from speaking on
campus spontaneously, and require students to obtain a permit before engaging in expressive activity).
As a student,6 Plaintiff Bradford wants to engage in
spontaneous speech and spontaneous leafleting. Pls.’
Resp. to Defs.’ Mot. to Dismiss for Mootness at 23.
The Amended Speech Zone Policy provides that an “individual
who is not a member of the GGC community may only distribute
written materials within the Public Forum Areas and only during the time in which the individual has reserved Public Forum
Area.” Amended Speech Zone Policy at 4-5. However, Plaintiffs’
First Amended Complaint is based on their positions as students, and they have not argued the Prior Policies’ constitutionality with respect to non-GGC community members, including
Plaintiff Uzuegbunam’s status as a non-GGC community member upon his graduation.

6

37a
[Doc. 27]. This is now allowed under the Amended
Speech Zone Policy, and thus, the gravamen of Plaintiffs’ First Amended Complaint has been changed in a
fundamental respect.7 See Jews for Jesus, Inc., 162
F.3d at 629 (finding case was moot where “the airport’s change of policy has already given Jews for Jesus the relief they seek—the ability to distribute literature at the airport—and there is therefore no
meaningful relief left for the court to give. The only
remaining issue is whether the airport’s policy was
constitutional—which, at this stage, is a purely academic point.”).
2. Speech Code Policy
The Prior Speech Code Policy which Plaintiffs challenged prohibited “behavior which disrupts the peace
and/or comfort of person(s).” Prior Speech Code Policy
Plaintiffs spend considerable time attacking the Amended
Speech Zone Policy as unconstitutional. Importantly, the Court
refrains from deciding whether the changes to the Prior Policies
“would nullify any potential constitutional infirmities in the”
Amended Policies. Nat’l Advert. Co., 402 F.3d at 1335 (emphasis
in original). Instead, the Court holds that the changes to the
Prior Policies “rendered all the complaints raised by [Plaintiffs]
in this suit moot. Whatever defects may remain in the [Amended
Policies] are not properly before [the Court] and [the Court]
do[es] not address them.” Id. The Court is mindful of the restraint it must exercise, such that it must “generally decline to
pass on the constitutionality of [policies] unless ‘as a necessity in
the determination of real, earnest, and vital controversy between
individuals.’” Flanigan’s, 868 F.3d at 1269 (quoting Ashwander
v. Tennessee Valley Auth., 297 U.S. 288, 346 (1936)). “It is not
the habit of the court to decide questions of a constitutional nature unless absolutely necessary to a decision of the case.”
Ashwander, 297 U.S. at 347. Rendering opinions on whether all
parts of the Amended Policies are constitutional are not “absolutely necessary” to a decision of this case.
7

38a
at 23 [Doc. 13-15]. The Amended Speech Code Policy
deletes this provision entirely, making no reference to
behavior that might disturb the peace. Once again, the
gravamen of Plaintiffs’ First Amended Complaint has
been changed in a fundamental respect.
ii. Ambiguity
Because the Court finds that the challenged conduct has been terminated by the Amended Policies,
the Court must now examine whether that termination is unambiguous. First, GGC has assured the
Court that it has no intention of reenacting the Prior
Policies. In her affidavit, Defendant Dowell states
that “GGC has no intention of returning to or enforcing the former policies.” Dowell Aff. at ¶ 14; see Flanigan’s, 868 F.3d at 1262-63 (finding strong evidence of
mootness from the defendant’s representation in filings with the court that it disavowed any intent to
adopt the challenged regulation in the future or reenact it); Coral Springs St. Sys., Inc. v, City of Sunrise,
371 F.3d 1320, 1332-33 (11th Cir. 2004). Second, rather than keep the Prior Policies in place, GGC has
fundamentally changed them, including for the Prior
Speech Code Policy, removing the challenged portion
altogether. See Flanigan’s, 868 F.3d at 1261. Third,
Defendant Dowell states that the Amended Policies
are available to the public and have been published
on GGC’s website. Dowell Aff. at ¶ 14; cf. Flanigan’s,
868 F.3d at 1262-63 (finding mootness based in part
on the defendant’s public commitment not to reenact
the repealed provision).
Plaintiffs argue that Defendants have continued
to defend the Prior Policies, including in this litigation
and by filing a motion to dismiss. However, this is

39a
“weak evidence,” at best, that the changes were ambiguous and GGC will return to the Prior Policies.
Flanigan’s, 868 F.3d at 1262. Instead, GGC’s actions
in changing the Prior Policies and proclaiming. that it
has no intention of returning to them suggests an unambiguous termination from which the Court is “unable to draw a reasonable expectation that [GGC] will
reenact the challenged [Prior Policies].” Id.
3. Commitment to the Amended Policies
The Court next considers whether GGC has maintained its commitment to the Amended Policies. GGC
adopted the Amended Policies over a year ago, on February 28, 2017. Plaintiffs have not presented any evidence that GGC has changed the Amended Policies or
reenacted or enforced the Prior Policies. In addition,
GGC has taken actions to implement the Amended
Policies. Mr. Cardinalli states in his affidavit that legal counsel for the Georgia Board of Regents has provided GGC employees with four training sessions on
the Prior Speech Zone Policy. Cardinalli Aff. at ¶ 5.
He further states that approximately forty-nine GGC
employees attended this training, including employees from offices and departments encompassing Defendants. Id. at ¶ 6. See Troiano, 382 F.3d at 1285
(government official consistently followed new policy
and took actions to implement it). Additionally, Mr.
Cardinalli states that “[a]dditional training will be
on-going as needed.” Cardinalli Aff. at ¶ 8. All of this,
together with GGC’s stated intention of not returning
to or enforcing the Prior Policies, sufficiently show
GGC’s commitment to the Amended Policies. Flanigan’s, 868 F.3d at 1262-63.
After consideration of all of these factors and viewing the totality of the circumstances, the Court finds

40a
that GGC has unambiguously terminated the Prior
Policies and there is no reasonable basis to expect that
it will return to them. See id. at 1263; Jews for Jesus,
Inc., 162 F.3d at 629. Therefore, Plaintiff Bradford’s
claims for injunctive and declaratory relief are moot.
B. Nominal Damages
Having found that Plaintiffs’ claims for declaratory
and injunctive relief are moot, the Court must now determine whether Plaintiffs’ remaining claim for damages is sufficient to support standing and save this
case. Plaintiffs argue that the Court may still render
an opinion on the Prior Policies and whether they violated Plaintiffs’ constitutional rights because Plaintiffs
have alleged damages. Defendants argue that Plaintiffs have only prayed for nominal damages and attorneys’ fees, and neither is sufficient to save this case
from being dismissed as moot. Plaintiffs argue in
response that they pleaded in their First Amended
Complaint for an award of monetary damages and for
damages in an amount to be determined by the
evidence and the Court. Plaintiffs assert that the
Court must construe their First Amended Complaint
broadly for a claim of actual, compensatory damages.
Plaintiffs are correct that in several instances in
their First Amended Complaint they request “monetary damages and equitable relief.” First Am. Compl.
at ¶¶ 417-418, 434-435, 450-451, 469-470. However,
monetary damages can encompass both compensatory
and nominal damages. Quinlan v. Pers. Transp. Servs.
Co., 329 F. App’x 246, 249 (11th Cir. 2009) (defining
monetary damages to include compensatory or punitive damages); Virdi v. DeKalb Cty. Sch. Dist., 216 F.
App’x 867, 873 (11th Cir. 2007) (finding request for
monetary damages to include nominal damages).

41a
Throughout their First Amended Complaint, Plaintiffs
do not elaborate on the type of damages they seek. Instead, the only place where they specify the type of
damages sought is in their Prayer for Relief, as follows:
“Nominal damages for the violation of Plaintiffs’ First
and Fourteenth Amendment rights from the Defendants sued in their individual capacities.” First Am.
Compl. at 79, ¶ G. Thus, in their Prayer for Relief,
wherein they set forth the exact relief they seek including an injunction and declaratory relief, Plaintiffs
specify that they are seeking nominal damages.
Furthermore, Plaintiffs’ after-the-fact contentions
now – that they are seeking compensatory damages –
are not supported by the First Amended Complaint.
“[C]ompensatory damages in a § 1983 suit [must] be
based on actual injury caused by the defendant rather
than on the ‘abstract value’ of the constitutional
rights that may have been violated.” Slicker v. Jackson, 215 F.3d 1225, 1230 (11th Cir. 2000). Plaintiffs
do not allege in their First Amended Complaint that
they suffered an actual injury, and instead, they plead
that their constitutional rights have been violated.8
Plaintiffs argue that they pleaded in their First
For example, in the context of a § 1983 case, such as this one,
compensatory damages can encompass monetary loss, physical
pain and suffering, mental and emotional distress, impairment of
reputation, and personal humiliation. Slicker, 215 F.3d at 1231.
Plaintiffs have alleged no such injuries. Instead, Plaintiffs mention an “injury” two times in their First Amended Complaint, and
neither time do they set forth any facts that would support a compensatory damages claim. See First Am. Compl. at ¶ 6 (“In taking
these actions, [Defendants] implemented the challenged GGC policies, violated Mr. Uzuegbunam’s constitutional rights, and inflicted irreparable injury upon him.”); ¶ 368 (“Unless the policies
and conduct of Defendants are enjoined, Mr. Uzuegbunam and
Mr. Bradford will continue to suffer irreparable injury.”).
8

42a
Amended Complaint that they were entitled to “damages in an amount to be determined by the evidence
and this Court” and “[a]ll other further relief to which
Plaintiffs may be entitled.” First Am. Compl. at ¶¶
418, 435, 451, 470, I. However, such blanket statements do not automatically lend themselves to a claim
for compensatory damages and instead could also
support a claim for nominal damages. See Flanigan’s,
868 F.3d at 1254 n.3.
Thus, the Court concludes that upon viewing Plaintiffs’ First Amended Complaint in its entirety, Plaintiffs only sought nominal damages, rather than compensatory damages. To find otherwise would require
ignoring Plaintiffs’ own Prayer for Relief. Even construing Plaintiffs’ First Amended Complaint in their
favor, the Court cannot stretch or interpret a complaint to find allegations or relief that are not there.
In this particular case, where Plaintiffs’ constitutional challenges to the governmental policies are now
moot, where the Court can grant Plaintiffs no practical relief in the form of an injunction or a declaratory
judgment, and where Plaintiffs did not plead for compensatory damages, the lone remaining claim of nominal damages is insufficient to save this otherwise
moot case. Flanigan’s, 868 F.3d at 1264-70.9
Plaintiffs argue that the United States Court of Appeals for the Eleventh Circuit in Flanigan’s left open
the possibility that a claim for nominal damages will
not moot a case and can still be adjudicated, even where
other claims are moot. While such an exception may be
true, this case is not the exception. Instead, this case is
Additionally, Plaintiffs seek attorneys’ fees pursuant to 42 U.S.C.
§ 1988, but this is insufficient to create a case or controversy. See
Flanigan’s Enters. Inc. of Georgia, 868 F.3d at 1263 n.11.
9

43a
akin to Flanigan’s, and therefore, Plaintiffs’ sole claim
for nominal damages will not sustain this case.
First, this case is strikingly similar to Flanigan’s.
In Flanigan’s, the plaintiffs challenged a municipal
ordinance, alleging that the ordinance violated their
First Amendment and Fourteenth Amendment
rights. 868 F.3d at 1253-54; see also Flanigan’s Enters. Inc. v. City of Sandy Springs, GA, No. 1:13-CV03573-HLM, 2014 WL 12685907, at *3 (N.D. Ga. Oct.
20, 2014). The plaintiffs sought declaratory and injunctive relief, striking down the ordinance as unconstitutional and permanently enjoining its enforcement. Flanigan’s, 868 F.3d at 1254. They also specifically requested an award of nominal damages, and
they did not seek compensatory damages. Id. at 1254,
1263 n.11, 1265. The Eleventh Circuit Court of Appeals found that the claims for declaratory and injunctive relief were moot after the challenged ordinance was repealed. Id. at 1255-63.
The remaining claim was for nominal damages,
and the Eleventh Circuit held that such a lone prayer
for nominal damages was insufficient to sustain the
case. Id. at 1263-1270. The appellate court determined that because the challenged ordinance had
been repealed with no likelihood of reenactment, the
plaintiffs had received all the relief that they had requested. Id. at 1264. Thus, the appellate court could
offer the plaintiffs no practical remedy that would affect the rights or obligations of the parties. Id. The
availability of a practical remedy is a prerequisite to
Article III jurisdiction, and therefore, because no such
remedy was available, the plaintiffs could not proceed
before the court on a claim solely for nominal damages. Id. at 1264, 1270.

44a
The same is true here. Plaintiffs contend that the
Prior Policies violated their First and Fourteenth
Amendment rights. They sought declaratory and injunctive relief, along with nominal damages, and they
did not seek compensatory damages. The Court has
found that Plaintiff Uzuegbunam’s claims for declaratory and injunctive relief are moot because he has
graduated from GGC. The Court has also found that
Plaintiff Bradford’s claims for declaratory and injunctive relief are moot because GGC has unambiguously
terminated the Prior Policies and there is no reasonable basis to expect that GGC will return to them. As
explained above, a fair reading of Plaintiffs’ First
Amended Complaint reveals that all of their alleged
injuries would be remedied by the removal of the Prior
Policies. See Flanigan’s, 868 F.3d at 265. The Prior
Policies have been removed with no reasonable basis
to believe that GGC will reenact them. As a result,
there is no practical remedy for this Court to offer
Plaintiffs. See id. at 1264. “There is simply nothing
left for [the Court] to do.” Id. at 1265. Just as in Flanigan’s, the only redress the Court could possibly offer
Plaintiffs is “judicial validation, through nominal
damages, of an outcome that has already been determined,” and perhaps joy in seeing the Court vindicate
their cause. 868 F.3d at 1268. Yet, “absent an accompanying practical effect on the legal rights or responsibilities of the parties[, the Court is] without jurisdiction to give them that satisfaction.” Id. Finally, any
opinion the Court would render now on the constitutionality of the Prior Policies would be an impermissible advisory one. Id. The Prior Policies, and with
them, the necessity of deciding their constitutionality,
“has ceased to exist and [are] now no more real than
any other hypothetical statute on which the federal

45a
courts should routinely decline to pass judgment.” Id.
at 1269. As well stated in Flanigan’s, to allow Plaintiffs’ remaining claim for nominal damages to sustain
this case would result in a manipulation of the
jurisdiction of the Court, a circumvention of the mootness doctrine, and a requirement that the Court decide
a case that could have no practical effect on the legal
rights or obligations of the parties. 868 F.3d at 1270.
Second, contrary to Plaintiffs’ arguments, this case
does not present the exceptions discussed or contemplated in Flanigan’s. In these exceptional cases, a live
controversy existed regarding compensatory damages
throughout the entire litigation or an award of nominal
damages would have a practical effect on the parties’
rights or obligations. Id. at 1263-67, n.18, 1270, n.23.
This case presents neither of those situations.10
Therefore, the Court concludes that Plaintiffs’
“prayer for nominal damages will not save the case
from dismissal.” Id. at 1264.11

10 To the extent there are any other exceptions or the Eleventh
Circuit wants to create an exception for this case, those are matters for the Eleventh Circuit to decide. This Court is bound by
precedent in Flanigan’s and finds that this case is moot pursuant
to this precedent.
11 In their Response in Opposition to Defendants’ Supplemental
Brief, while Plaintiffs maintain that their case should not be dismissed, they assert that any dismissal must be without prejudice
and they request leave to amend if the Court deems it necessary.
The Court denies Plaintiffs’ request for leave to amend. Burgess
v. Religious Tech. Ctr., Inc., 600 F. App’x 657, 665 (11th Cir.
2015) (“We repeatedly have held that plaintiffs cannot amend
their complaint through a response to a motion to dismiss . . .
our precedent is clear: the proper method to request leave to
amend is through filing a motion, and such motion for leave to
amend should either set forth the substance of the proposed

46a
III.

Conclusion

For the foregoing reasons, the Court GRANTS Defendants’ Motion to Dismiss for Mootness [Doc. 21];
GRANTS Defendants’ Motion to Dismiss [Doc. 18];
DENIES Plaintiffs’ Motion for Oral Argument [Doc.
35]; and DISMISSES WITHOUT PREJUDICE this
case.
SO ORDERED, this 25th day of May, 2018.

amendment or attach a copy of the proposed amendment.”); Rosenberg v. Gould, 554 F.3d 962, 967 (11th Cir. 2009) (“Where a
request for leave to file an amended complaint simply is imbedded within an opposition memorandum, the issue has not been
raised properly.”). For the reasons stated herein, the Court will
dismiss Plaintiffs’ claims without prejudice but need not go as
far as to direct Plaintiffs to file a motion for leave to amend.
Quinlan, 329 F. App’x at 250 (court did not have to give the plaintiff an opportunity to amend where the court dismissed the complaint without prejudice). It is up to Plaintiffs to decide how to
litigate their case.

47a
IN THE UNITED STATES COURT OF
APPEALS
FOR THE ELEVENTH CIRCUIT
______________
No. 18-12676-AA
______________
CHIKE UZUEGBUNAM,
JOSEPH BRADFORD
versus

Plaintiffs – Appellants,

STANLEY C. PRECZEWSKI,
President of Gerogia Gwinnett College, in
his official and individual capacities,
LOIS C. RICHARDSON,
Acting Senior Vice President of Academic
and Student Affairs and Provost at Georgia
Gwinnett College, in her official and
individual capacities,
JIM B. FATZINGER,
Senior Associate Provost for Student Affairs
for Georgia Gwinnett College, in his official
and individual capacities,
TOMAS JIMINEZ,
Dean of Students at Georgia Gwinnett
College, in his official and individual
capacities,
AILEEN C. DOWELL,
Director of the Office of Student Integrity at
Georgia Gwinnett College, in her official
and individual capacities,
GENE RUFFIN,
Dean of Library Services at Georgia
Gwinnett College, in his official and
individual capacities,
CATHERINE JANNICK DOWNEY,
Head of Access Services and Information
Commons, in her official and individual

48a
capacities,
TERRANCE SCHNEIDER,
Associate Vice President of Public Safety
and Emergency Preparedness/Chief of
Police at Georgia Gwinnett College, in his
official and individual capacities,
COREY HUGHES,
Campus Police Lieutenant at Georgia
Gwinnett College, in his official and
individual capacities,
REBECCA A. LAWLER,
Community Outreach and Crime
Prevention Sergeant at Georgia Gwinnett
College, in her official and individual
capacities,
SHENNA PERRY,
Campus Safety/Security Officer at Georgia
Gwinnett College, in her official and
individual capacities,
Defendants – Appellees.
__________________________________________
Appeal from the United States District Court
for the Northern District of Georgia
__________________________________________
ON PETITION(S) FOR REHEARING AND
PETITION(S) FOR REHEARING EN BANC
BEFORE: MARCUS and BLACK, Circuit Judges, and
RESTANI, * Judge.
PER CURIAM:
The Petition for Rehearing En Banc is DENIED, no

Honorable Jane A. Restani, Judge for the United States Court
of International Trade, sitting by designation.

*

49a
judge in regular active service on the Court having requested that the Court be polled on rehearing en banc.
(FRAP 35) The Petition for Rehearing En Banc is also
treated as a Petition for Rehearing before the panel
and is DENIED. (FRAP 35, IOP2)
ENTERED FOR THE COURT:

50a
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
______________
No. 18-12676-AA
______________
CHIKE UZUEGBUNAM,
JOSEPH BRADFORD
Plaintiffs – Appellants,
versus
STANLEY C. PRECZEWSKI,
President of Gerogia Gwinnett College, in
his official and individual capacities,
LOIS C. RICHARDSON,
Acting Senior Vice President of Academic
and Student Affairs and Provost at Georgia
Gwinnett College, in her official and
individual capacities,
JIM B. FATZINGER,
Senior Associate Provost for Student Affairs
for Georgia Gwinnett College, in his official
and individual capacities,
TOMAS JIMINEZ,
Dean of Students at Georgia Gwinnett
College, in his official and individual
capacities,
AILEEN C. DOWELL,
Director of the Office of Student Integrity at
Georgia Gwinnett College, in her official
and individual capacities,
GENE RUFFIN,

51a
Dean of Library Services at Georgia
Gwinnett College, in his official and
individual capacities,
CATHERINE JANNICK DOWNEY,
Head of Access Services and Information
Commons, in her official and individual
capacities,
TERRANCE SCHNEIDER,
Associate Vice President of Public Safety
and Emergency Preparedness/Chief of
Police at Georgia Gwinnett College, in his
official and individual capacities,
COREY HUGHES,
Campus Police Lieutenant at Georgia
Gwinnett College, in his official and
individual capacities,
REBECCA A. LAWLER,
Community Outreach and Crime
Prevention Sergeant at Georgia Gwinnett
College, in her official and individual
capacities,
SHENNA PERRY,
Campus Safety/Security Officer at Georgia
Gwinnett College, in her official and
individual capacities,
Defendants – Appellees.
__________________________________________
On Petition for Hearing En Banc from the
United States District Court
for the Northern District of Georgia
__________________________________________

52a
ORDER:
No Judge in regular active service on the Court having requested that the Court be polled on hearing en
banc (Rule 35 Federal Rules of Appellate Procedure;
Eleventh Circuit Rule 35-1), the petition for hearing
en banc is DENIED.

53a
UNITED STATES COURT OF APPEALS
For the Eleventh Circuit
______________
No. 18-12676
______________
District Court Docket No.
1:16-cv-04658-ELR
CHIKE UZUEGBUNAM,
JOSEPH BRADFORD
Plaintiffs – Appellants,
versus
STANLEY C. PRECZEWSKI,
President of Gerogia Gwinnett College, in
his official and individual capacities,
LOIS C. RICHARDSON,
Acting Senior Vice President of Academic
and Student Affairs and Provost at Georgia
Gwinnett College, in her official and
individual capacities,
JIM B. FATZINGER,
Senior Associate Provost for Student Affairs
for Georgia Gwinnett College, in his official
and individual capacities,
TOMAS JIMINEZ,
Dean of Students at Georgia Gwinnett
College, in his official and individual
capacities,
AILEEN C. DOWELL,
Director of the Office of Student Integrity at
Georgia Gwinnett College, in her official
and individual capacities,
GENE RUFFIN,
Dean of Library Services at Georgia
Gwinnett College, in his official and
individual capacities,

54a
CATHERINE JANNICK DOWNEY,
Head of Access Services and Information
Commons, in her official and individual
capacities,
TERRANCE SCHNEIDER,
Associate Vice President of Public Safety
and Emergency Preparedness/Chief of
Police at Georgia Gwinnett College, in his
official and individual capacities,
COREY HUGHES,
Campus Police Lieutenant at Georgia
Gwinnett College, in his official and
individual capacities,
REBECCA A. LAWLER,
Community Outreach and Crime
Prevention Sergeant at Georgia Gwinnett
College, in her official and individual
capacities,
SHENNA PERRY,
Campus Safety/Security Officer at Georgia
Gwinnett College, in her official and
individual capacities,
Defendants – Appellees.
__________________________________________
Appeal from the United States District Court for the
Northern District of Georgia
__________________________________________
JUDGMENT
It is hereby ordered, adjudged, and decreed that the
opinion issued on this date in this appeal is entered
as the judgment of this Court.
Entered: July 01, 2019
For the Court: DAVID J. SMITH, Clerk of Court
By: Djuanna Clark

55a
Excerpts from United States Constitution
Article III, Section 2, Paragraph 1
The judicial Power shall extend to all Cases, in Law
and Equity, arising under this Constitution, the Laws
of the United States, and Treaties made, or which
shall be made, under their Authority; —to all Cases
affecting Ambassadors, other public Ministers and
Consuls; —to all Cases of admiralty and maritime Jurisdiction; —to Controversies to which the United
States shall be a Party; —to Controversies between
two or more States; —between a State and Citizens of
another State, —between Citizens of different States,
—between Citizens of the same State claiming Lands
under Grants of different States, and between a State,
or the Citizens thereof, and foreign States, Citizens or
Subjects.
Amendment I
Congress shall make no law respecting an establishment of religion, or prohibiting the free exercise
thereof; or abridging the freedom of speech, or of the
press; or the right of the people peaceably to assemble,
and to petition the Government for a redress of grievances.
Amendment XIV, Section 1
All persons born or naturalized in the United States,
and subject to the jurisdiction thereof, are citizens of
the United States and of the state wherein they reside. No state shall make or enforce any law which
shall abridge the privileges or immunities of citizens
of the United States; nor shall any state deprive any
person of life, liberty, or property, without due process
of law; nor deny to any person within its jurisdiction
the equal protection of the laws.

56a
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION
CHIKE
UZUEGBUNAM
JOSEPH BRADFORD,

and

Plaintiffs,
v.
STANLEY C. PRECZEWSKI, President of Georgia Gwinnett College, in his official and individual
capacities; LOIS C. RICHARDSON,
Acting Senior Vice President of
Academic and Student Affairs
and Provost at Georgia Gwinnett
College, in her official and individual
capacities;
JIM
B.
FATZINGER, Senior Associate
Provost for Student Affairs for
Georgia Gwinnett College, in his
official and individual capacities;
TOMAS JIMINEZ, Dean of Students at Georgia Gwinnett College, in his official and individual
capacities; AILEEN C. DOWELL,
Director of the Office of Student
Integrity at Georgia Gwinnett
College, in her official and individual capacities; GENE RUFFIN,
Dean of Library Services at Georgia Gwinnett College, in his official and individual capacities;
CATHERINE JANNICK DOWNEY,

Case No. 1:16cv-04658-ELR
THE
HONORABLE
ELEANOR L.
ROSS
JURY TRIAL
DEMANDED

57a
Head of Access Services and Information Commons, in her official and individual capacities;
TERRANCE SCHNEIDER, Associate Vice President of Public
Safety and Emergency Preparedness/Chief of Police at Georgia
Gwinnett College, in his official
and individual capacities; COREY
HUGHES, Campus Police Lieutenant at Georgia Gwinnett College, in his individual and official
capacities; REBECCA A. LAWLER,
Community Outreach and Crime
Prevention Sergeant at Georgia
Gwinnett College, in her official
and
individual
capacities;
SHENNA
PERRY,
Campus
Safety/Security Officer at Georgia Gwinnett College, in her official and individual capacities.
Defendants.
FIRST AMENDED VERIFIED COMPLAINT
Plaintiffs Chike Uzuegbunam and Joseph Bradford, by and through counsel, and for their First
Amended Verified Complaint against Defendants,
hereby states as follows:
INTRODUCTION
1.
The cornerstone of higher education is the
ability of students to participate in the “marketplace
of ideas” on campus. That marketplace depends on
free and vigorous debate and expression between students—debate and expression that is spontaneous,

58a
ubiquitous, and often anonymous—and is carried out
through spoken word, flyers, signs, and displays.
2.
By policy and practice, Georgia Gwinnett
College (“GGC” or “College”) claims the unchecked
right to restrict the free speech rights of students and
to regulate the location of student expression and assembly on campus. The College claims to encourage
free discourse and debate on campus, but its Freedom
of Expression Policy restricts all types of student
speech to two small speech zones that occupy less than
0.0015% of campus. To use these speech zones, students must submit a “free speech area request” form
three days in advance and submit any publicity materials and literature they want to distribute to administrators for review. If students want to speak—
whether through oral or written communication—anywhere else on campus, then they must obtain a permit from College officials. Thus, students may not
speak spontaneously anywhere on campus. If students
violate this policy, they violate the College’s Student
Code of Conduct and expose themselves to a variety of
sanctions, including expulsion. Through the permitting process, GGC retains unfettered discretion to determine both whether students may speak at all and
where they may speak. In so doing, it fails to protect
students against content and viewpoint discrimination. These policies and practices chill protected student speech and disable spontaneous student speech
on campus.
3.
By policy and practice, Georgia Gwinnett
College claims the unchecked right to restrict the content and viewpoint of what students say on campus.
Despite their claims to celebrate free speech, Defendants’ Student Code of Conduct defines “disorderly conduct” to include any expression “which disturbs the

59a
peace and/or comfort of person(s).” Defendants enforce this speech code to prohibit students from saying
anything that prompts complaints from listeners. In
so doing, Defendants have created and have enforced
a heckler’s veto that effectuates content and viewpoint discrimination. This policy and its related practices chill protected student speech on campus.
4.
When Plaintiff Chike Uzuegbunam, a student at GGC, sought to distribute religious literature
in an open, generally accessible area of the campus
outside the library, Defendants required him to stop
because he was outside of the two tiny speech zones
and because he had not first obtained a permit.
5.
When Mr. Uzuegbunam tried to share his
religious views in one of the speech zones after reserving it for this purpose, Defendants required him to
stop because his speech had generated complaints, informed him that his speech constituted “disorderly
conduct” because it had generated complaints, and instructed him to use the methods of other religious denominations to communicate his beliefs and viewpoints.
6.
Defendants took these actions because of
the content and viewpoint of Mr. Uzuegbunam’s expression, because his expression prompted complaints and they believed it would continue to do so,
and because they wanted to pacify those who were or
might be offended by his expression. In taking these
actions, they implemented the challenged GGC policies, violated Mr. Uzuegbunam’s constitutional
rights, and inflicted irreparable injury upon him.
7.
Plaintiff Joseph Bradford, a student at
GGC, desires to engage in similar expressive activities on campus, including literature distribution and

60a
public speaking, but Defendants’ policies and practices prevent him from doing so, thus chilling his exercise of his constitutional rights.
8.
This action is premised on the United
States Constitution and concerns the denial of Mr.
Uzuegbunam’s and Mr. Bradford’s fundamental and
clearly established rights under the Free Speech and
Free Exercise Clauses of the First Amendment and
the Due Process and Equal Protection Clauses of the
Fourteenth Amendment.
9.
The aforementioned policies and practices
are challenged on their face and as applied.
10.
Defendants’ policies and practices have deprived and will continue to deprive Plaintiffs of their
paramount rights and guarantees under the United
States Constitution.
11.
Each and every act of Defendants alleged
herein was committed by Defendants, each and every
one of them, under the color of state law and authority.
JURISDICTION & VENUE
12.
This civil rights action raises federal questions under the United States Constitution, particularly the First and Fourteenth Amendments, and the
Civil Rights Act of 1871, 42 U.S.C. § 1983.
13.
This Court has original jurisdiction over
these federal claims pursuant to 28 U.S.C. §§ 1331
and 1343.
14.
This Court has authority to award the requested damages pursuant to 28 U.S.C. § 1343; the
requested declaratory relief pursuant to 28 U.S.C.
§§ 2201–02; the requested injunctive relief pursuant

61a
to 28 U.S.C. § 1343 and FED. R. CIV. P. 65; and costs
and attorneys’ fees under 42 U.S.C. § 1988.
15.
This Court has supplemental jurisdiction
over the state law claims made herein pursuant to 28
U.S.C. § 1367.
16.
Venue is proper in this district and division
pursuant to 28 U.S.C. § 1391(b) and L.R. 3.1, N.D.
Ga., because Defendants reside in this district and division and/or all of the acts described in this Complaint occurred in this district and division.
PLAINTIFFS
17.
Mr. Chike Uzuegbunam and Mr. Joseph
Bradford are residents of the State of Georgia and students at GGC.
18.
Mr. Uzuegbunam and Mr. Bradford are professing evangelical Christians who strive to live out
their faith on a daily basis.
19.
Their Christian faith governs the way Mr.
Uzuegbunam and Mr. Bradford think about marriage,
morality, politics, and social issues, and it causes them
to hold sincerely-held religious beliefs in these areas.
20.
As evangelical Christians, Mr. Uzuegbunam and Mr. Bradford believe that the Bible is
God’s Word and sets out the plan of salvation for all
people. They believe that the Bible teaches that all
people are sinners and therefore deserve God’s wrath,
but that anyone can receive salvation and eternal life
by believing in Jesus Christ.
21.
Because of their firmly-held Christian beliefs, Mr. Uzuegbunam and Mr. Bradford believe it is
their duty to inform others, including members of the
GGC community, for their own benefit, that they have

62a
sinned and need salvation through Jesus Christ. They
look for opportunities to share their beliefs with their
fellow students and community members.
22.
Mr. Uzuegbunam’s message is purely evangelistic in nature. Through personal conversations, the
distribution of religious tracts, and open-air speaking,
he communicates in a loving way that all people
(including himself) are sinners and that salvation and
eternal life are available only through Jesus Christ.
23.
Mr. Bradford’s message is both evangelistic
and apologetic in nature. That is, through personal
conversations, the distribution of religious tracts, and
open-air speaking, he communicates in a loving way
that all people (including himself) are sinners and that
salvation and eternal life are available only through
Jesus Christ. In addition, he desires to convince others
of the truth of the Bible and to persuade others to
approach all areas of life from a Biblical worldview.
24.
Mr. Uzuegbunam and Mr. Bradford do not
seek monetary gain with their expressive activities.
They do not try to sell products or services, seek donations, or solicit signatures. They merely wish to expose others to their religious beliefs.
25.
Mr. Uzuegbunam’s and Mr. Bradford’s
expressive activities do not create a disturbance or
cause congestion. They merely wish to express their
religious beliefs peacefully, without being confrontational and without using amplification devices, to
those who are willing to listen.
DEFENDANTS
26.
Defendant Stanley C. Preczewski is, and
was at all times relevant to this Complaint, the Pres-

63a
ident of Georgia Gwinnett College, a public college organized and existing under the laws of the State of
Georgia.
27.
As president, Defendant Preczewski is the
Chief Executive Officer of GGC.
28.
Defendant Preczewski’s duties include,
among others, authorizing, executing, enforcing, and
implementing the policies governing students at GGC
and overseeing the operation and management of
GGC.
29.
Defendant Preczewski has the responsibility for final policymaking authority concerning students at GGC.
30.
Defendant Preczewski is responsible for the
enactment, amendment, enforcement, execution, and
implementation of College policies, including policies
challenged herein, and their application to students
in restricting their ability to speak freely and without
a permit on campus.
31.
As president of the College, Defendant Preczewski possesses the authority to change and enforce
the policies challenged herein.
32.
Defendant Preczewski possesses the authority and responsibility for coordination and approval of campus expression by students on campus.
33.
All changes in campus policies concerning
student expression are made only with the prior approval of Defendant Preczewski.
34.
Defendant Preczewski has not instructed
GGC personnel, including the other Defendants, to
change or alter the policies and practices governing
student expression on campus, including the policies

64a
and practices challenged herein, to comply with the
Constitution.
35.
As president, Defendant Preczewski has the
authority to review, approve, or reject the decisions of
other College officials and the other Defendants regarding the policies challenged herein.
36.
Defendant Preczewski not only authorized,
approved, or implemented the policies used to restrict
Mr. Uzuegbunam’s expression, but he also failed to
stop any GGC officials from applying those policies to
Mr. Uzuegbunam.
37.
Defendant Preczewski is ultimately responsible for administration and policymaking at GGC.
38.
Defendant Preczewski is sued in his individual and official capacities.
39.
Defendant Lois C. Richardson is, and was at
all times relevant to this Complaint, Acting Senior
Vice President of Academic and Student Affairs and
Provost at Georgia Gwinnett College, a public college
organized and existing under the laws of the State of
Georgia.
40.
Defendant Richardson is responsible for administration and policymaking for the College, including the policies challenged herein.
41.
Defendant Richardson is responsible for the
enactment and enforcement of College policies, including the policies challenged herein that restrict the
ability of students to speak freely on campus and
without a permit.
42.
Defendant Richardson is responsible for
overseeing the College’s Office of Student Affairs and

65a
Defendant Jim B. Fatzinger, and for creating, reviewing, changing, authorizing, and enforcing the policies
of that office, including GGC’s Freedom of Expression
Policy and Student Code of Conduct.
43.
Defendant Richardson has failed to stop
College officials, including the other defendants, from
applying the policies challenged herein to students,
including Mr. Uzuegbunam.
44.
Defendant Richardson possesses the authority to change and enforce the policies challenged
herein.
45.
Defendant Richardson has failed to recommend any changes to the policies challenged herein.
46.
Defendant Richardson is sued in her official
and individual capacities.
47.
Defendant Jim B. Fatzinger is, and was at
all times relevant to this Complaint, Senior Associate
Provost for Student Affairs at Georgia Gwinnett College, a public college organized and existing under the
laws of the State of Georgia.
48.
Defendant Fatzinger is responsible for administration and policymaking for the College, including the policies challenged herein.
49.
Defendant Fatzinger is responsible for the
enactment and enforcement of College policies, including the policies challenged herein, that restrict
the ability of students to speak freely on campus and
without a permit.
50.
Defendant Fatzinger, under the direction of
Defendants Preczewski and Richardson, instructs the
Office of Student Affairs when to create, review,
change, authorize, and enforce student speech policies

66a
and procedures.
51.
Defendant Fatzinger is responsible for overseeing the College’s Office of Student Affairs and Defendant Tomas Jiminez, and for creating, reviewing,
changing, authorizing, and enforcing the policies of
that office, including GGC’s Freedom of Expression
Policy and Student Code of Conduct.
52.
Defendant Fatzinger has failed to stop College officials, including the other defendants, from applying the policies challenged herein to students, including Mr. Uzuegbunam.
53.
Defendant Fatzinger possesses the authority to change and enforce the policies challenged
herein.
54.
Defendant Fatziner has failed to recommend any changes to the policies challenged herein.
55.
Defendant Fatzinger is sued in his official
and individual capacities.
56.
Defendant Tomas Jiminez is, and was at all
times relevant to this Complaint, Dean of Students at
Georgia Gwinnett College, a public college organized
and existing under the laws of the State of Georgia.
57.
Defendant Jiminez is responsible for administration and policymaking for the College, including the policies challenged herein.
58.
Defendant Jiminez is responsible for the enactment and enforcement of College policies, including the policies challenged herein, that restrict the
ability of students to speak freely on campus and
without a permit.
59.
Defendant Jiminez, under the direction of
Defendants Preczewski, Richardson, and Fatzinger,

67a
leads the Office of Student Affairs and directs it when
to create, review, change, authorize, and enforce student speech policies and procedures.
60.
Under Defendant Jiminez’s leadership, the
Office of Student Affairs created and enforced the policies challenged herein.
61.
Defendant Jiminez is responsible for overseeing the College’s Office of Student Integrity and
Defendant Aileen C. Dowell, and for creating, reviewing, changing, authorizing, and enforcing the policies
of that office, including GGC’s Freedom of Expression
Policy and Student Code of Conduct.
62.
Defendant Jiminez has failed to stop College officials, including the other defendants, from applying the policies challenged herein to students, including Mr. Uzuegbunam.
63.
Defendant Jiminez possesses the authority
to change and enforce the policies challenged herein.
64.
Defendant Jiminez has failed to recommend
any changes to the policies challenged herein.
65.
Defendant Jiminez is sued both in his individual and official capacities.
66.
Defendant Aileen C. Dowell is, and was at
all times relevant to this Complaint, Director of the
Office of Student Integrity at Georgia Gwinnett College, a public college organized and existing under the
laws of the State of Georgia.
67.
Defendant Dowell is responsible for administration and policymaking for the College, including
the policies challenged herein.
68.

Defendant Dowell is responsible for the en-

68a
actment and enforcement of College policies, including the policies challenged herein, that restrict the
ability of students to speak freely on campus and
without a permit.
69.
Defendant Dowell, under the direction of
Defendants Preczewski, Richardson, Fatzinger, and
Jiminez, is responsible for applying and interpreting
the policies challenged herein, including processing
requests by students for permits under those policies.
70.
Defendant Dowell continues to enforce the
policies challenged herein to students, including Mr.
Uzuegbunam.
71.
Defendant Dowell has failed to recommend
any changes to the policies challenged herein.
72.
Defendant Dowell enforced the policies
challenged herein against Mr. Uzuegbunam by stopping him from peacefully distributing religious
literature and engaging interested students in
conversation in an open, generally accessible location
outside of the library and by stopping him from
sharing his religious beliefs in the speech zone he
reserved for that purpose.
73.
Defendant Dowell is sued both in her individual and official capacities.
74.
Defendant Gene Ruffin is, and was at all
times relevant to this Complaint, Dean of Library Services at Georgia Gwinnett College, a public college organized and existing under the laws of the State of
Georgia.
75.
Defendant Ruffin is responsible for the enforcement of College policies, including the Freedom
of Expression Policy challenged herein, that restrict

69a
the ability of students to speak freely on campus and
without a permit.
76.
Defendant Ruffin, under the direction of Defendant Preczewski, is responsible for applying and
enforcing the Freedom of Expression Policy.
77.
Defendant Ruffin continues to enforce the
Freedom of Expression Policy to students, including
Mr. Uzuegbunam.
78.
Defendant Ruffin is sued both in his individual and official capacities.
79.
Defendant Catherine Jannick Downey is,
and was at all times relevant to this Complaint, Head
of Access Services and Information Commons at Georgia Gwinnett College, a public college organized and
existing under the laws of the State of Georgia.
80.
Defendant Downey is responsible for the enforcement of College policies, including the Freedom
of Expression Policy challenged herein, that restrict
the ability of students to speak freely on campus and
without a permit.
81.
Defendant Downey, under the direction of
Defendant Ruffin, is responsible for enforcing the
Freedom of Expression Policy.
82.
Defendant Downey enforced the Freedom of
Expression Policy against Mr. Uzuegbunam by stopping him from peacefully distributing religious literature and engaging interested students in conversation in an open, generally accessible location outside
of the library.
83.
Defendant Downey continues to enforce the
Freedom of Expression Policy against students, including Mr. Uzuegbunam.

70a
84.
Defendant Downey is sued both in her individual and official capacities.
85.
Defendant Terrance Schneider, is, and was
at all times relevant to this Complaint, the Associate
Vice President of Public Safety and Emergency Preparedness/Chief of Police at Georgia Gwinnett College, a public college organized and existing under the
laws of the State of Georgia.
86.
As Chief of Police, Defendant Schneider is
charged with responsibility for enforcing GGC’s policies and practices governing student expression taking place on public property at the College.
87.
As Chief of Police, Defendant Schneider is
responsible for enforcing all GGC policies that govern
student expression, including the policies challenged
herein.
88.
As Chief of Police, Defendant Schneider
oversees all law enforcement officers on campus, as
they also enforce GGC policies that govern student expression.
89.
Defendant Schneider is sued both in his individual and official capacities.
90.
Defendant Corey Hughes, is, and was at all
times relevant to this Complaint, a lieutenant for
Campus Police at GGC.
91.
As a law enforcement officer, Defendant
Hughes is charged with responsibility for enforcing
GGC’s policies and practices governing student expression taking place on public property at the College, including the policies challenged herein.
92.

Defendant Hughes enforced GGC’s policies

71a
and practices regarding student expression on campus, including the policies challenged herein, against
Mr. Uzuegbunam when he stopped Mr. Uzuegbunam
from speaking publicly inside the speech zones on the
GGC campus.
93.
Defendant Hughes is sued both in his individual and official capacities.
94.
Defendant Rebecca A. Lawler, is, and was
at all times relevant to this Complaint, a Community
Outreach and Crime Prevention Sergeant for Campus
Police at GGC.
95.
As a law enforcement officer, Defendant
Lawler is charged with responsibility for enforcing
GGC’s policies and practices governing student expression taking place on public property at the College, including the policies challenged herein.
96.
Defendant Lawler enforced GGC’s policies
and practices regarding student expression on campus, including the policies challenged herein, against
Mr. Uzuegbunam when she stopped Mr. Uzuegbunam
from speaking publicly inside the speech zones on the
GGC campus.
97.
Defendant Lawler is sued both in her individual and official capacities.
98.
Defendant Shenna Perry, is, and was at all
times relevant to this Complaint, a Campus
Safety/Security Officer for Campus Police at GGC.
99.
As a law enforcement officer, Defendant
Perry is charged with responsibility for enforcing
GGC’s policies and practices governing student expression taking place on public property at the College, including the policies challenged herein.

72a
100. Defendant Perry enforced GGC’s Freedom
of Expression Policy against Mr. Uzuegbunam by
stopping him from peacefully distributing religious
literature and engaging interested students in conversation in an open, generally accessible area of campus outside the library.
101. Defendant Perry is sued both in her individual and official capacities.
FACTUAL BACKGROUND
102. GGC is a public college organized and existing under the laws of the State of Georgia and receives funding from the State of Georgia to operate.
103. The College’s campus in Lawrenceville,
Georgia is composed of various publicly-accessible
buildings and outdoor areas, including streets, sidewalks, open-air quadrangles, and park-like lawns.
Copies of two maps of the GGC campus are attached
as Exhibit 1 to this Complaint. A Google Maps satellite view of GGC’s campus is attached as Exhibit 2 to
this Complaint.
104. GGC’s campus is located on 260 acres,
which is approximately 11,325,600 square feet.
105. GGC’s campus has many suitable streets,
sidewalks, open-air quadrangles and plazas, and
park-like lawns where expressive activity will not interfere with or disturb the College’s activities, its
campus environment, or access to its buildings or
sidewalks.
106. For all of the College’s students—and especially for the many who live on campus—the College’s
campus is their town square where they socialize and
engage in a variety of expressive activities.

73a

I.

DEFENDANTS’ UNCONSTITUTIONAL POLICIES
A. DEFENDANTS’ UNCONSTITUTIONAL SPEECH
ZONE POLICY

107. The College regulates student expressive
activity on campus through the Freedom of Expression Policy (“Speech Zone Policy”). A true and accurate copy of Defendants’ Speech Zone Policy is attached as Exhibit 3 to this Complaint.
108. Defendants’ Speech Zone Policy claims that
GGC “is committed to providing a forum for free and
open expression of divergent points of view by students [and] student organizations.” Ex. 3 at 1.
109. But Defendants’ Speech Zone Policy strictly
curtails where students and student organizations
may exercise their First Amendment rights in the outdoor areas of campus.
110. Defendants’ Speech Zone Policy also gives
GGC officials unbridled discretion over whether,
when, and where students and student organizations
may speak and express themselves in the outdoor areas of campus.
111. As detailed in subsequent paragraphs,
Plaintiffs challenge, facially and as-applied, the provisions of Defendants’ Speech Zone Policy that:
x

Restrict student expression to two tiny
areas of campus, see Ex. 3 at 2 (identifying “the concrete area/walkway between
Student Housing and the Student Center or the concrete in front of the Food
Court area, Building A as ‘free speech
expression areas’”); Ex. 3 at 4 (permitting literature distribution only “on a
person-to-person basis in the free speech

74a
expression areas designated above”); see
also infra ¶¶ 113–25, 154–55;
x

Allow student expression in those areas
for only two to four hours per day during
the week and close those areas to student expression entirely on the weekends, see Ex. 3 at 2 (opening the speech
zones “from 11:00 a.m. to 1:00 p.m. and
5:30 p.m. to 7:30 p.m., Monday through
Thursday, and 11:00 a.m. to 1:00 p.m. on
Friday”); see also infra ¶¶ 114–16, 127–
28, 131–32;

x

Require students to get a permit to engage in expression in any other outdoor
location on campus, see Ex. 3 at 2 (“On
occasion upon written request, other areas . . . may be authorized. . . .”); see also
infra ¶¶ 126, 128–30;

x

Require students to get a permit to engage in expression at any time the
speech zones are closed, see Ex. 3 at 2
(“On occasion upon written request, . . .
other times may be authorized. . . .”); see
also infra ¶¶ 127–28, 131–32;

x

Grant Defendants unbridled discretion
to decide on a case-by-case basis which
students and student organizations may
engage in expression outside the speech
zones or during times the speech zones
are closed see Ex. 3 at 2 (“On occasion
upon written request, other areas and
other times may be authorized. . . .”); see
also infra ¶¶ 126–32;

75a
x

Grant Defendants unbridled discretion
to modify the speech zones from time to
time for different speakers, see Ex. 3 at 2
(“[T]he College reserves the right to
modify the free speech areas based on
the operational needs of the institution.”); see also infra ¶¶ 133–35;

x

Require students to seek permission to
utilize the speech zones three days in advance, see Ex. 3 at 2 (“The designated
free speech forms (PDF) must be completed and any publicity materials submitted to the Student Affairs official at
least three (3) business days prior to the
free expression speech, program, event
or gathering in accordance with this policy.”); see also infra ¶¶ 136–39;

x

Grant Defendants unbridled discretion
in deciding who may reserve the speech
zones, see Ex. 3 at 2 (“A designated Student Affairs official is responsible for
reservation scheduling and authorization of the free speech expression areas
in order to accommodate all interested
users.”); see also infra ¶¶ 140–48;

x

Require students to submit to College officials any written materials they want
to distribute for review and grant College officials unbridled discretion in that
review process, see Ex. 3 at 2 (“[A]ny
publicity materials submitted to the Student Affairs official at least three (3)
business days prior to the free expression speech, program, event or gathering

76a
in accordance with this policy.”); Ex. 3 at
3 (“All publicity materials must be submitted with the application form. . . .
Upon authorization, copies of the application form and any publicity material
shall be distributed to the campus Senior Associate Provost for Student Affairs,
the Director of Public Services/Campus
Police, the Office of Public Relations[,]
the Dean of Students[,] and the applicant.”); see also infra ¶¶ 149–53; and
x

Prohibit a student from utilizing the
speech zones again for thirty days after
utilizing them once, even if no one else
want to use them in the meantime, see Ex.
8 at 1 (specifying that “requests received
within 30 days of the last date of use by
an organization and/or individual will be
declined”); see also infra ¶¶ 160–61.

112. Defendants’ Speech Zone Policy states that
it “is applicable to students, student organizations,
faculty, staff and visitors.” Ex. 3 at 1.
113. Defendants Speech Zone Policy designates
two areas as “free speech expression areas,” referred
to hereafter as “speech zones.”
114. The two speech zones are only open eighteen hours per week.
115. The two speech zones are “generally available from 11:00 a.m. to 1:00 p.m. and 5:30 p.m. to 7:30
p.m., Monday through Thursday, and 11:00 a.m. to
1:00 p.m. on Friday.” Ex. 3 at 2.
116. According to Defendants’ Speech Zone Policy, at all other times of the week, the two speech

77a
zones cannot be used for expressive activities without
a permit, though students and others may continue to
access them.
117. The first of the two speech zones is “the concrete area/walkway between Student Housing and
the Student Center.” Ex. 3 at 2. This will be referred
to hereafter as the Sidewalk Speech Zone.
118. The Sidewalk Speech Zone comprises approximately 11,718 square feet.
119. The Sidewalk Speech Zone occupies approximately 0.001% of the College’s campus.
120. The Sidewalk Speech Zone does not include
any of the expansive, grassy, park-like areas along either side of the sidewalk. True and accurate pictures
of the Sidewalk Speech Zone and surrounding areas of
campus are attached as Exhibit 4 to this Complaint.
121. The second of the two speech zones is “the
concrete in front of the Food Court area, Building A.”
Ex. 3 at 2. This will be referred to hereafter as the
Patio Speech Zone, as it encompasses the patio of the
Food Court area.
122. The Patio Speech Zone comprises approximately 0.0004% of the College’s campus.
123. The Patio Speech Zone does not include the
sidewalks extending down either side of the Food
Court area (i.e., Building A). It includes only the patio
area on the westernmost edge of this building. True
and accurate pictures of the Patio Speech Zone and
surrounding areas are attached as Exhibit 5 to this
Complaint.
124. Altogether, the two speech zones set forth in
Defendants’ Speech Zone Policy comprise less than

78a
0.0015% of the College’s campus. A map of the GGC
campus with the two speech zones highlighted in red
is attached to this Complaint as Exhibit 6.
125. The 99.9985% of the College’s campus that
is not included in the “free speech expression areas”
includes a variety of open, generally accessible, parklike areas where students naturally and freely congregate and where students’ expressive activity would
not disrupt College activities and functions (including
classes). True and accurate pictures of some of these
areas of campus that are off-limits to student speech
are attached as Exhibit 7 to this Complaint.
126. If students wish to engage in expressive activities outside of the two tiny speech zones, they
must first submit a written request to College officials
and seek permission from those officials.
127. If students wish to engage in expressive activities outside of the few hours the two tiny speech
zones are open, they must first submit a written request to College officials and seek permission from
those officials.
128. Defendants’ Speech Zone Policy states: “On
occasion upon written request, other areas and other
times may be authorized. . . .” Ex. 3 at 2.
129. Defendants’ Speech Zone Policy contains no
objective and comprehensive guidelines, standards, or
criteria to limit the discretion of Defendants or other
College officials in granting, denying, or modifying
student requests to use areas outside of the two
speech zones for expressive activities.
130. Upon information and belief, Defendants do
not possess any policies that set forth objective or
comprehensive guidelines, standards, or criteria to

79a
limit the discretion of Defendants or other College officials in granting, denying, or modifying student requests to use areas outside of the two speech zones for
expressive activities
131. Defendants’ Speech Zone Policy contains no
objective and comprehensive guidelines, standards, or
criteria to limit the discretion of Defendants or other
College officials in granting, denying, or modifying student requests to engage in expressive activities outside
of the few hours that the two speech zones are open.
132. Upon information and belief, Defendants do
not possess any policies that set forth objective or
comprehensive guidelines, standards, or criteria to
limit the discretion of Defendants or other College officials in granting, denying, or modifying student requests to engage in expressive activities outside of the
few hours that the two speech zones are open.
133. According to Defendants’ Speech Zone Policy, the “College reserves the right to modify the free
speech areas based on the operational needs of the institution.” Ex. 3 at 2.
134. Defendants’ Speech Zone Policy contains no
objective and comprehensive guidelines, standards, or
criteria to limit how or when Defendants or other College officials may modify the two speech zones.
135. Upon information and belief, Defendants do
not possess any policies that set forth objective or
comprehensive guidelines, standards, or criteria to
limit how or when Defendants or other College officials may modify the two speech zones.
136. If students wish to use the two speech zones
for expressive activity, they must first submit a written request to College officials and receive permission

80a
to use those zones.
137. Defendants’ Speech Zone Policy outlines the
“reservation procedures for use of free expression areas.” Ex. 3 at 2 (capitalization altered).
138. Those reservation procedures specify that
“[a]ll requests must follow the appropriate facility reservation process.” Ex. 3 at 2.
139. The “appropriate facility reservation process” means that the “designated free speech forms
(PDF) must be completed and any publicity materials
must be attached and submitted to the Student Affairs official at least three (3) business days prior to
the free expression speech, program, event or gathering in accordance with this policy.” Ex. 3 at 2. A true
and correct copy of the “designated free speech forms”
is attached as Exhibit 8 to this Complaint.
140. According to Defendants’ Speech Zone Policy, a “designated Student Affairs official is responsible for reservation schedule and authorization of the
free speech expression areas.” Ex. 3 at 2.
141. According to Defendants’ Speech Zone Policy, this designated Student Affairs official is charged
with reviewing requests to reserve the speech zones so
as to “accommodate all interested users.” Ex. 3 at 2.
142. Defendants’ Speech Zone Policy contains no
objective and comprehensive guidelines, standards, or
criteria for this designated Student Affairs official to
use when determining how to “accommodate all interested users.”
143. Upon information and belief, Defendants do
not possess any policies that set forth objective or comprehensive guidelines, standards, or criteria for this

81a
designated Student Affairs official to use when determining how to “accommodate all interested users.”
144. Defendants’ Speech Zone Policy contains no
objective and comprehensive guidelines, standards, or
criteria that limit the discretion of this designated
Student Affairs official in granting, denying, or modifying requests to reserve the speech zones.
145. Upon information and belief, Defendants do
not possess any policies that set forth objective or
comprehensive guidelines, standards, or criteria that
limit the discretion of this designated Student Affairs
official in granting, denying, or modifying requests to
reserve the speech zones.
146. Defendants’ Speech Zone Policy notes that
College officials will limit student expression so that
it does “not interfere with the operation of the College
or the rights of others,” and it lists fifteen considerations that all speakers “must meet” (two of which are
challenged in this lawsuit). Ex. 3 at 3–5.
147. Defendants’ Speech Zone Policy does not
provide that these are the only reasons that reservation and permit requests may be denied, it does not
guarantee that requests that satisfy these considerations will be granted, and it does not prohibit College
officials from basing their decisions on other unspecified and unwritten considerations.
148. Thus, the Speech Zone Policy allows Defendants to deny a student’s request for a reservation
or permit even if it satisfied all fifteen considerations.
149. One of the fifteen considerations allows Defendants’ to review the content and viewpoint of a student’s expression.

82a
150. According to the Policy, “[a]ll publicity materials must be submitted with the application form.”
Ex. 3 at 3.
151. If Defendants approve a student’s request
to engage in expressive activities, the Speech Zone
Policy specifies that “copies of the application form
and any publicity material shall be distributed to the
campus Senior Associate Provost for Student Affairs,
the Director of Public Services/Campus Policy, the Office of Public Relations[,] the Dean of Students[,] and
the applicant.” Ex. 3 at 3.
152. Defendants’ Speech Zone Policy contains no
objective and comprehensive guidelines, standards, or
criteria to limit the discretion of Defendants or other
College officials when evaluating the written materials submitted along with a request to utilize the
speech zones.
153. Upon information and belief, Defendants do
not possess any policies that set forth objective and
comprehensive guidelines, standards, or criteria to
limit the discretion of Defendants or other College officials when evaluating the written materials submitted
along with a request to utilize the speech zones.
154. Another of the fifteen considerations makes
it clear that students may only distribute literature in
the two speech zones and only if they reserve those
speech zones.
155. According to Defendants’ Speech Zone Policy, “[n]on-commercial pamphlets, handbills, circulars,
newspapers, magazines and other written materials
may be distributed on a person-to-person basis in the
free speech expression areas designated above, as long
as the reservation procedures for use of the free

83a
expression areas have been completed.” Ex. 3 at 4.
156. Other than prohibiting the use of “microphones, bullhorns or any sound amplification device,”
Ex. 3 at 3, Defendants’ Speech Zone Policy places no
limits on the volume of student expression.
157. Defendants’ Speech Zone Policy contains no
deadlines or timetables in which College officials
must respond to a permit or reservation request.
158. Defendants’ Speech Zone Policy does not require the “designated Student Affairs official” to provide students the reason any request for a reservation
or permit is denied.
159. If a student is displeased with the decision
of the “designated Student Affairs official,” Defendants’ Speech Zone Policy allows the student to appeal
that decision to the Dean of Students (i.e., Defendant
Jiminez), whose decision is final. Ex. 3 at 2.
160. Once a student has utilized a speech zone
for expressive activity, Defendants prohibit him from
using those zones again for at least thirty days, even
if no one else has reserved the speech zones during
that period of time.
161. According to Defendants’ “Free Speech Area
Request Form,” “requests received within 30 days of
the last date of use by an organization and/or individual will be declined.” Ex. 8 at 1.
B. DEFENDANTS’ UNCONSTITUTIONAL SPEECH
CODE POLICY
162. Defendants’ regulate student conduct
through their Student Handbook. This document contains comprehensive student conduct guidelines that
regulate the bounds of permissible speech and expression on campus, including GGC’s Student Code of

84a
Conduct. A true, correct, and complete copy of GGC’s
Student Handbook 2016–2017, which includes the
Student Code of Conduct on pages 23–39, is attached
as Exhibit 9 to this Complaint.
163. All students are required to comply with
GGC’s Student Code of Conduct both on and off campus.
164. GGC’s Student Code of Conduct states that
its conduct regulations shall apply to conduct that “occur[s] on GGC property or at GGC-sponsored or affiliated events, or otherwise violate GGC’s student conduct
policies at non-GGC sponsored events.” Ex. 9 at 25.
165. GGC’s Student Code of Conduct contains a
list of actions that “are prohibited and constitute a violation of the Georgia Gwinnett College Student Code
of Conduct.” Ex. 9 at 25.
166. Any student who commits one of these violations exposes himself to disciplinary action.
167. GGC’s Student Code of Conduct states that
“[a]ny student, club or organization found to have committed a violation of these conduct regulations is subject to the sanctions outlined in this Code.” Ex. 9 at 25.
168. GGC’s Student Code of Conduct prohibits
students from engaging in “disorderly conduct.” Ex. 9
at 26.
169. The definition of “disorderly conduct” in
GGC’s Student Code of Conduct includes elements
that prohibit or restrict expression that is protected
by the First Amendment.
170. GGC’s Student Code of Conduct defines
“disorderly conduct” to include “behavior which disturbs the peace and/or comfort of person(s).” Ex. 9 at
26. This provision of GGC’s Student Code of Conduct

85a
will hereafter be referred to as Defendants’ Speech
Code or Defendants’ Speech Code Policy, and Plaintiffs challenge this provision facially and as-applied.
171. Defendants’ Speech Code contains no objective or comprehensive guidelines, standards, or criteria to limit the discretion of Defendants or other College officials when deciding whether specific expression “disturbs the peace and/or comfort of person(s).”
172. Upon information and belief, Defendants do
not possess any policies that set forth objective or
comprehensive guidelines, standards, or criteria to
limit the discretion of Defendants or other College officials when deciding whether specific expression “disturbs the peace and/or comfort of person(s).”
173. Defendants’ definition of “disorderly conduct,” including their Speech Code, places no limits on
the volume of student expression.
174. When enforcing their Speech Code, Defendants do not exempt expression protected by the First
Amendment from disciplinary action.
175. According to GGC’s Student Code of
Conduct, Defendants merely “consider[ ]” students’
First Amendment freedoms when “investigating and
reviewing these types of alleged conduct violations.”
Ex. 9 at 27.
176. Defendants’ Speech Code prohibits students, including Mr. Uzuegbunam and Mr. Bradford,
from engaging in any expression that happens to offend, disturb, or discomfort anyone who witnesses it.
177. Students run the risk of disciplinary action—ranging from a reprimand to expulsion—if they
engage in any form of expression that runs afoul of

86a
Defendants’ Speech Code. See Ex. 9 at 36.
178. As students, Mr. Uzuegbunam’s and Mr.
Bradford’s expression are governed by Defendants’
Speech Code both on and off campus.
179. Mr. Uzuegbunam and Mr. Bradford desire to
engage in conversations and other expressive activities,
both on and off campus, that cover a range of social,
cultural, political, and/or religious topics that some
might find offensive, disturbing, or discomforting.
180. Defendants have enforced their Speech
Code against Mr. Uzuegbunam.
181. Defendants Hughes and Lawler enforced
this Speech Code against Mr. Uzuegbunam when he
was engaging in religious expression in the Patio
Speech Zone, as discussed in more detail later.
182. Upon information and belief, Defendants
Hughes and Lawler enforced the Speech Code at the
direction of Defendants Dowell and Schneider.
183. Mr. Uzuegbunam fears that his expression
will expose him to further enforcement and disciplinary actions due to Defendants’ Speech Code.
184. Being aware of Defendants’ Speech Code
and knowing how Defendants enforced it against Mr.
Uzuegbunam, Mr. Bradford fears that the expression
in which he desires to engage would expose him to enforcement and disciplinary actions under that Speech
Code, and therefore, he has not spoken in these ways
as not to violate the policies even though he immediately wishes to do so.
C. DEFENDANTS’ STUDENT CODE OF CONDUCT
185. It is GGC’s policy and practice to enforce its
Speech Zone Policy against its students.

87a
186. Defendants implement and enforce their
Speech Zone Policy in part through GGC’s Student
Code of Conduct.
187. It is GGC’s policy that any student who fails
to comply with its regulations and guidelines regarding student expression violates the Student Code of
Conduct.
188. As detailed in subsequent paragraphs,
Plaintiffs challenge, facially and as-applied, the provisions of GGC’s Student Code of Conduct that implement Defendants’ Speech Zone policy, namely the provisions that:
x

Prohibit students from distributing literature on campus without first getting
permission from College officials, see Ex.
9 at 26 (defining “disorderly conduct” to
include “[c]irculating any advertising
media without approval from proper College officials or in a manner that violates
or is contrary to the policies of Georgia
Gwinnett College.”); see also infra ¶¶
189–91, 195–96; and

x

Prohibit students from using the open,
generally accessible areas of the campus
for peaceful expression without first getting authorization from College officials,
see Ex. 9 at 29 (prohibiting students
from “[m]aking or attempting to make
unauthorized use of College facilities.”);
see also infra ¶¶ 192–94, 196.

189. GGC’s Student Code of Conduct also defines
“disorderly conduct” to include “[c]irculating any advertising media without approval from proper College

88a
officials or in a manner that violates or is contrary to
the policies of Georgia Gwinnett College.” Ex. 9 at 26.
190. When enforcing this provision of the Student Code of Conduct, Defendants do not exempt
expression protected by the First Amendment from
disciplinary action.
191. According to GGC’s Student Code of Conduct, Defendants merely “consider[ ]” students’ First
Amendment freedoms when “investigating and reviewing these types of alleged conduct violations.” Ex.
9 at 27.
192. Another of the “violations” of GGC’s Student
Code of Conduct is “[m]aking or attempting to make
unauthorized use of College facilities.” Ex. 9 at 29.
Plaintiffs challenge this provision as it applies to student expression in the outdoor, generally accessible
areas of campus.
193. It is GGC’s policy—as expressed in the Student Code of Conduct—that students who engage in
expressive activities outside of the two speech zones
have violated the provision of the Student Code of
Conduct that prohibits “making or attempting to
make unauthorized use of College facilities.”
194. It is GGC’s policy—as expressed in the Student Code of Conduct—that students who engage in
expressive activities without reserving one of the two
speech zones have violated the provision of the Student
Code of Conduct that prohibits “making or attempting
to make unauthorized use of College facilities.”
195. It is GGC’s policy—as expressed in the Student Code of Conduct—that students who distribute
written materials on campus without first submitting

89a
them to College officials and obtaining a permit violate the provision of the Student Code of Conduct that
prohibits “[c]irculating any advertising media without approval from proper College officials or in a manner that violates or is contrary to the policies of Georgia Gwinnett College.”
196. Students who violate GGC’s Student Code
of Conduct expose themselves to a variety of disciplinary sanctions, ranging from a reprimand to possible
expulsion. See Ex. 9 at 36.

II.

DEFENDANTS’ REFUSAL TO CHANGE THEIR
UNCONSTITUTIONAL SPEECH ZONE POLICY

197. On June 28, 2013, Plaintiffs’ counsel sent an
informational letter to GGC officials, informing them
that the College maintained and enforced policies
that violated the First Amendment rights of its students. A true and correct copy of this letter is attached
as Exhibit 10 to this Complaint.
198. One of the two policies highlighted in the
letter Plaintiffs’ counsel sent to GGC officials was Defendants’ Speech Zone Policy.
199. Plaintiffs’ counsel explained at significant
length the constitutional infirmities of Defendants’
Speech Zone Policy.
200. Plaintiffs’ counsel offered to assist GGC officials in revising Defendants’ Speech Zone Policy so
that it would comply with the First Amendment in the
hopes that “no need for litigation to protect student
expression will arise.” Ex. 10 at 4.
201. None of the GGC officials addressed on this
letter, including GGC’s president and general counsel, ever responded to this letter.

90a
202. In the more than three years since Plaintiffs’ counsel sent that letter, none of the Defendants
have taken any steps to revise their Speech Zone Policy to protect and respect the First Amendment rights
of their students.
203. In the more than three years since Plaintiffs’ counsel sent that letter, Defendants have maintained and enforced their Speech Zone Policy to limit
and curtail student expression on campus.

III. DEFENDANTS’ UNCONSTITUTIONAL SILENCING
OF PLAINTIFFS

A. DEFENDANTS
RESTRICT
LITERATURE
DISTRIBUTION & CONVERSATIONS
204. In late July 2016, Mr. Uzuegbunam decided
that he needed to inform his fellow students and other
passersby of their need for salvation through Jesus
Christ by distributing religious literature in the open,
outdoor areas of the GGC campus.
205. Mr. Uzuegbunam desired to communicate
his religious views to his fellow classmates and instructors at GGC because of his sincerely held religious beliefs and because he practices his religion by
doing so.
206. To communicate his views, Mr. Uzuegbunam stood in the expansive concrete plaza just outside the library and distributed religious literature to
the passing students and other individuals who were
willing to accept it.
207. Mr. Uzuegbunam also engaged willing students and other passing individuals in conversation,
explaining to them that they could find salvation only
through Jesus Christ.

91a
208. Mr. Uzuegbunam was careful to stand in an
area of the plaza that would not block the entrances
and exits of any buildings, block pedestrian traffic, or
create any congestion. He stood over forty feet away
from the entrance to the library.
209. Mr. Uzuegbunam chose to utilize this plaza
because it is a central location on GGC’s campus near
the library, and thus, it is a hub of student pedestrian
traffic.
210. Students commonly walk through this plaza
and speak to one another, often stopping friends and
classmates passing through to speak to them about
their classes, extracurricular activities, and any number of other topics of conversation.
211. Students also frequently utilize this plaza
to play music while they sit on the benches provided
in this area. This music is played using amplification,
and often at a high volume.
212. When Mr. Uzuegbunam was distributing
his literature, he was not engaging in any form of expression that would have disturbed anyone inside the
library, as he was speaking in nothing louder than an
average, conversational tone of voice.
213. When Mr. Uzuegbunam was distributing
his religious literature, he did not force his literature
on anyone who was unwilling to take it, harass those
who were not interested, or chase anyone down so
that they would take it.
214. When Mr. Uzuegbunam was engaging people in conversation, he did not force anyone to participate in a conversation, berate those who were not interested in conversing, or denigrate those who disagreed with him.

92a
215. A short time after Mr. Uzuegbunam began
his expressive activities, Defendant Perry stopped him.
216. Defendant Perry explained that Mr. Uzuegbunam was not allowed to distribute religious literature at that location.
217. Defendant Perry instructed Mr. Uzuegbunam to come inside the library and speak with Defendant Downey to learn more about the limits on his
expressive activities.
218. Mr. Uzuegbunam complied with Defendant
Perry’s instructions and sought out Defendant Downey.
219. Defendant Downey confirmed Defendant
Perry’s statement that Mr. Uzuegbunam could not
distribute religious literature outside the library.
220. Defendant Downey explained that Mr.
Uzuegbunam could not distribute any written materials outside of GGC’s two speech zones.
221. During this conversation, Defendant
Downey pulled up Defendants’ Speech Zone Policy on
the computer and explained it to Mr. Uzuegbunam.
222. In the process, Defendant Downey made it
clear that Mr. Uzuegbunam’s expressive activities violated Defendants’ Speech Zone Policy and that he
was stopped from continuing those activities because
of Defendants’ Speech Zone Policy.
223. Defendant Downey instructed Mr. Uzuegbunam that he could get further information about Defendants’ Speech Zone Policy and the restrictions on his
expression by going to the Office of Student Integrity.
224. Shortly after this conversation, Mr. Uzuegbunam and an acquaintance visited the Office of Student Integrity and spoke with Defendant Dowell.

93a
225. Mr. Uzuegbunam recounted how Defendants Perry and Downey had stopped him from distributing religious literature outside the library.
226. Defendant Dowell confirmed that Defendants’ Speech Zone Policy prohibits Mr. Uzuegbunam
from distributing religious literature outside of the library because that location is not within one of the
two speech zones.
227. Defendant Dowell explained that religious
literature constitutes “written materials” under Defendants’ Speech Zone Policy.
228. Defendant Dowell explained that, due to
Defendants’ Speech Zone Policy, Mr. Uzuegbunam
must reserve one of the speech zones before he can
distribute any religious literature.
229. In saying this, Defendant Dowell referenced
and enforced the provision of Defendants’ Speech
Zone Policy that reads: “Non-commercial pamphlets,
handbills, circulars, newspapers, magazines and
other written materials may be distributed on a person-to-person basis in the free speech expression areas designated above, as long as the reservation procedures for use of the free expression areas have been
completed.” Ex. 3 at 4.
230. Mr. Uzuegbunam’s acquaintance then
asked Defendant Dowell if Mr. Uzuegbunam could
continue engaging interested individuals in conversations about his religious views while standing outside
of the two speech zones.
231. In response, Defendant Dowell shook her
head and stated that Defendants’ Speech Zone Policy
prohibits such conversations outside of the speech
zones.

94a
232. Defendant Dowell also explained that Mr.
Uzuegbunam would have to reserve one of the two
speech zones before engaging in any such religious
conversations on the GGC campus.
233. In saying this, Defendant Dowell was enforcing Defendants’ Speech Zone Policy against Mr.
Uzuegbunam.
234. At the end of this conversation, Mr. Uzuegbunam and his acquaintance thanked Defendant
Dowell for her information and left the office.
235. After all of these conversations, Mr. Uzuegbunam stopped trying to distribute literature and engage people in conversations outside the library for
fear that he would be disciplined for violating Defendants’ Speech Zone Policy and the analogous provisions
of the Student Code of Conduct.
236. If it were not for Defendants’ Speech Zone
Policy, the analogous provisions of the Student Code
of Conduct, and Defendants’ actions enforcing these
policies, Mr. Uzuegbunam would continue his expressive activities outside the library.
237. If it were not for Defendants’ Speech Zone
Policy, the analogous provisions of the Student Code
of Conduct, and Defendants’ actions enforcing these
policies, Mr. Bradford would immediately engage in
similar expressive activities outside the library.
B. DEFENDANTS RESTRICT OPEN-AIR SPEAKING
238. In August 2016, Mr. Uzuegbunam again decided that he needed to inform his fellow students and
other passersby of their need for salvation through
Jesus Christ by expressing these religious beliefs on
campus through open-air speaking.

95a
239. Mr. Uzuegbunam desired to communicate
his religious views to his fellow classmates and instructors at GGC, as well as other passersby, because
of his sincerely-held religious beliefs and because he
practices his religion by doing so.
240. After having his efforts to distribute religious literature outside the library thwarted, Mr.
Uzuegbunam sought to reserve a speech zone in order
to share his religious beliefs.
241. On or about August 22, 2016, Mr. Uzuegbunam visited the Office of Student Integrity to reserve the speech zones.
242. The official at the front desk, Mrs. Charlisa
Powell Hall, asked Mr. Uzuegbunam to indicate
which days he wanted to reserve the speech zone and
which speech zone he wanted to reserve.
243. Mr. Uzuegbunam reserved the Patio Speech
Zone for August 25, 2016; September 8, 2016; and
September 22, 2016.
244. During the conversation, Mr. Uzuegbunam
explained that he wanted to use the Patio Speech
Zone to share his religious beliefs with the people congregated in that area.
245. During the conversation, Mr. Uzuegbunam
explained that he was not acting as a member of a
student organization but that one to three people
would accompany him as he shared his religious beliefs in the Patio Speech Zone.
246. Mr. Uzuegbunam completed Defendants’
“Free Speech Area Request Form,” attached copies of
two tracts he intended to distribute, and submitted the
form to Mrs. Hall. A true and correct copy of the “Free

96a
Speech Area Request Form” that Mr. Uzuegbunam
completed is attached as Exhibit 11 to this Complaint.
247. Mrs. Hall stapled the two tracts to the form
Mr. Uzuegbunam submitted, approved his request,
and signed the form confirming his reservation of the
Patio Speech Zone.
248. On August 25, 2016, Mr. Uzuegbunam went
to the Patio Speech Zone to communicate his religious
views by speaking publicly and distributing religious
literature.
249. The Patio Speech Zone is the patio area outside the Food Court, with tables and benches distributed at various points where students routinely congregate to eat and socialize. See Ex. 5 (picturing the area).
250. Mr. Uzuegbunam was careful to stand in an
area of the Patio Speech Zone that did not block the
entrances and exits to the building, block pedestrian
traffic, or create any congestion.
251. Mr. Uzuegbunam stood on a small stool and
began publicly speaking about the Gospel to the students and other individuals in the Patio Speech Zone
at that time.
252.
friend.

Mr. Uzuegbunam was accompanied by a

253. Mr. Uzuegbunam’s friend prayed and distributed religious literature while Mr. Uzuegbunam
shared his religious beliefs.
254. Mr. Uzuegbunam chose to utilize the Patio
Speech Zone because Defendants require him to use a
speech zone.
255. When Mr. Uzuegbunam began to speak,
many students were lingering in the Patio Speech

97a
Zone, eating, studying, or visiting with each other on
the tables in the area.
256. When Mr. Uzuegbunam spoke in the Patio
Speech Zone, he did not carry signs or utilize amplification. He merely spoke loud enough to be heard, using
his unaided voice, for about fifteen or twenty minutes
to the students congregated in the area at the time.
257. When Mr. Uzuegbunam spoke in the Patio
Speech Zone, he did not utilize inflammatory rhetoric
or personally attack any individual.
258. Mr. Uzuegbunam began by discussing the
brevity of life and how all men and women have fallen
short of God’s commands. He continued by explaining
how Jesus Christ had come to earth to die on the cross
and rise again from the dead in order to provide men
and women the only means of obtaining salvation and
eternal life. He also explained how this gift of eternal
life is available to all by God’s grace and that it is the
only way to avoid the penalty for our sins.
259. After Mr. Uzuegbunam had been speaking
for about twenty minutes, Defendant Hughes drove
up and approached him, asking him to stop speaking
so that the two of them could talk.
260. Mr. Uzuegbunam immediately complied
with Defendant Hughes’ instructions.
261. Defendant Hughes explained that he had
come to the scene because “we just got some calls on
you” and asked what Mr. Uzuegbunam was doing.
262. Mr. Uzuegbunam explained that he was
“preaching the love of Christ” and that he had reserved the Patio Speech Zone for this purpose with
the Office of Student Integrity.

98a
263. After asking Mr. Uzuegbunam to provide his
first and last names, Defendant Hughes asked Mr.
Uzuegbunam to produce his student identification card.
264. Mr. Uzuegbunam complied with Defendant
Hughes’ instructions.
265. Defendant Hughes took this information
and returned to his patrol vehicle.
266. While in his patrol vehicle, Defendant
Hughes called the Office of Student Integrity and
spoke with an official there.
267. Upon information and belief, the official at
the Office of Student Integrity who spoke with Defendant Hughes either was Defendant Dowell or acted
at the direction of Defendant Dowell.
268. Approximately ten minutes later, Defendant
Hughes returned and informed Mr. Uzuegbunam that
he could not speak publicly in the Patio Speech Zone.
269. As he returned, Defendant Hughes was accompanied by Defendant Lawler.
270. Defendant Hughes explained that the Office
of Student Integrity claimed that Mr. Uzuegbunam
had only reserved the Patio Speech Zone in order to
distribute literature and have one-on-one conversations with individuals.
271. Defendant Hughes also told Mr. Uzuegbunam that the only reason Defendant Hughes interrupted Mr. Uzuegbunam’s open-air speaking was because GGC officials had received calls from people
complaining about his expression.
272. Defendant Hughes instructed Mr. Uzuegbunam to stop speaking publicly and to restrict his
expressive activities to distributing literature and

99a
having one-on-one conversations with individuals.
273. Mr. Uzuegbunam explained that he had
clearly informed the Office of Student Integrity that he
was reserving the Patio Speech Zone in order to share
his religious beliefs with the people congregated there.
274. Defendant Hughes responded by reiterating
what the Office of Student Integrity had told him.
275. Because Mr. Uzuegbunam had allegedly reserved the Patio Speech Zone for select forms of expression (i.e., literature distribution and one-on-one
conversations), Defendant Hughes declared that he
could not use it for another, closely related form of expression (i.e., open-air speaking) because he had not
obtained permission to conduct that additional mode
of expression.
276. Defendant Hughes stated that Mr. Uzuegbunam’s right to free speech in the Patio Speech Zone
was limited to having conversations with people and
distributing literature and that it did not include the
right to engage in some form of open-air, public address.
277. Defendant Hughes stated that Mr. Uzuegbunam’s speaking in the Patio Speech Zone constituted “disorderly conduct” because it was disturbing
the peace and tranquility of individuals who were congregating in that area.
278. Defendant Hughes stated that Mr. Uzuegbunam’s speaking was disturbing the peace and tranquility of individuals who were congregating in that
area because it had generated complaints.
279. In saying this, Defendant Hughes enforced
Defendants’ Speech Code against Mr. Uzuegbunam.

100a
280. Defendant Hughes instructed Mr. Uzuegbunam to go back to the Office of Student Integrity
and clarify whether he could use the Patio Speech
Zone for open-air speaking.
281. Defendant Hughes also stated that he anticipated receiving additional complaints about Mr.
Uzuegbunam’s open-air speaking.
282. Defendant Hughes stated that if Mr. Uzuegbunam continued speaking publicly in the Patio
Speech Zone, he could face discipline under the Student Code of Conduct, particularly if GGC officials received additional complaints about his speaking.
283. Defendant Hughes stated that if Mr. Uzuegbunam’s friend started speaking publicly in the Patio
Speech Zone, he could be prosecuted for “disorderly
conduct.”
284. Defendant Hughes instructed Mr. Uzuegbunam and his friend to “respect the community” by
ceasing any efforts to share their religious beliefs
through open-air speaking in the Patio Speech Zone.
285. Mr. Uzuegbunam noted that GGC has allowed other events and speakers to use amplified
sound, both inside and outside the speech zones, without interference. Many of these speakers and events
have used offensive language (including the broadcasting of vulgar, lewd, and obscene music using amplification), but were still allowed to continue expressing their message.
286. Defendant Hughes responded by saying
that Mr. Uzuegbunam had an obligation to comply
with GGC policies, but did not identify any policies
that Mr. Uzuegbunam had allegedly violated.

101a
287. At this point, Defendant Lawler also stated
that Mr. Uzuegbunam’s open-air speaking in the Patio Speech Zone constituted disorderly conduct.
288. Defendant Lawler stated that Mr. Uzuegbunam’s open-air speaking in the Patio Speech Zone
would constitute “disorderly conduct” because it was
disturbing people’s peace and tranquility, as shown
by the complaints GGC officials received.
289. Defendant Lawler stated that Mr. Uzuegbunam’s open-air speaking was “disorderly conduct”
because “people are calling us because their peace and
tranquility is being disturbed and we’ve asked you to
stop.”
290. Defendant Lawler stated that the mere fact
that someone complains about expression converts
that expression into disorderly conduct.
291. In saying this, Defendant Lawler enforced
Defendants’ Speech Code against Mr. Uzuegbunam.
292. Defendant Hughes then instructed Mr.
Uzuegbunam that he should cease speaking publicly
in the Patio Speech Zone because it was not an effective method of communicating his message.
293. Defendant Hughes noted that members of
the Church of Jesus Christ of Latter-Day Saints
(“LDS”) regularly visit the GGC campus and get approval to express their religious views on campus.
294. Defendant Hughes noted that members of
the LDS church spread their religious views through
one-on-one conversations, not through open-air
speaking.
295. Defendant Hughes stated that Mr. Uzuegbunam should communicate his religious views using

102a
the same methods that members of the LDS Church
uses, rather than through speaking publicly.
296. Defendant Hughes observed that GGC officials do not receive complaints about the activities of
members of the LDS Church when they express their
religious viewpoints.
297. Defendant Hughes summarized the conversation by ordering Mr. Uzuegbunam to stop speaking
publicly and to go back to the Office of Student Integrity to get permission to resume speaking publicly.
298. Defendant Hughes reiterated that if Mr.
Uzuegbunam ignored these instructions, he could be
disciplined under the Student Code of Conduct and
other GGC policies.
299. Defendant Hughes also reiterated that if
Mr. Uzuegbunam did not want to return to the Office
of Student Integrity, he needed to confine his expressive activities to literature distribution and one-onone conversations.
300. Mr. Uzuegbunam questioned whether returning to the Office of Student Integrity would serve
any purpose because even if that office authorized him
to speak publicly, people could still call with complaints,
which would prompt further interference from Defendant Hughes, Defendant Lawler, and their colleagues.
301. Defendant Hughes responded by saying that
he did not think open-air speaking would be approved
in the Patio Speech Zone “because it disturbs people.”
302. Defendant Hughes concluded the conversation by stating again that Mr. Uzuegbunam’s speech
would qualify as “disorderly conduct” and by ordering
him again to stop speaking publicly and to revert to

103a
literature distribution and one-on-one conversations.
303. After Defendant Hughes left, Mr. Uzuegbunam and his friend left the Patio Speech Zone.
304. After leaving the Patio Speech Zone, Mr.
Uzuegbunam went to the Office of Student Integrity
and spoke with Defendant Dowell.
305. During the conversation, Defendant Dowell
stated that it is a violation of GGC policy for anyone
to express a “fire and brimstone message” on campus,
even within the speech zones.
306. Upon information and belief, this prohibition on “fire and brimstone messages” would also prohibit students from conveying such messages, however they might be defined, to fellow students in private, one-on-one conversations.
307. Mr. Uzuegbunam has frequently observed a
percussion group that plays its drums and other instruments very loudly, especially as it utilizes amplification, approximately once a week outside Building
B on campus.
308. Building B is not within either of the two
speech zones on campus.
309. During his conversation with Defendant
Dowell, Mr. Uzuegbunam referenced this percussion
group and how it was permitted to perform without
hindrance from GGC.
310. Defendant Dowell responded by saying that
the percussion group was “definitely in the wrong”
and should not have been performing.
311. Upon information and belief, when Defendant Dowell said that the percussion group was “definitely in the wrong,” it was because the group did not

104a
obtain a permit before engaging in these expressive
activities, because the group was using amplification,
or both.
312. Upon information and belief, no GGC official
has ever interrupted this percussion group or required
it to stop performing its music, even though it is outside of the two speech zones and uses amplification.
313. Mr. Uzuegbunam has frequently observed
representatives of the LDS church distribute literature, engage students in conversation about their religious beliefs, and conduct other forms of religious expression, both inside and outside the speech zones.
314. Upon information and belief, these representatives of the LDS church did not obtain a permit
before engaging in some or all of these expressive activities.
315. Upon information and belief, no GGC official has ever required these representatives of the
LDS church to stop their religious expression, even
when it was outside of the two speech zones.
C. IMPACT OF DEFENDANTS’
ACTIONS ON PLAINTIFFS

POLICIES

&

316. Since Defendants stopped Mr. Uzuegbunam
from distributing literature outside of the speech
zones in July 2016, Mr. Uzuegbunam and Mr. Bradford have not attempted to speak publicly in any open,
outdoor, generally accessible areas of campus that are
outside of the two speech zones.
317. Since Defendants stopped Mr. Uzuegbunam
from distributing literature outside of the speech
zones in July 2016, Mr. Uzuegbunam and Mr. Bradford have curtailed, restricted, and limited any efforts
to share religious literature with fellow students in

105a
any open, outdoor, generally accessible areas of campus that are outside of the two speech zones.
318. Since Defendants Hughes and Lawler
stopped Mr. Uzuegbunam from speaking publicly in the
Patio Speech Zone, Mr. Uzuegbunam and Mr. Bradford
have not attempted to engage in open-air speaking or
other expressive activities in the speech zones.
319. Mr. Uzuegbunam and Mr. Bradford desire
to resume freely using open, outdoor, generally accessible areas of the GGC campus that are outside of the
two tiny speech zones for expressive activities, including literature distribution, at the earliest opportunity.
320. Mr. Uzuegbunam desires to resume his
open-air speaking both in the speech zones and in
other open, outdoor, generally accessible areas of the
GGC campus at the earliest opportunity.
321. Mr. Bradford desires to engage in open-air
speaking both in the speech zones and in other open,
outdoor, generally accessible areas of the GGC campus at the earliest opportunity.
322. Mr. Uzuegbunam would like to continue
speaking publicly not only in the speech zones, but
also in other open, outdoor areas of campus that are
generally open to students.
323. Mr. Bradford would like to speak publicly not
only in the speech zones, but also in other open, outdoor
areas of campus that are generally open to students.
324. Mr. Uzuegbunam and Mr. Bradford would
like to use the open, outdoor, generally accessible areas of campus for expressive activities, even at times
when the two tiny speech zones are closed.

106a
325. For example, Mr. Uzuegbunam and Mr.
Bradford would like to speak to different groups of
students by conducting expressive activities in the
open, outdoor, generally accessible areas of campus,
including the following:
x

The expansive lawns and green space
bordered by Buildings B, the Student
Center (i.e., Building E), the library (i.e.,
Building L);

x

The patios and green spaces just north of
Building H;

x

The sidewalks and pedestrian pathways
between the library (i.e., Building L) and
the Food Court (i.e., Building A);

x

The lawns and between Buildings B and
C; and

x

The lawns to the east of Building B.

See Exs. 1–2, 6–7.
326. Each of these locations is outside of the
speech zones set forth in Defendants’ Speech Zone
Policy.
327. Mr. Uzuegbunam and Mr. Bradford desire
to engage in peaceful expressive activities on campus—including public oral communication—without
first seeking permission to do so from GGC three days
in advance and without agreeing to limit their activities to the speech zones or methods of communication
that GGC officials specify, but they have not done so
for fear of punishment.
328. Mr. Uzuegbunam and Mr. Bradford desire
to engage in peaceful literature distribution without
first seeking permission to do so from GGC three days

107a
in advance and without agreeing to limit their activities to the speech zones GGC officials specify, but they
have limited these activities for fear of punishment.
329. Since July 2016, Mr. Uzuegbunam has not
attempted to speak publicly in the open, outdoor, generally accessible areas of the GGC campus that are
outside of the two speech zones because GGC policies
prohibit these activities and because numerous GGC
officials, including Defendants, have enforced those
policies against him. Thus, he would risk disciplinary
action if he were to engage in such activities in those
locations.
330. Likewise, Mr. Bradford has not attempted
to speak publicly in the open, outdoor, generally accessible areas of the GGC campus that are outside of
the two speech zones because he is aware that Defendants’ policies prohibit these activities and that
numerous GGC officials, including Defendants, have
enforced these policies. Thus, he would risk disciplinary action if he were to engage in such activities in
those locations.
331. Since July 2016, Mr. Uzuegbunam has
greatly curtailed, restricted, and limited his efforts to
engage in other expressive activities (especially literature distribution) in the open, outdoor, generally accessible areas of the GGC campus that are outside of
the two speech zones because GGC policies prohibit
these activities and because numerous GGC officials,
including Defendants, have enforced those policies
against him. Thus, he would risk disciplinary action,
including possible expulsion, if he were to engage in
such activities in those locations.

108a
332. Likewise, Mr. Bradford has curtailed, restricted, and limited his efforts to engage in other expressive activities (especially literature distribution)
in the open, outdoor, generally accessible areas of the
GGC campus that are outside of the two speech zones
because he is aware that Defendants’ policies prohibit
these activities and that numerous GGC officials, including Defendants, have enforced these policies.
Thus, he would risk disciplinary action, including possible expulsion, if he were to engage in such activities
in those locations.
333. Since approximately August 25, 2016, Mr.
Uzuegbunam has not attempted to speak publicly inside the speech zones because GGC policies prohibit
these activities if someone in the area happens to complain and because numerous GGC officials, including
Defendants, have enforced those policies against him.
Thus, he would risk disciplinary action if he were to
engage in such expression in those speech zones.
334. Likewise, Mr. Bradford has not attempted
to speak publicly inside the speech zones because he
is aware that Defendants’ policies prohibit these activities if someone in the area happens to complain
and that numerous GGC officials, including Defendants, have enforced these policies. Thus, he would risk
disciplinary action if he were to engage in such expression in those speech zones.
335. Since July 2016, Mr. Uzuegbunam has
greatly curtailed, restricted, and limited any efforts to
engage in any form of spontaneous expressive activities because GGC policies state that he would expose
himself to disciplinary action, including possible expulsion, if he engaged in these activities without requesting permission three days in advance from GGC

109a
officials and without obtaining that permission.
336. Likewise, Mr. Bradford has curtailed, restricted, and limited any efforts to engage in any form
of spontaneous expressive activities because GGC policies state that he would expose himself to disciplinary action, including possible expulsion, if he engaged in these activities without requesting permission three days in advance from GGC officials and
without obtaining that permission.
337. Defendants’ Speech Code and their enforcement of it against Mr. Uzuegbunam burdens Mr.
Uzuegbunam’s and Mr. Bradford’s free speech because they are prohibited from saying anything that
might offend, disturb, or discomfort anyone who happens to hear them lest they be punished for “disorderly conduct.”
338. Defendants’ Speech Zone Policy, related
provisions of GGC’s Student Code of Conduct, and
their enforcement of these policies against Mr. Uzuegbunam burdens Mr. Uzuegbunam’s and Mr. Bradford’s speech for multiple reasons.
339. Mr. Uzuegbunam and Mr. Bradford want to
speak publicly, discuss religious issues, and distribute religious literature while they stand on public
ways and open areas on GGC’s campus without first
having to obtain permission from GGC officials and
without having to confine their activities to one of two
speech zones.
340. Mr. Uzuegbunam’s and Mr. Bradford’s
speech is further frustrated because they cannot
speak publicly or distribute literature at GGC until
they first request permission from GGC officials three
days in advance, restrict their activities to the speech

110a
zone, and comply with any other restrictions GGC officials impose.
341. The permit requirement, in and of itself, is
unduly burdensome as it requires three days advanced notice for processing.
342. If Mr. Uzuegbunam or Mr. Bradford learns
of breaking news and wants to share his views about
that news with fellow students by speaking publicly,
engaging interested passersby in conversations, or
distributing literature outside the two speech zones,
Defendants’ Speech Zone Policy prohibits him from
doing so.
343. It is repugnant to Mr. Uzuegbunam and Mr.
Bradford that they, as individual citizens and students at a public college, must notify the government
in order to speak on campus when either of them feels
convicted by his religious faith to speak and distribute
literature on campus.
344. Mr. Uzuegbunam and Mr. Bradford also
like to spread their message about their faith as it relates to current events.
345. Mr. Uzuegbunam, Mr. Bradford, and all
students at GGC require the ability to speak spontaneously in reaction to news. And yet, Defendants’
Speech Zone Policy and the related provisions of
GGC’s Student Code of Conduct prohibit such spontaneous speech because they force Mr. Uzuegbunam
and Mr. Bradford to obtain a permit prior to engaging
in expressive activities and to request that permit
three days in advance.
346. Mr. Uzuegbunam and Mr. Bradford are
bound to comply with the terms of Defendants’ Speech
Zone Policy and GGC’s Student Code of Conduct at all

111a
times on campus, in part because it is incorporated
into GGC’s Student Code of Conduct.
347. Mr. Uzuegbunam and Mr. Bradford are not
engaging in any public speaking or other forms of public address in the open, outdoor, generally accessible
areas of campus that are outside of the two speech
zones due to Defendants’ Speech Zone Policy, the related provisions of GGC’s Student Code of Conduct,
Defendants’ enforcement of those policies against Mr.
Uzuegbunam, and the accompanying threat of punishment under GGC’s Student Code of Conduct.
348. Mr. Uzuegbunam and Mr. Bradford have
curtailed, restricted, and limited their efforts to engage in any literature distribution in the open, outdoor, generally accessible areas of campus that are
outside of the two speech zones due to Defendants’
Speech Zone Policy, the related provisions of GGC’s
Student Code of Conduct, Defendants’ enforcement of
those policies against Mr. Uzuegbunam, and the accompanying threat of punishment under GGC’s Student Code of Conduct.
349. Mr. Uzuegbunam and Mr. Bradford are not
engaging in open-air speaking or publicly discussing
religious topics inside the speech zones due to Defendants’ Speech Code, Defendants’ enforcement of that
policy against Mr. Uzuegbunam, and the accompanying threat of punishment under GGC’s Student Code
of Conduct.
350. Mr. Uzuegbunam and Mr. Bradford are not
engaging in open-air speaking or publicly discussing
religious topics outside the speech zones due to Defendants’ Speech Code, Defendants’ enforcement of
that policy against Mr. Uzuegbunam, and the accompanying threat of punishment under GGC’s Student

112a
Code of Conduct.
351. Mr. Uzuegbunam and Mr. Bradford are
chilled in their ability to engage in expressive activities outside of the two speech zones due to Defendants’ Speech Zone Policy, the related provisions of
GGC’s Student Code of Conduct, Defendants’ enforcement of those policies against Mr. Uzuegbunam, and
the accompanying threat of punishment under GGC’s
Student Code of Conduct.
352. Mr. Uzuegbunam and Mr. Bradford are
chilled in their ability to speak publicly and discuss
religious topics on campus that might offend, disturb,
or discomfort any listener due to Defendants’ Speech
Code, Defendants’ enforcement of that policy against
Mr. Uzuegbunam, and the accompanying threat of
punishment under GGC’s Student Code of Conduct.
353. Due to the restrictions imposed by Defendants’ Speech Zone and Speech Code and their enforcement of these policies, Mr. Uzuegbunam and Mr.
Bradford lack an alternative means of communicating
their religious beliefs with the students, faculty, and
other members of the GGC community that they desire to reach.
354. If not for Defendants’ Speech Zone Policy,
the related provisions of GGC’s Student Code of Conduct, and the actions of Defendants, Mr. Uzuegbunam
and Mr. Bradford would immediately go to the open,
outdoor areas of the GGC campus and engage in expressive activities like public speaking and discussing
religious topics with fellow students and passersby.
355. If not for Defendants’ Speech Zone Policy,
the related provisions of GGC’s Student Code of Conduct, and the actions of Defendants, Mr. Uzuegbunam

113a
and Mr. Bradford would immediately stop curtailing,
restricting, and limiting their efforts to distribute literature to fellow students and passersby in the open,
outdoor areas of the GGC campus.
356. Mr. Uzuegbunam and Mr. Bradford refrain
for fear of punishment under Defendants’ Speech
Zone Policy and the related provisions of GGC’s Student Code of Conduct.
357. If not for Defendants’ Speech Code and the
actions of Defendants, Mr. Uzuegbunam and Mr.
Bradford would immediately go to the open, outdoor
areas of the GGC campus and engage in expressive
activities like public speaking and discussing religious topics with fellow students and passersby.
358. Mr. Uzuegbunam and Mr. Bradford refrain
for fear of punishment under Defendants’ Speech
Code and the related provisions of GGC’s Student
Code of Conduct.
359. The fear of arrest or punishment severely
limits Mr. Uzuegbunam’s and Mr. Bradford’s constitutionally-protected expression on campus.
ALLEGATIONS OF LAW
360. At all times relevant to this Complaint, each
and all of the acts alleged herein were attributed to
the Defendants who acted under color of a statute,
regulation, custom, or usage of the State of Georgia.
361. Defendants knew or should have known
that by disallowing Mr. Uzuegbunam’s expressive activity on campus without him obtaining prior permission, by limiting his expression to two tiny speech
zones, and by prohibiting him from speaking publicly
because some people complained, Defendants violated
his constitutional rights.

114a
362. Defendants knew or should have known that
by disallowing Mr. Uzuegbunam’s expressive activity
on campus because some people complained about it,
Defendants violated his constitutional rights.
363. The policies and practices that led to the violation of Mr. Uzuegbunam’s and Mr. Bradford’s constitutional rights remain in full force and effect.
364. Mr. Uzuegbunam and Mr. Bradford are suffering irreparable harm from the policies and practices of Defendants which cannot be fully compensated by an award of money damages.
365. Mr. Uzuegbunam and Mr. Bradford have no
adequate or speedy remedy at law to correct or redress the deprivation of their rights by Defendants.
366. Defendants’ actions and policies, as set
forth above, do not serve any legitimate or compelling
state interest.
367. Defendants have deprived, and continue to
deprive, Mr. Uzuegbunam and Mr. Bradford of their
clearly established rights under the United States
Constitution, as set forth in the causes of action below.
368. Unless the policies and conduct of Defendants are enjoined, Mr. Uzuegbunam and Mr. Bradford
will continue to suffer irreparable injury.
369. Pursuant to 42 U.S.C. §§ 1983 and 1988,
Mr. Uzuegbunam and Mr. Bradford are entitled to appropriate relief invalidating Defendants’ Speech Zone
and Speech Code Policies, along with the related policies and practices.

115a
FIRST CAUSE OF ACTION
Violation of Plaintiffs’ First Amendment Right
to Freedom of Speech
(42 U.S.C. § 1983)
370. Plaintiffs repeat and reallege each of the allegations contained in paragraphs 1–369 of this Complaint, as if set forth fully herein.
371. Speech, including public oral expression, is
entitled to comprehensive protection under the First
Amendment.
372. Religious speech—including public speaking and preaching—is also fully protected by the First
Amendment.
373. The First Amendment rights of free speech
and press extend to the campuses of state colleges.
374. The sidewalks and open spaces of the GGC
campus are designated public fora—if not traditional
public fora—for speech and expressive activities by
students enrolled at GGC.
375. The First Amendment’s Free Speech
Clause, incorporated and made applicable to the
states by the Fourteenth Amendment to the United
States Constitution, prohibits content and viewpoint
discrimination in the public fora for student speech
and expression on the campus of a public college.
376. A public college’s ability to restrict speech—
particularly student speech—in a public forum is limited.
377. The First Amendment’s Free Speech Clause
prohibits censorship of religious expression.
378. The First Amendment prohibits the government from prohibiting or limiting speech because it

116a
might offend, disturb, or discomfort the sensibilities
of listeners, and any governmental attempts to do so
are inherently content and/or viewpoint based.
379. Under the First Amendment’s Free Speech
Clause, a prior restraint on citizens’ expression is presumptively unconstitutional, unless it (1) does not
delegate overly broad licensing discretion to a government official, (2) contains only content and viewpoint
neutral reasonable time, place, and manner restrictions, (3) is narrowly tailored to serve a significant governmental interest, and (4) leaves open ample
alternative means for communication.
380. Thus, the government may not regulate
speech based on policies that permit arbitrary, discriminatory, or overzealous enforcement.
381. Unbridled discretion to discriminate against
speech based on its content or viewpoint violates the
First Amendment regardless of whether that discretion
has ever been unconstitutionally applied in practice.
382. The First Amendment’s Free Speech Clause
guarantees a citizen the right to express his views
anonymously and spontaneously.
383. Defendants’ Speech Zone Policy, the related
provisions of GGC’s Student Code of Conduct, and
their practice of requiring students to obtain a permit
from College officials before engaging in any expressive activities and of restricting student speech to two
tiny speech zones violate the First Amendment facially and as applied because they are prior restraints
on speech in areas of campus that are traditional or
designated public fora for GGC students.
384. Defendants’ Speech Zone Policy, the related
provisions of GGC’s Student Code of Conduct, and

117a
their practice of requiring students to obtain a permit
from College officials before engaging in any expressive activities and of restricting student speech to two
tiny speech zones violate the First Amendment facially and as applied because they grant College officials unbridled discretion to discriminate against
speech based on its content or viewpoint.
385. Defendants’ Speech Zone Policy, the related
provisions of GGC’s Student Code of Conduct, and
their practice of requiring students to obtain a permit
from College officials before engaging in any expressive activities and of restricting student speech to two
tiny speech zones violate the First Amendment facially
and as applied because they are vague and overbroad.
386. Defendants’ Speech Zone Policy, the related
provisions of GGC’s Student Code of Conduct, and associated practices that require students to seek a permit for a proposed expressive activity at least three
days in advance and that limit the activity to two tiny
speech zones are unconstitutional “time, place, and
manner” restrictions that violate Plaintiffs’ and other
students’ right to freedom of speech and expression
because they are not content-neutral, they are not
narrowly tailored to serve a significant government
interest, and they do not leave open ample alternative
channels of communication.
387. Defendants’ Speech Zone Policy, the related
provisions of GGC’s Student Code of Conduct, and associated practices provide no guidelines or standards
to limit the discretion of GGC officials in granting,
denying, relocating, or restricting requests by students to engage in expressive activity.
388.

Defendants’ Speech Zone Policy, the related

118a
provisions of GGC’s Student Code of Conduct, and associated practices require students to seek a permit
for proposed expressive activities from Defendants
and then delegate authority to Defendants to determine whether and where students may engage in
these expressive activities, thus giving Defendants
unbridled discretionary power to limit student speech
in advance of such expression on campus and to do so
based on the content and viewpoint of the speech.
389. These grants of unbridled discretion to GGC
officials violate the First Amendment because they
create a system in which speech is reviewed without
any standards, thus giving students no way to prove
that a denial, restriction, or relocation of their speech
was based on unconstitutional considerations.
390. The First Amendment’s prohibition against
content and viewpoint discrimination requires Defendants to provide adequate safeguards to protect against
the improper exclusion, restriction, or relocation of student speech based on its content or viewpoint.
391. Because Defendants have failed to establish
neutral criteria governing the granting, denial, or relocation of student speech applications (including requests to use campus facilities), there is a substantial
risk that GGC officials will engage in content and
viewpoint discrimination when addressing those applications.
392. Defendants exercised the unbridled discretion granted them under their Speech Zone Policy, the
related provisions of GGC’s Student Code of Conduct,
and associated practices when they prohibited Mr.
Uzuegbunam from distributing religious literature
and engaging passing students, faculty, and other

119a
passersby in conversation in the open, generally accessible areas of campus outside the library because
he had not first obtained a permit and because he was
outside of the two speech zones.
393. Defendants’ Speech Zone Policy, the related
provisions of GGC’s Student Code of Conduct, and
associated practices do not contain any definite time
period in which GGC officials must grant or deny students’ requests to engage in expressive activities.
394. Defendants’ Speech Zone Policy, the related
provisions of GGC’s Student Code of Conduct, and associated practices that require students to seek a permit
three days before any expressive activity prohibit spontaneous expression.
395. Defendants’ Speech Zone Policy, the related
provisions of GGC’s Student Code of Conduct, and associated practices are neither reasonable nor valid
time, place, and manner restrictions on speech because they are not content-neutral, they are not narrowly tailored to serve a significant government interest, and they do not leave open ample alternative
channels of communication.
396. Defendants’ Speech Zone Policy, the related
provisions of GGC’s Student Code of Conduct, and associated practices are also overbroad because they
prohibit and restrict protected expression.
397. Defendants’ Speech Zone Policy, the related
provisions of GGC’s Student Code of Conduct, and associated practices unconstitutionally censor or restrict all private speech (including, but not limited to,
literature distribution) that occurs outside the two
speech zones, require students to obtain a permit for
all expressive activities from Defendants in advance,

120a
and ban a student from utilizing the speech zones for
thirty days after each use (even if no one else is utilizing them during that time).
398. The government may not regulate speech
based on overbroad policies that encompass a substantial amount of constitutionally protected speech.
399. Defendants’ Speech Zone Policy, the related
provisions of GGC’s Student Code of Conduct, and associated practices are overbroad because they prohibit a substantial amount of constitutionally protected speech in that they prohibit students from
engaging in expressive activities in the public fora of
campus outside the two speech zones, they require
students to seek a permit from College officials at
least three days in advance, they require students to
confine their expressive activities to the speech zones,
and they ban students from utilizing the speech zones
for thirty days after each use (even if no one else is
utilizing them during that time).
400. The overbreadth of Defendants’ Speech
Zone Policy, the related provisions of GGC’s Student
Code of Conduct, and their associated practices chills
the speech of Plaintiffs and students not before the
Court who seek to engage in private expression (including public speaking, conversations, and literature
distribution) in the open, outdoor area of campus.
401. Defendants’ Speech Zone Policy, the related
provisions of GGC’s Student Code of Conduct, and associated practices chill, deter, and restrict Plaintiffs
from freely expressing their religious beliefs.
402. The Free Speech Clause of the First Amendment protects speech that is provocative and chal-

121a
lenging and prohibits the government from restricting speech simply because listeners find it offensive
or discomforting.
403. Defendants’ Speech Code and associated
practices violate the First Amendment, facially and as
applied, because they create a heckler’s veto on campus,
allowing any student to silence a speaker and expose
him to discipline for engaging in “disorderly conduct”
simply by complaining about the speaker’s expression.
404. Defendants’ Speech Code and associated
practices violate the First Amendment, facially and as
applied, because they are inherently content- and
viewpoint-discriminatory because they prohibit students from engaging in any expression that creates
complaints.
405. Defendants’ Speech Code and associated
practices violate the First Amendment, facially and as
applied, because they are vague and overbroad.
406. Defendants’ Speech Code and associated
practices are overbroad because they prohibit a substantial amount of constitutionally protected speech
in that they declare that any expression that prompts
complaints from a listener constitutes “disorderly conduct” and subject students to discipline for engaging
in such expression.
407. Defendants’ Speech Code and associated
practices provide no guidelines or standards to limit
the discretion of GGC officials when determining
whether a student’s expression has “disturb[ed] the
peace and/or comfort of person(s).”
408. Defendants exercised the unbridled discretion granted them under their Speech Code and asso-

122a
ciated practices when they prohibited Mr. Uzuegbunam from sharing his religious beliefs inside the
speech zone he reserved for that purpose because people complained about his expression.
409. Defendants engaged in content and viewpoint discrimination when they applied their Speech
Code to prohibit Mr. Uzuegbunam from communicating his religious views inside the speech zone despite allowing members of other religious organizations to communicate their different religious views
freely and without interference on campus.
410. Defendants’ Speech Code and associated
practices are neither reasonable nor valid time, place,
and manner restrictions on speech because they are not
content-neutral, they are not narrowly tailored to serve
a significant government interest, and they do not leave
open ample alternative channels of communication.
411. Defendants’ Speech Code and associated
practices are also overbroad because they prohibit
and restrict protected expression.
412. Defendants’ Speech Code and associated
practices unconstitutionally censor all private speech
that prompts complaints from any listener.
413. The overbreadth of Defendants’ Speech
Code and related practices chills the speech of Plaintiffs and students not before the Court who seek to
engage in private expression on campus that some
might find offensive or discomforting.
414. Defendants’ Speech Code and related practices chill, deter, and restrict Plaintiffs from freely expressing their religious beliefs.
415.

Defendants’ Speech Zone and Speech Code

123a
Policies, along with the associated policies and practices, do not satisfy strict scrutiny because they support no compelling governmental interest and they
are not narrowly tailored to meet any such concerns.
416. Defendants’ Speech Zone and Speech Code
Policies, along with the associated policies and practices, violate Plaintiffs’ right to free speech as guaranteed by the First Amendment to the United States
Constitution.
417. Because of Defendants’ actions, Plaintiffs
have suffered, and continue to suffer irreparable
harm. They are entitled to an award of monetary
damages and equitable relief.
418. Pursuant to 42 U.S.C. §§ 1983 and 1988,
Plaintiffs are entitled to a declaration that Defendants violated their First Amendment right to freedom
of speech and an injunction against Defendants’ policy and actions. Additionally, Plaintiffs are entitled to
damages in an amount to be determined by the evidence and this Court and the reasonable costs of this
lawsuit, including their reasonable attorneys’ fees.
SECOND CAUSE OF ACTION
Violation of Plaintiffs’ First Amendment Right
to Free Exercise of Religion
(42 U.SC. § 1983)
419. Plaintiffs repeat and reallege each of the allegations contained in paragraphs 1–369 of this Complaint, as if set forth fully herein.
420. The First Amendment’s Free Exercise
Clause, incorporated and made applicable to the
states by the Fourteenth Amendment to the United
States Constitution, guarantees Plaintiffs the free exercise of religion.

124a
421. Laws that burden the free exercise of religion must be neutral and generally applicable, and
even then, they must have a rational basis.
422. If they are not neutral and generally applicable, then laws that burden the free exercise of religion must be justified by a compelling state interest.
423. Plaintiffs’ decisions to distribute religious
literature, engage interested students and other individuals in conversations, and engage in open-air
speaking are motivated by their sincerely held religious beliefs, are an avenue through which they exercise their religious faith, and constitute a central component of their sincerely held religious beliefs.
424. Defendants’ Speech Zone and Speech Code
Policies are neither neutral nor generally applicable
but allow Defendants to target religious expression
and activities specifically.
425. Defendants’ Speech Zone and Speech Code
Policies and associated practices are neither neutral
nor generally applicable because they represent a system of individualized assessments. For the same reason, they are subject to strict scrutiny.
426. Defendants’ Speech Zone Policy and the associated policies and practices grant College officials
unbridled discretion when evaluating students’ requests to utilize the speech zones for expressive activities, and thus, they establish a system of individualized assessments.
427. Defendants’ Speech Zone Policy and the associated policies and practices grant College officials
unbridled discretion when evaluating students’ requests to engage in expressive activities outside the
speech zones, and thus, they establish a system of

125a
individualized assessments.
428. Defendants’ Speech Zone Policy and the associated policies and practices grant College officials
unbridled discretion when evaluating students’ requests to engage in expressive activities during hours
the speech zones are closed, and thus, they establish
a system of individualized assessments.
429. Defendants’ Speech Code and associated
practices provide no guidelines or standards to limit
the discretion of GGC officials when determining
whether a student’s expression has “disturb[ed] the
peace and/or comfort of person(s),” and thus, they establish a system of individualized assessments.
430. Defendants’ Speech Code and Speech Zone
policies and their associated policies and practices are
underinclusive, prohibiting some speech while leaving other speech equally harmful to GGC’s asserted
interests unprohibited.
431. Defendants’ Speech Zone and Speech Code
Policies burden several of the constitutional rights of
all of its students, including Mr. Uzuegbunam and
Mr. Bradford, in addition to their rights under the
Free Exercise Clause (e.g., freedom of speech, due process rights, equal protection rights).
432. Defendants’ infringement of Plaintiffs’ free
exercise of religion fails to satisfy strict scrutiny because it is not narrowly tailored to promote a compelling government interest.
433. Defendants, acting under color of state law,
and by policy and practice have explicitly and implicitly infringed Plaintiffs’ free exercise of religion and
deprived Plaintiffs of their clearly established rights
to freedom of religious expression secured by the First

126a
Amendment to the United States Constitution.
434. Because of Defendants’ actions, Plaintiffs
have suffered, and continue to suffer, irreparable
harm. They are entitled to an award of monetary
damages and equitable relief.
435. Pursuant to 42 U.S.C. §§ 1983 and 1988,
Plaintiffs are entitled to a declaration that Defendants
violated their First Amendment right to free exercise
of religion and an injunction against Defendants’ policy and actions. Additionally, Plaintiffs are entitled to
damages in an amount to be determined by the evidence and this Court and the reasonable costs of this
lawsuit, including their reasonable attorneys’ fees.
THIRD CAUSE OF ACTION
Violation of Plaintiffs’ Fourteenth Amendment
Right to Due Process of Law
(42 U.S.C. § 1983)
436. Plaintiffs repeat and reallege each of the allegations contained in paragraphs 1–369 of this Complaint, as if set forth fully herein.
437. The Fourteenth Amendment to the United
States Constitution guarantees Plaintiffs the right to
due process of law and prohibits Defendants from
promulgating and employing vague and overbroad
standards that allow for viewpoint discrimination in
Defendants’ handling of Plaintiffs’ open-air speaking,
conversations, and literature distribution.
438. The government may not regulate speech
based on policies that permit arbitrary, discriminatory, and overzealous enforcement.
439. The government may not regulate speech
based on policies that cause persons of common intelligence to guess at their meaning and differ as to their

127a
application.
440. The government also may not regulate
speech in ways that do not provide persons of common
intelligence fair warning as to what speech is permitted and what speech is prohibited.
441. Defendants’ Speech Zone Policy, the related
provisions of GGC’s Student Code of Conduct, and associated practices contain no criteria to guide administrators when deciding whether to grant, deny, relocate, or restrict student speech (including public
speaking, conversations, and literature distribution)
on campus.
442. Defendants’ Speech Zone Policy, the related
provisions of GGC’s Student Code of Conduct, and associated practices contain no criteria to limit the discretion of administrators in deciding when or how to
modify the speech zones.
443. Defendants’ Speech Zone Policy, the related
provisions of GGC’s Student Code of Conduct, and associated practices contain no criteria to guide administrators in deciding how to schedule use of the speech
zones to “accommodate all interested users.”
444. Defendants’ Speech Zone Policy, the related
provisions of GGC’s Student Code of Conduct, and associated practices contain no criteria to guide administrators in reviewing the literature students are required to submit in order to obtain a permit to engage
in literature distribution on campus.
445. Defendants’ Speech Zone Policy, the related
provisions of GGC’s Student Code of Conduct, and associated practices are impermissibly vague and ambiguous and are thus incapable of providing meaningful guidance to Defendants.

128a
446. The lack of criteria, factors, or standards in
Defendants’ Speech Zone Policy, the related provisions of GGC’s Student Code of Conduct, and associated practices renders these policies and practices unconstitutionally vague and in violation of Plaintiffs’
right to due process of law under the Fourteenth
Amendment.
447. Defendants’ Speech Code and associated
practices contain no criteria to limit the discretion of
GGC officials when determining whether a student’s
expression has “disturb[ed] the peace and/or comfort
of person(s).”
448. Defendants’ Speech Code and associated
practices are impermissibly vague and ambiguous.
Thus, they are incapable of providing meaningful
guidance to Defendants, and they force students to
guess as to whether expression that the First Amendment protects is in fact allowed on campus.
449. The lack of criteria, factors, or standards in
Defendants’ Speech Code and associated practices
renders these policies and practices unconstitutionally vague and in violation of Plaintiffs’ right to due
process of law under the Fourteenth Amendment.
450. Because of Defendants’ actions, Plaintiffs
have suffered, and continue to suffer irreparable
harm. They are entitled to an award of monetary
damages and equitable relief.
451. Pursuant to 42 U.S.C. §§ 1983 and 1988,
Plaintiffs are entitled to a declaration that Defendants
violated their Fourteenth Amendment right to due
process of law and an injunction against Defendants’
policy and actions. Additionally, Plaintiffs are entitled
to damages in an amount to be determined by the

129a
evidence and this Court and the reasonable costs of
this lawsuit, including their reasonable attorneys’ fees.
FOURTH CAUSE OF ACTION
Violation of Plaintiffs’ Fourteenth Amendment
Right to Equal Protection of the Law
(42 U.SC. § 1983)
452. Plaintiffs repeat and reallege each of the allegations contained in paragraphs 1–369 of this Complaint, as if set forth fully herein.
453. The Fourteenth Amendment to the United
States Constitution guarantees Plaintiffs the equal
protection of the laws, which prohibits Defendants
from treating Plaintiffs differently than similarly situated students.
454. The government may not treat someone disparately as compared to similarly situated persons
when such disparate treatment burdens a fundamental
right, targets a suspect class, or has no rational basis.
455. Plaintiffs are similarly situated to other
students at the College.
456. Defendants have allowed students to engage
in various expressive activities outside of the two speech
zones, but denied the same to Mr. Uzuegbunam.
457. Defendants have allowed students to engage in loud forms of expressive activities inside the
speech zones, including the use of amplified sound,
but prohibited Mr. Uzuegbunam from engaging in
comparatively quieter forms of expression.
458. Defendants have allowed students to engage
in loud forms of expression outside the speech zones,
including permitting a percussion group to play approximately once a week, but prohibited Mr. Uzueg-

130a
bunam from engaging in far quieter forms of expression both inside and outside the speech zones.
459. Defendants have allowed students to engage in offensive forms of speech, including the broadcasting of vulgar, lewd, and obscene music, but
stopped Mr. Uzuegbunam from speaking publicly,
claiming that someone’s complaint converted his expression into “disorderly conduct.”
460. Defendants have allowed other religious
groups, including but not limited to members of the
LDS church, to distribute literature and engage students in conversations in the outdoor areas of campus,
inside and outside the speech zones, but they prohibited Mr. Uzuegbunam from doing the same things
outside the speech zones.
461. Defendants have allowed other religious
groups, including but not limited to members of the
LDS church to engage in religious advocacy on campus but have stopped Mr. Uzuegbunam from doing
the same because his activities provoked complaints
while those of other religious groups did not.
462. Defendants’ Speech Zone and Speech Code
Policies, along with their related policies and practices violate various fundamental rights of Plaintiffs,
such as their freedom of speech, their free exercise of
religion, and their right to due process of law.
463. When government regulations, like Defendants’ Speech Zone and Speech Code Policies, along with
their related policies and practices, infringe on
fundamental rights, discriminatory intent is presumed.
464. Defendants’ Speech Zone and Speech Code
Policies, along with their related policies and prac-

131a
tices, have also been applied to discriminate intentionally against Plaintiffs’ rights to freedom of speech
and the free exercise of religion.
465. Defendants’ Speech Code and Speech Zone
policies and their associated policies and practices are
underinclusive, prohibiting some speech while leaving
other speech equally harmful to GGC’s asserted interests unprohibited.
466. Defendants lack a rational or compelling
state interest for such disparate treatment of Plaintiffs.
467. Defendants’ Speech Zone and Speech Code
Policies, along with their related policies and practices, are not narrowly tailored as applied to Plaintiffs
because Plaintiffs’ speech does not implicate any of
the legitimate interests Defendants might have.
468. Defendants have applied their Speech Zone
and Speech Code Policies, along with their related
policies and practices, to Plaintiffs in a discriminatory
and unequal manner, allowing other students to
speak freely in and out of the speech zones when Defendants say that Plaintiffs cannot do the same, in violation of Plaintiffs’ right to equal protection of the
laws under the Fourteenth Amendment.
469. Because of Defendants’ actions, Plaintiffs
have suffered, and continue to suffer, irreparable
harm. They are entitled to an award of monetary
damages and equitable relief.
470. Pursuant to 42 U.S.C. §§ 1983 and 1988,
Plaintiffs are entitled to a declaration that Defendants violated his Fourteenth Amendment right to
equal protection of law and an injunction against Defendants’ policy and actions. Additionally, Plaintiffs

132a
are entitled to damages in an amount to be determined by the evidence and this Court and the reasonable costs of this lawsuit, including their reasonable
attorneys’ fees.
PRAYER FOR RELIEF
WHEREFORE, Plaintiffs respectfully request that
this Court enter judgment against Defendants and
provide Plaintiffs with the following relief:
A. A declaratory judgment that Defendants’
Speech Zone Policy, the related provisions of
GGC’s Student Code of Conduct (i.e., those prohibiting “circulating any advertising media
without approval from proper College officials”
and “making or attempting to make unauthorized use of College facilities”), and associated
practices, facially and as-applied, violate Plaintiffs’ rights under the First and Fourteenth
Amendments;
B. A declaratory judgment that Defendants’
Speech Code Policy and associated practices,
facially and as-applied, violate Plaintiffs’ rights
under the First and Fourteenth Amendments;
C. A declaratory judgment that the Defendants’
restriction of Plaintiffs’ literature distribution
violated their rights under the First and Fourteenth Amendments;
D. A declaratory judgment that the Defendants’
restriction of Plaintiffs’ open-air speaking violated their rights under the First and Fourteenth Amendments;
E. A preliminary and permanent injunction prohibiting the Defendants, their agents, officials,
servants, employees, and any other persons

133a
acting in their behalf from enforcing Defendants’ Speech Zone Policy, the related provisions
of GGC’s Student Code of Conduct (i.e., those
prohibiting “circulating any advertising media
without approval from proper College officials”
and “making or attempting to make unauthorized use of College facilities”), and associated
practices challenged in this Complaint;
F. A preliminary and permanent injunction prohibiting the Defendants, their agents, officials,
servants, employees, and any other persons
acting in their behalf from enforcing Defendants’ Speech Code Policy and associated practices challenged in this Complaint;
G. Nominal damages for the violation of Plaintiffs’
First and Fourteenth Amendment rights from
the Defendants sued in their individual capacities;
H. Plaintiffs’ reasonable attorneys’ fees, costs, and
other costs and disbursements in this action
pursuant to 42 U.S.C. § 1988; and
I. All other further relief to which Plaintiffs may
be entitled.
Respectfully submitted this 15th day of February,
2017.
/s/ Travis C. Barham
DAVID A. CORTMAN
Georgia Bar No. 188810
TRAVIS C. BARHAM
Arizona Bar No. 024867
Georgia Bar No. 753251
ALLIANCE DEFENDING
FREEDOM

M. CASEY MATTOX*
Virginia Bar No.
47148
ALLIANCE DEFENDING
FREEDOM
440 1st Street, NW,

134a
1000 Hurricane Shoals
Rd. NE,
Suite D-1100
Lawrenceville, Georgia
30043
Telephone: (770) 339–
0774
Facsimile: (770) 339–
6744
dcortman@ADFlegal.org
tbarham@ADFlegal.org

Ste. 600
Washington, D.C.
20001
Telephone: (202) 393–
8690
Facsimile: (202) 347–
3622
cmattox@ADFlegal.org

* Admitted pro hac vice.
Attorneys for Plaintiffs

DEMAND FOR TRIAL BY JURY
Plaintiffs demand trial by jury for all matters so
triable herein.
/s/ Travis C. Barham
TRAVIS C. BARHAM
Attorney for Plaintiffs

135a
DECLARATION UNDER PENALTY OF PERJURY
I, CHIKE UZUEGBUNAM, a citizen of the United
States and a resident of the State of Georgia, hereby
declare under penalty of perjury pursuant to 28
U.S.C. § 1746 that I have read the foregoing, that the
foregoing is true and correct to the best of my
knowledge (except as to statements made on information and belief, and those I believe to be true and
correct), and that the foregoing statements that pertain to me are based on my personal knowledge.
Executed this 14 day of February, 2017, at Lawrenceville, Georgia.
/s/ Chike Uzuegbunam
CHIKE UZUEGBUNAM
DECLARATION UNDER PENALTY OF PERJURY
I, JOSEPH BRADFORD, a citizen of the United States
and a resident of the State of Georgia, hereby declare
under penalty of perjury pursuant to 28 U.S.C. § 1746
that I have read the foregoing, that the foregoing is
true and correct to the best of my knowledge (except
as to statements made on information and belief, and
those I believe to be true and correct), and that the
foregoing statements that pertain to me are based on
my personal knowledge.
Executed this 15th day of February, 2017, at
Duluth, Georgia.
/s/ Joseph Bradford
JOSEPH BRADFORD

136a
CERTIFICATE OF SERVICE
I hereby certify that on the 15th day of February,
2017, I electronically filed a true and accurate copy of
the foregoing document with the Clerk of Court using
the CM/ECF system, which automatically sends an
electronic notification to the following attorneys of
record:
CHRISTOPHER CARR
Attorney General
KATHLEEN M. PACIOUS
Deputy Attorney General
DEVON ORLAND
Senior Assistant Attorney General
ELLEN CUSIMANO
Assistant Attorney General
40 Capitol Square, Southwest
Atlanta, Georgia 30334-1300
Telephone: (404) 463–8850
Facsimile: (404) 651–5304
dorland@law.ga.gov
ecusimano@law.ga.gov
Attorneys for Defendants
Respectfully submitted on this the 15th day of
February, 2017.
/s/ Travis C. Barham
Travis C. Barham
Attorney for Plaintiffs

137a
Excerpts from Georgia Gwinnett College’s “At
a Glance” Website, Containing the College’s
Speech Zone Policies
Filed as an Exhibit to the First Amended
Complaint on February 15, 2017

GGC AT A GLANCE
FREEDOM OF EXPRESSION
Georgia Gwinnett College (GGC) is committed to
providing a forum for free and open expression of divergent points of view by students, student organizations, faculty, staff and visitors. GGC also recognizes
its responsibility to provide a secure learning environment which allows members of the community to express their views in ways which do not disrupt the operation of the College. Georgia Gwinnett College, in
establishment of this policy, in no way supports, fails
to support, neither agrees nor disagrees with ideas
that may be voiced, but allows for a diversity of viewpoints to be expressed in an academic setting.
This policy is applicable to students, student organizations, faculty, staff and visitors. Free speech area
request forms (PDF) are available on the GGC website and also from the Division of Student Affairs. The
following procedures apply to all activities authorized
to use the designated free speech expression areas.
Reasonable limitations may be placed on time, place
and manner of speeches, gatherings, distribution of
written materials, and marches in order to serve the
interests of health and safety, prevent disruption of
the educational process, and protect against the invasion of the rights of others as deemed necessary by
Georgia Gwinnett College.

138a

Designated Speech and Demonstration Areas
GGC has identified the concrete area/walkway between Student Housing and the Student Center or the
concrete in front of the Food Court area, Building A as
“free speech expression areas.” These areas are generally available from 11:00 a.m. to 1:00 p.m. and 5:30
p.m. to 7:30 p.m., Monday through Thursday, and
11:00 a.m. to 1:00 p.m. on Friday. On occasion upon
written request, other areas and other times may be
authorized, and the College reserves the right to modify the free speech areas based on the operational
needs of the institution. A designated Student Affairs
official is responsible for reservation scheduling and
authorization of the free speech expression areas in order to accommodate all interested users. Authorization
will be granted in accordance with the principle of content neutrality. Appeals related to the decision of the
Student Affairs official should be made to the Dean of
Students. The decision of the Dean is final.

Reservation Procedures for Use of Free
Expression Areas
All requests must follow the appropriate facility reservation process. The designated free speech forms
(PDF) must be completed and any publicity materials
must be attached and submitted to the Student Affairs official at least three (3) business days prior to
the free expression speech, program, event or gathering in accordance with this policy. Organizers are encouraged to submit their requests as early in the planning stages of the event as possible.

Provisions
In order that persons exercising freedom of expression
not interfere with the operation of the College or the

139a
rights of others, all engagements for speakers (internal and external) must meet the following criteria:
x

All publicity materials must be submitted with
the application form. Admission charges, if
any, or suggested donations which are used as
a condition of admission, must be included in
all publicity for the event. No publicity for a
speaker or program may be released prior to
authorization of the registration form. Unauthorized use of the College’s name, other than
to indicate the location of the event, is strictly
prohibited. Upon authorization, copies of the
application form and any publicity material
shall be distributed to the campus Senior Associate Provost for Student Affairs, the Director
of Public Services/Campus Police, the Office of
Public Relations the Dean of Students and the
applicant.

x

If a speaker is being sponsored by a student organization, an Advisor (or designee, who must
be a full-time faculty or designated staff member) if applicable, must be present at the event.

x

No interference with the free flow of traffic nor
the ingress and egress to buildings on campus is
permitted and no use of microphones, bullhorns
or any sound amplification device is allowed.

x

No interruption of the orderly conduct of college
classes or other college activities is permitted.

x

No impediment of passersby or other disruption of normal activities is permitted.

x

No intimidation or harassment, verbal or otherwise, of passersby is permitted.

140a
x

No interference with scheduled college ceremonies, events or activities is permitted.

x

Marches, either independent or related to an
event or speech, must be authorized at least 3
business days prior to the program or event in
accordance with this policy and appropriate local ordinances, and may only take place on the
streets or sidewalks of the campus.

x

No commercial solicitations, campus sales or
fundraising activities shall be undertaken
which are not authorized by GGC.

x

Non-commercial pamphlets, handbills, circulars, newspapers, magazines and other written
materials may be distributed on a person-toperson basis in the free speech expression areas designated above, as long as the reservation procedures for use of the free expression
areas have been completed. Such distribution
shall not violate any campus solicitation policies or government ordinances.

x

The individual who makes the reservation
shall be responsible for seeing that the area is
left clean and in good repair. If not accomplished, persons or organizations responsible
for the event may be held financially responsible for cleanup costs.

x

The individual/organization using the area
must supply their own tables, chairs, etc. (unless already part of the facility). No sound amplification devices may be used at any time (unless already part of the facility). No camping is
allowed and temporary structures (tents, etc.)
are prohibited.

141a
x

Malicious or unwarranted damage or destruction of property owned or operated by the College, or property belonging to students, faculty,
staff or guests of the College is prohibited. Persons or organizations causing such damage
may be held financially and/or criminally responsible.

x

Disorderly conduct is prohibited. Examples of
disorderly conduct can be found in the Georgia
Gwinnett College Student Handbook.

x

Individuals and programs using the free speech
expression area must comply with all applicable state and federal laws and institutional policies, rules and regulations.

Authorization of a speech, event or demonstration is
contingent upon compliance with the criteria listed
above. Speakers and/or organizations failing to comply with the above policy may be asked to leave, a
trespass warning may be issued and/or judicial action
may be pursued. Additional internal disciplinary actions may be enforced against students and staff
members who fail to comply with the outlined policy.

Freedom of Expression Policy Questions
Questions about this policy may be addressed to the
Division of Student Affairs at 678.407.5882 and
should be handled in advance of any speech, event or
demonstration.

142a
Georgia Gwinnett College’s
“Free Speech Area Request Form”
Filed as an Exhibit to the First Amended
Complaint on February 15, 2017

GEORGIA
GWINNETT
COLLEGE
SPEECH AREA REQUEST FORM

FREE

Georgia Gwinnett College (GGC) is committed to
providing a forum for free and open expression of divergent points of view by students, student organizations, faculty, staff and visitors. GGC also recognizes
its responsibility to provide a secure learning environment which allows members of the community to express their views in ways which do not disrupt the operation of the college.
TODAY’S DATE: _______________
ORGANIZATION NAME: ______________________
All requests must follow the appropriate facility reservation process. The designated free speech forms
must be completed and use of free speech space must
be confirmed by the designated College official before
the free speech areas can be utilized Any publicity
materials must be attached and submitted to Student
Affairs at least three (3) business days prior to the
free expression speech, program, event, or gathering
in accordance with this policy. Organizers are encouraged to submit their requests as early in the planning
stages of the event as possible. All information submitted must be legible. Individuals and/organizations
who are confirmed for use of any free speech areas on
campus must wait at least 30 calendar days after the

143a
last date of use, before a new Free Speech Area Request Form can be submitted for review. Requests
which fail to follow these guidelines will be declined.
CONTACT PERSON:
ADDRESS:
CELL PHONE:
ALTERNATE CONTACT NUMBER:
FAX:
If student club/organization:_______________________
(Advisor’s Signature/ must be present at event.)
This policy is applicable to students, student organizations, faculty, staff and visitors. The procedures apply
to all activities authorized to use the designated Free
Speech Expression Areas. Reasonable limitations may
be placed on time, place and manner of speeches, gatherings, distribution of written materials, and marches
in order to serve the interests of health and safety, prevent disruption of the educational process, and protect
against the invasion of the rights of others as deemed
necessary by Georgia Gwinnett College. Use of microphones, bullhorns, or any sound amplification device
or gadget is prohibited.
DATE(S) REQUESTED FOR FREE SPEECH
ACTIVITY: No more than 3 calendar dates can
be submitted per organization and/or per individual; requests received within 30 days of the
last date of use by an organization and/or individual will be declined. Requests must be for
the organizations or individual’s own use and
cannot be submitted on behalf of other individuals or organizations. A College representative
will provide the location of the free speech areas available for the dates requested once the
request is confirmed below by a College official.

144a
_____________________
_____________________
_____________________
TIME(S) OF EACH ACTIVITY ABOVE:
_____________________
_____________________
_____________________
ANTICIPATED NUMBER OF ATTENDEES/
ORGANIZATIONAL PARTICIPANTS: _________
DESCRIPTION OF THE EVENT (attach
additional
pages
if
necessary):
_________________________________________________
_________________________________________________
_________________________________________________
I HAVE READ AND AGREE THAT THE EVENT
WILL COMPLY WITH THE REQUIREMENTS
OUTLINED HEREIN AND AS OUTLINED IN
THE GGC STUDENT HANDBOOK FREEDOM
OF EXPRESSION PROVISIONS available at
www.ggc.edu.
______________________________________________
Signature of person completing this Request/
Form
________________________________________
Printed Name Above
For use by Student Affairs: Free Speech Request
_____Confirmed _____ Declined ______ Date of Action
If Confirmed by College: Free Speech Dates/Times
Confirmed____________ Area Confirmed:___________
Signature of College Official: ______________________
Printed Name:__________________________
Form Revised November 2010

145a
Excerpts from Georgia Gwinnett College’s
2016–2017 Student Handbook,
Containing the College’s Speech Zone and
Speech Code Policies
Filed as an Exhibit to the First Amended
Complaint on February 15, 2017

2016–2017 Student Handbook
Rights, Responsibilities
and General Information
*****
4.1.9 GGC Freedom of Expression Policy
Reviewed May 26, 2016
Georgia Gwinnett College (GGC) is committed to
providing a forum for free and open expression of divergent points of view by students, student organizations, faculty, staff and visitors. GGC also recognizes
its responsibility to provide a secure learning environment which allows members of the community to express their views in ways which do not disrupt the operation of the College. Georgia Gwinnett College, in

146a
establishment of this policy, in no way supports, fails
to support, neither agrees nor disagrees with ideas
that may be voiced, but allows for a diversity of
viewpoints to be expressed in an academic setting.
This policy is applicable to students, student organizations, faculty, staff and visitors. Free speech area
request forms are available on the GGC website and
also from the Division of Student Affairs. The following procedures apply to all activities authorized to use
the designated free speech expression areas. Reasonable limitations may be placed on time, place and
manner of speeches, gatherings, distribution of written materials, and marches in order to serve the interests of health and safety, prevent disruption of the
educational process, and protect against the invasion
of the rights of others as deemed necessary by Georgia
Gwinnett College.
Designated Speech and Demonstration Areas
GGC has identified the concrete area/walkway between Student Housing and the Student Center or the
concrete in front of the Food Court area, Building A
as “free speech expression areas.” These areas are
generally available from 11:00 a.m. to 1:00 p.m. and
5:30 p.m. to 7:30 p.m., Monday through Thursday,
and 11:00 a.m. to 1:00 p.m. on Friday. On occasion
upon written request, other areas and other times
may be authorized, and the College reserves the right
to modify the free speech areas based on the operational needs of the institution. A designated Student
Affairs official is responsible for reservation scheduling and authorization of the free speech expression
areas in order to accommodate all interested users.
Authorization will be granted in accordance with the
principle of content neutrality. Appeals related to the

147a
decision of the Student Affairs official should be made
to the Dean of Students. The decision of the Dean is
final.
Reservation Procedures
Expression Areas

for

Use

of

Free

All requests must follow the appropriate facility reservation process. The designated free speech forms
must be completed and any publicity materials must
be attached and submitted to the Student Affairs official at least three (3) business days prior to the free
expression speech, program, event or gathering in accordance with this policy. Organizers are encouraged
to submit their requests as early in the planning
stages of the event as possible.
Provisions
In order that persons exercising freedom of expression
not interfere with the operation of the College or the
rights of others, all engagements for speakers (internal and external) must meet the following criteria:
x

All publicity materials must be submitted with
the application form. Admission charges, if any,
or suggested donations which are used as a condition of admission, must be included in all publicity for the event. No publicity for a speaker or
program may be released prior to authorization
of the registration form. Unauthorized use of
the College’s name, other than to indicate the
location of the event, is strictly prohibited. Upon
authorization, copies of the application form and
any publicity material shall be distributed to
the campus Senior Associate Provost for Student Affairs, the Director of Public Services/
Campus Police, the Office of Public Relations

148a
the Dean of Students and the applicant.
x

If a speaker is being sponsored by a student organization, an Advisor (or designee, who must
be a full-time faculty or designated staff member) if applicable, must be present at the event.

x

No interference with the free flow of traffic nor
the ingress and egress to buildings on campus is
permitted and no use of microphones, bullhorns
or any sound amplification device is allowed.

x

No interruption of the orderly conduct of college
classes or other college activities is permitted.

x

No impediment of passersby or other
disruption of normal activities is permitted.

x

No intimidation or harassment, verbal or otherwise, of passersby is permitted.

x

No interference with scheduled college ceremonies, events or activities is permitted.

x

Marches, either independent or related to an
event or speech, must be authorized at least 3
business days prior to the program or event in
accordance with this policy and appropriate local ordinances, and may only take place on the
streets or sidewalks of the campus.

x

No commercial solicitations, campus sales or
fundraising activities shall be undertaken
which are not authorized by GGC.

x

Non-commercial pamphlets, handbills, circulars, newspapers, magazines and other written
materials may be distributed on a person-toperson basis in the free speech expression areas designated above, as long as the reservation procedures for use of the free expression

149a
areas have been completed. Such distribution
shall not violate any campus solicitation policies or government ordinances.
x

The individual who makes the reservation
shall be responsible for seeing that the area is
left clean and in good repair. If not accomplished, persons or organizations responsible
for the event may be held financially responsible for cleanup costs.

x

The individual/organization using the area
must supply their own tables, chairs, etc. (unless already part of the facility). No sound amplification devices may be used at any time (unless already part of the facility). No camping is
allowed and temporary structures (tents, etc.)
are prohibited.

x

Malicious or unwarranted damage or destruction
of property owned or operated by the College, or
property belonging to students, faculty, staff or
guests of the College is prohibited. Persons or organizations causing such damage may be held financially and/or criminally responsible.

x

Disorderly conduct is prohibited. Examples of
disorderly conduct can be found in the Georgia
Gwinnett College Student Handbook.

x

Individuals and programs using the free speech
expression area must comply with all applicable state and federal laws and institutional policies, rules and regulations.

Authorization of a speech, event or demonstration is
contingent upon compliance with the criteria listed
above. Speakers and/or organizations failing to comply with the above policy may be asked to leave, a

150a
trespass warning may be issued and/or judicial action
may be pursued. Additional internal disciplinary actions may be enforced against students and staff
members who fail to comply with the outlined policy.
Freedom of Expression Policy Questions
Questions about this policy may be addressed to the
Division of Student Affairs at 678.407.5882 and
should be handled in advance of any speech, event or
demonstration.
*****
4.6.5 Student Code of Conduct
Reviewed June 23, 2016
See Board of Regents Policy Manual Section 4.6.5
Standards for Institutional Student Conduct Investigation and Disciplinary Proceedings. This policy will
be known as the GGC Student Code of Conduct as reviewed and approved by the USG Office of Legal affairs. It will go into effect on July 1, 2016.
*****
College Conduct Regulations
The following actions are prohibited and constitute a
violation of the Georgia Gwinnett College Student
Code of Conduct. The Office of Student Integrity handles all cases involving alleged academic violations
and non-academic conduct violations except for matters involving discrimination or discriminatory harassment. All matters related to discrimination or discriminatory harassment by the Office of Diversity, Institutional Equity and Title IX Program Administration under the Student Code of Conduct processes.
Student Integrity may handle other non-discrimination Code violations which may be arise out of or be

151a
related to discrimination/ harassment claims.
Any student, club or organization found to have committed a violation of these conduct regulations is subject to the sanctions outlined in this Code. A claim of
lack of awareness of policies and procedures does not
excuse any violations of such. Pursuant to BOR 4.1.7
Sexual Misconduct Policy and APM 4.1.1.1.2 Academic Integrity Policy for Academic Dishonesty Matters (which also can be found in the Student Handbook: Rights, Responsibilities and General Information.), sexual misconduct and academic dishonesty
are covered under separate GGC policies. Please reference those policies as to appropriate process.
Conduct Regulations
*****
The following are conduct regulations:
*****
(3) Disorderly Conduct. Examples of specific prohibited
actions include but are not limited to the following:
A. Behavior which disrupts the orderly functioning of the College, or behavior which disturbs
the peace and/or comfort of person(s)
*****

152a
Excerpts of Defendants’ Memorandum of Law
in Support of Motion to Dismiss
Filed February 1, 2017
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION
)
CHIKE
)
UZUEGBUNAM,
) Civil
) Action
Plaintiff,
) No.:
) 1:16-cvv.
) 04658STANLEY C.
) ELR
PRECZEWSKI, et al.
)
)
)
Defendants.
)
MEMORANDUM OF LAW IN SUPPORT OF THE
STATE DEFENDANTS’ MOTION TO DISMISS
I. INTRODUCTION
Plaintiff, a student at Georgia Gwinnett College
(“GGC”), is challenging the college’s Speech Policy, as
well as its Disorderly Conduct Policy. Plaintiff claims
that both policies are facially unconstitutional and
unconstitutional as applied to his speech. (Doc. 1).
Plaintiff generally asserts four causes of action with
respect to the policies: (1) First Amendment right to
freedom of speech; (2) First Amendment right to free
exercise of religion; (3) Fourteenth Amendment right
to due process; and (4) Fourteenth Amendment right
to equal protection. The State Defendants now move
to dismiss Plaintiff’s lawsuit in its entirety.

153a
*****
VI. LEGAL ARGUMENT AND CITATION OF
AUTHORITY
A. Plaintiff Fails to State a Claim Upon Which
Relief May be Granted
*****
3. The Disorderly Conduct Policy Does Not
Violate the First Amendment Right to
Freedom of Speech
Plaintiff also challenges, both facially and as-applied to his speech, GGC’s Disorderly Conduct Policy,
to the extent that it prohibits expression that “disturbs the peace and/or comfort of person(s).” (Doc. 1
at ¶ 3). This Court should dismiss both challenges.
*****
b. Application of the Disorderly Conduct Policy
to Plaintiff’s Speech Did Not Violate the
First Amendment
Additionally, GGC’s application of the Disorderly
Conduct Policy to Plaintiff’s open-air speaking outside of the food court on August 25, 2016, did not violate the First Amendment. As Plaintiff admits in his
Complaint, he was able to speak about his religious
beliefs for approximately twenty minutes. (Doc. 1 at ¶
250). He did so by standing on top of a stool and exclaiming his beliefs in a manner “loud enough to be
heard” to “many” students who were eating, studying,
and socializing. (Id. at ¶¶ 245, 249, 250). GGC’s Safety
Department received multiple calls and complaints
about Plaintiff’s open-air speaking. (Id. at ¶¶ 255,
265). GGC informed Plaintiff that he was engaging in
disorderly conduct and needed to stop. (Id. at ¶¶ 262,

154a
265). As Plaintiff admits, GGC interrupted his openair speaking only because people were calling and
“complaining about his expression.” (Id. at ¶ 265).
Thus, the allegations in Plaintiff’s Complaint
demonstrate that GGC stopped Plaintiff—not because of the content of his speech—but because he
was engaging in impermissible open-air speaking
that was actually disturbing the students. There is a
distinction between “mere words, used as a tool of
communication,” which are protected, and the use of
words to “invade the rights of others to pursue their
lawful activities,” which are not protected. Gold v.
City of Miami, 138 F.3d 886 (11th Cir. 1998). For
example, in White v. State, 330 So. 2d 3 (Fla. 1976),
an individual was convicted for “screaming at the top
of his lungs for several minutes at a police station,
disturbing the other people at the station and impeding their work.” The court found that the individual’s
words “were not punished because they were offensive, but because by their very decibel count, [those
words] did invade the right of others to pursue their
lawful activities.” Id. at 6. As the court further explained, the individual’s conduct “would have been
equally disorderly had he merely recited ‘Mary Had a
Little Lamb’ in the same tone and under similar circumstances.” Id. at 7.
The same conclusion should be reached here, as
Plaintiff’s open-air speaking on top of a stool—which
disrupted the “many” students who were trying to
study, socialize, and eat—would have been equally disruptive regardless of the content. In short, Plaintiff has
failed to sufficiently allege that he was stopped because of the content of his words, as opposed to the disruptive effect of open-air speaking in general. The fact
that Plaintiff was informed that he could continue to

155a
express his beliefs by one-on-one speaking and distributing literature further supports the notion that Plaintiff was asked to stop because he was disturbing students and not because of the substance of his speech.
Regardless, Plaintiff’s open-air speaking arguably
rose to the level of “fighting words.” Plaintiff exclaimed a divisive message directly to a group of
“many” individuals while standing on top of a stool,
and, in doing so, actually caused a disturbance. Gold
v. City of Miami, 138 F.3d 886 (11th Cir. 1998) (finding a reasonable officer could not have believed the
plaintiff was engaging in legally proscribed disorderly
conduct when “there was no crowd to incite; there
were no persons disturbed by Gold’s speech”). Moreover, Plaintiff used contentious religious language
that, when directed to a crowd, has a tendency to incite hostility. See, e.g., Mikhail v. City of Lake Worth,
2009 U.S. Dist. LEXIS 59919 (S.D. Fla. 2009) (a street
preacher engaged in fighting words when calling people “sinners” and “prostitutes”); Gilles v. State, 531
N.E.2d 220, 221-222 (Ind. Ct. App. 1988) (calling a
crowd gathered for a festival “sinners,” among other
names, constitutes “fighting words”).
*****
VII. CONCLUSION
For all of the reasons stated above, the State
Defendants respectfully ask the Court to dismiss
Plaintiff’s lawsuit in its entirety.
Respectfully submitted,
CHRISTOPHER M. CARR 112505
Attorney General

156a
KATHLEEN M. PACIOUS 558555
Deputy Attorney General
/s/ Devon Orland
DEVON ORLAND 554301
Senior Asst. Attorney General
/s/ Ellen Cusimano
ELLEN CUSIMANO 844964
Assistant Attorney General

157a
Excerpts from U.S. District Court Docket
Northern District of Georgia (Atlanta)
Civil Docket for Case #: 1:16-cv-04658-ELR
Uzuegbunam v.
Preczewski et al

Date Filed: 12/19/2016

Assigned to: Judge
Eleanor L. Ross
Case in other court:
USCA 11th-Circuit,
18-12676-AA
Cause: 42:1983 Civil
Rights Act

Date Filed #
12/19/2016 1

Date Terminated:
05/25/2018
Jury Demand: Plaintiff
Nature of Suit: 440 Civil
Rights: Other
Jurisdiction: Federal
Question

Docket Text
COMPLAINT with Jury
Demand filed by Chike Uzuegbunam. (Filing fee $400 receipt
number 113E-6875536.) (Attachments: # 1 Exhibit 01 Campus
Maps, # 2 Exhibit 02 Google
Maps, # 3 Exhibit 03 Freedom of
Expression Policy, # 4 Exhibit
04A Pictures Sidewalk Speech
Zone, # 5 Exhibit 04B Pictures
Sidewalk Speech Zone, # 6
Exhibit 05 Pictures Patio Speech
Zone, # 7 Exhibit 06 Speech
Zone Map, # 8 Exhibit 07A
Pictures Off Limits Areas, # 9
Exhibit 07B Pictures Off Limits
Areas, # 10 Exhibit 07C Pictures
Off Limits Areas, # 11 Exhibit
07D Pictures Off Limits Areas, #
12 Exhibit 07E Pictures Off

158a
Limits Areas, # 13 Exhibit 07F
Pictures Off Limits Areas, # 14
Exhibit 08 Free Speech Form, #
15 Exhibit 09 2016−2017
Student Handbook, # 16 Exhibit
10 2013.06.28 Letter to GGC 4, #
17 Exhibit 11 Speech Zone
Confirmation, # 18 Civil Cover
Sheet)(jkl) Please visit our
website at http://www.gand.
uscourts. gov/commonly-usedforms to obtain Pretrial
Instructions which includes the
Consent To Proceed Before U.S.
Magistrate form. (Entered:
12/22/2016)
02/01/2017

11

02/15/2017

13

*****
MOTION to Dismiss with Brief
In Support by Aileen C. Dowell,
Catherine Jannick Downey, Jim
B. Fatzinger, Corey Hughes,
Tomas Jiminez, Rebecca A.
Lawler, Shenna Perry, Stanley
C. Preczewski, Lois C.
Richardson, Gene Ruffin,
Terrance Schneider. (Attachments: # 1 Brief In Support of
State Defendants’ Motion to
Dismiss)(Cusimano, Angela)
(Entered: 02/01/2017)
*****
First AMENDED COMPLAINT
against All Defendants with
Jury Demand, filed by Chike
Uzuegbunam and Joseph
Bradford. (Attachments: # 1
Exhibit Campus Maps, # 2
Exhibit Google Maps, # 3
Exhibit Freedom of Expression
Policy, # 4 Exhibit Pictures

159a
Sidewalk Speech Zone, # 5
Exhibit Pictures Sidewalk
Speech Zone, # 6 Exhibit
Pictures Patio Speech Zone, # 7
Exhibit Speech Zone Map, # 8
Exhibit Pictures Off Limits
Areas, # 9 Exhibit Pictures Off
Limits Areas, # 10 Exhibit
Pictures Off Limits Areas, # 11
Exhibit Pictures Off Limits
Areas, # 12 Exhibit Pictures Off
Limits Areas, # 13 Exhibit
Pictures Off Limits Areas, # 14
Exhibit Free Speech Form, # 15
Exhibit GGC 2016−2017
Student Handbook, # 16 Exhibit
2013.06.28 Letter to GGC, # 17
Exhibit Speech Zone Confirmation)(Barham, Travis) Please
visit our website at
http://www.gand.uscourts.gov/
commonly-used-forms to obtain
Pretrial Instructions which
includes the Consent To Proceed
Before U.S. Magistrate form.
Modified on 2/16/2017 to edit
filer information. (aaq).
(Entered: 02/15/2017)
03/17/2017

18

*****
MOTION to Dismiss Plaintiffs’
13 Amended Complaint by
Aileen C. Dowell, Catherine
Jannick Downey, Jim B.
Fatzinger, Corey Hughes, Tomas
Jiminez, Rebecca A. Lawler,
Shenna Perry, Stanley C.
Preczewski, Lois C. Richardson,
Gene Ruffin, Terrance
Schneider. (Attachments: # 1
Memorandum of Law in Support
of Defendants’ MTD Plaintiffs’

160a
Amended Complaint)(Cusimano,
Angela) Modified on 3/20/2017 to
add document link (cmd).
(Entered: 03/17/2017)
03/31/2017

21

04/07/2017

22

04/24/2017

27

05/05/2017

30

*****
MOTION to Dismiss For
Mootness with Brief In Support
by Aileen C. Dowell, Catherine
Jannick Downey, Jim B.
Fatzinger, Corey Hughes, Tomas
Jiminez, Rebecca A. Lawler,
Shenna Perry, Stanley C.
Preczewski, Lois C. Richardson,
Gene Ruffin, Terrance
Schneider. (Attachments: # 1
Brief In Support of Defendants’
Motion to Dismiss For Mootness,
# 2 Exhibit 1−Affidavit of Eileen
Dowell, # 3 Exhibit 2−Affidavit
of Marc Cardinalli) (Cusimano,
Angela) (Entered: 03/31/2017)
RESPONSE in Opposition re 18
MOTION to Dismiss Plaintiffs’
Amended Complaint filed by
Joseph Bradford, Chike
Uzuegbunam. (Barham, Travis)
(Entered: 04/07/2017)
*****
RESPONSE in Opposition re 21
MOTION to Dismiss For Mootness filed by Joseph Bradford,
Chike Uzuegbunam. (Barham,
Travis) (Entered: 04/24/2017)
*****
REPLY BRIEF re 18 MOTION
to Dismiss Plaintiff’s Amended
Complaint filed by Aileen C.
Dowell, Catherine Jannick
Downey, Jim B. Fatzinger,
Corey Hughes, Tomas Jiminez,

161a
Rebecca A. Lawler, Shenna
Perry, Stanley C. Preczewski,
Lois C. Richardson, Gene Ruffin,
Terrance Schneider. (Cusimano,
Angela) Modified on 5/5/2017 to
correct text per call with
attorney (jkl). (Entered:
05/05/2017)
*****
Submission of 18 MOTION to
Dismiss Plaintiffs’ Amended
Complaint to District Judge
Eleanor L. Ross. (jkl) (Entered:
05/05/2017)

05/05/2017

05/22/2017

32

05/23/2017

06/28/2017

33

07/12/2017

34

*****
REPLY BRIEF re 21 MOTION
to Dismiss For Mootness filed by
Aileen C. Dowell, Catherine
Jannick Downey, Jim B.
Fatzinger, Corey Hughes, Tomas
Jiminez, Rebecca A. Lawler,
Shenna Perry, Stanley C.
Preczewski, Lois C. Richardson,
Gene Ruffin, Terrance
Schneider. (Cusimano, Angela)
(Entered: 05/22/2017)
Submission of 21 MOTION to
Dismiss For Mootness to District
Judge Eleanor L. Ross. (cmd)
(Entered: 05/23/2017)
MOTION for Settlement
Conference by Joseph Bradford,
Chike Uzuegbunam.
(Attachments: # 1 Text of
Proposed Order) (Barham,
Travis) (Entered: 06/28/2017)
RESPONSE in Opposition re 33
MOTION for Settlement
Conference filed by Aileen C.
Dowell, Catherine Jannick

162a

07/28/2017

08/29/2017

35

08/31/2017

36

09/18/2017

09/26/2017

37

Downey, Jim B. Fatzinger,
Corey Hughes, Tomas Jiminez,
Rebecca A. Lawler, Shenna
Perry, Stanley C. Preczewski,
Lois C. Richardson, Gene Ruffin,
Terrance Schneider. (Cusimano,
Angela) (Entered: 07/12/2017)
Submission of 33 MOTION for
Settlement Conference to
District Judge Eleanor L. Ross.
(cmd) (Entered: 07/28/2017)
MOTION for Oral Argument on
Defendants’ Pending Motions to
Dismiss by Joseph Bradford,
Chike Uzuegbunam.
(Attachments: # 1 Text of
Proposed Order) (Barham,
Travis) (Entered: 08/29/2017)
ORDER DENYING Plaintiffs’ 33
Motion for Settlement
Conference. If the Court does
not resolve the Motions to
Dismiss in Defendants’ favor
and close the case, the Court
will reevaluate whether
mediation would be appropriate
at that time. Signed by Judge
Eleanor L. Ross on 8/31/2017.
(cmd) (Entered: 09/01/2017)
Submission of 35 MOTION for
Oral Argument on Defendants’
Pending Motions to Dismiss to
District Judge Eleanor L. Ross.
(cmd) (Entered: 09/18/2017)
Amicus Curiae Brief entered by
Aileen Bell Hughes on behalf of
United States of America,
Department of Justice. (Hughes,
Aileen) Modified on 9/27/2017 to
edit event text. (cmd) (Entered:
09/26/2017)

163a
04/19/2018

39

05/01/2018

40

05/25/2018

41

05/25/2018
05/25/2018

42

*****
Supplemental RESPONSE Brief
in Support re 21 MOTION to
Dismiss For Mootness filed by
Aileen C. Dowell, Catherine
Jannick Downey, Jim B.
Fatzinger, Corey Hughes, Tomas
Jiminez, Rebecca A. Lawler,
Shenna Perry, Stanley C.
Preczewski, Lois C. Richardson,
Gene Ruffin, Terrance
Schneider. (Attachments: # 1
Exhibit)(Cusimano, Angela)
Modified on 5/2/2018 to edit
event text. (cmd) (Entered:
04/19/2018)
RESPONSE re 39 Supplemental
Response Brief in Support of
Motion, filed by Joseph
Bradford, Chike Uzuegbunam.
(Barham, Travis) Modified on
5/2/2018 to edit text. (cmd)
(Entered: 05/01/2018)
ORDER: The Court GRANTS
Defendants’ 21 Motion to
Dismiss for Mootness; GRANTS
Defendants’ 18 Motion to
Dismiss; DENIES Plaintiffs’ 35
Motion for Oral Argument; and
DISMISSES WITHOUT
PREJUDICE this case. Signed
by Judge Eleanor L. Ross on
5/25/2018. (cmd) (Entered:
05/25/2018)
Civil Case Terminated. (cmd)
(Entered: 05/25/2018)
CLERK’S JUDGMENT in favor
of Defendants against Plaintiffs.
(cmd)--Please refer to http://
www.ca11.uscourts.gov to obtain
an appeals jurisdiction checklist-

164a
06/25/2018

43

-(Entered: 05/25/2018)
NOTICE OF APPEAL as to 42
Clerk’s Judgment, 41 Order on
Motion for Oral Argument,,
Order on Motion to Dismiss,,, by
Joseph Bradford, Chike
Uzuegbunam. Filing fee
$ 505, receipt number 113E7967876. Transcript Order Form
due on 7/9/2018 (Barham,
Travis) (Entered: 06/25/2018)
*****

